<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Mikulski, Durbin, Landrieu, 
Lautenberg, Brown, Graham, Coats, and Hoeven.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY


             opening statement of senator patrick j. leahy


    Senator Leahy. Madam Secretary, we are pleased to have you 
here. I know this is your first appearance before the Congress 
on the President's fiscal year 2013 budget request for the 
Department of State, foreign operations, and related programs. 
Senator Graham and I have tried to work very, very closely in 
this subcommittee, and I appreciate the time both Senator 
Graham and I had with you earlier this morning.
    Before we begin, I would like to note we are missing a 
member of the subcommittee today, Senator Mark Kirk, who has 
had a serious health problem. But the indications are that he 
is improving, and all of us--both Republicans and Democrats--
wish him a speedy recovery.
    The request for the Department of StateState, foreign 
operations, and related programs totals $54.7 billion. That is 
a 2.6-percent increase more than last year. The increases are 
mostly limited to a few areas. Funding for the majority of 
programs is frozen at current levels and there are few new 
initiatives.
    We live in an increasingly competitive and dangerous world. 
China's growing military power and global influence pose major 
challenges and opportunities for the United States, as it does 
for many countries. I worry about whether we are responding as 
vigorously as we should.
    When you testified before the subcommittee 1 year ago--and 
it seems like 100 years ago--the Arab Spring was just starting. 
We were witnessing the power of citizens to force their 
government to begin a transition to democracy and the 
protection of fundamental freedoms.
    One year later, we see Syria devolving further and further 
into civil war and the slaughter of Syrian civilians. The 
Egyptian military and Mubarak holdovers are trying to silence 
those who are working for democracy and human rights. The 
Government of Bahrain continues to use force against civilians 
who are demonstrating peacefully. It is increasingly difficult 
to predict what is going to emerge from the chaos in Libya and 
Yemen.
    But while our intelligence agencies were caught off guard 
by the dramatic changes in the Middle East and North Africa, on 
the whole I believe the State Department's response has been 
commendable. The question is, ``Where we go from here?''
    You have spent time there. What are your intentions for 
your proposed Middle East and North Africa Incentive Fund, for 
example? In the midst of all this turmoil and the growing 
challenges in East Asia and our own hemisphere, there are 
disproportionate uses of resources--in my view, anyway--in 
Iraq, Afghanistan, and Pakistan.
    I think history will show, and this was before your time as 
Secretary, that our ambitions in Afghanistan and Iraq were 
naive and enormously wasteful. I think we should scale back our 
costs in both countries to amounts that can be justified and 
sustained.
    Despite many attempts and billions of dollars over the 
years, it is sobering how little progress we have made in 
building a positive, stable relationship with the people of 
Pakistan, not to mention its military and civilian leadership. 
But the administration's budget proposes more of the same. Part 
of me considers this ``budgeting by inertia''.
    Yesterday, I returned from Haiti and Colombia. I have seen 
notable progress in both countries. I met with President 
Martelly, and I should say, incidentally, that he appreciates 
very much the interest you and your husband have shown to 
Haiti. As you know, my wife and I have gone there many times.
    I also believe that President Santos of Colombia deserves 
our support, but that support is not unconditional.
    I also visited Cuba. I think their government and a vocal, 
but small population of Cuban Americans are, in my view, the 
primary beneficiaries of our embargo. I told former President 
Castro and reiterated to current President Castro that, in some 
ways, our embargo is the best thing they have going for them 
because they can blame a failed economic and political system 
on us. I think our policy there needs to change.
    I also want you to know, that our delegation--and there 
were six of us--received invaluable help from our Ambassadors 
and their staffs in each of the countries we visited. They 
worked very hard, especially in a couple of these countries, 
when the schedule was changing daily, hourly, a couple times 
even while we were in flight.


                           prepared statement


    It is going to be difficult to get a bill through this 
year. We will certainly receive an allocation below the amount 
requested by the President. It will be difficult, but Senator 
Graham and I have worked very closely together, as we have 
before.
    Actually, for years, with Senator Graham, Senator Mitch 
McConnell, and former Senator Judd Gregg, we have gone back and 
forth between who is chairman or who is ranking member. We have 
always worked together. The American people deserve nothing 
less.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Welcome, Madam Secretary. We appreciate that this is your first 
appearance before the Congress on the President's fiscal year 2013 
budget request for the Department of State, foreign operations, and 
related programs.
    Before we begin I would like to note that we are missing a member 
of the subcommittee today, Senator Mark Kirk. We are thinking of 
Senator Kirk and wish him the best for a speedy recovery.
    The request for the Department of State foreign operations, and 
related programs totals $54.7 billion, which is a 2.6-percent increase 
more than last year. However, the increases are mostly limited to a few 
areas. Funding for the majority of programs is frozen at current 
levels, and there are few new initiatives.
    We live in an increasingly competitive and dangerous world. China's 
growing military power and global influence pose major challenges and 
opportunities for the United States, as it does for many countries, and 
I am concerned that we may not be responding to those challenges as 
vigorously as we should.
    When you testified before this subcommittee a year ago the Arab 
Spring was just starting and we were witnessing the power of citizens 
to force their governments to begin a transition to democracy and the 
protection of fundamental freedoms.
    A year later, Syria is devolving further and further into civil 
war. The Egyptian military and Mubarak holdovers are trying to silence 
those who are working for democracy and human rights.
    The Government of Bahrain continues to use force against civilians 
who are demonstrating peacefully, and it is increasingly difficult to 
predict what is going to emerge from the growing chaos in Libya and 
Yemen.
    While our intelligence agencies were caught off guard by the 
dramatic changes in the Middle East and North Africa, on the whole I 
believe the State Department's response has been commendable. The 
question is where we go from here and what your intentions are for your 
proposed Middle East and North Africa Incentive Fund.
    In the midst of all this turmoil and the growing challenges in East 
Asia and our own hemisphere, the Department continues to focus 
resources--disproportionately, in my view--on Iraq, Afghanistan, and 
Pakistan.
    I believe history will show that our ambitions in Afghanistan and 
Iraq were naive and enormously wasteful, and that we should scale back 
our costs in both countries to amounts that can be justified and 
sustained.
    Despite many attempts and billions of dollars over the years, it is 
sobering how little progress we have made in building a positive, 
stable relationship with the people of Pakistan, not to mention its 
military and civilian leadership. Yet your budget proposes more of the 
same. It is understandable that some consider it budgeting by inertia. 
Perhaps that is overly pessimistic.
    Yesterday, I returned from Haiti and Colombia where there has been 
notable progress. President Martelly and President Santos deserve our 
strong, if not unconditional, support. I also visited Cuba whose 
government and a vocal, but small population of Cuban-Americans are, in 
my view, the primary beneficiaries of our misguided embargo.
    I also want you to know that my delegation received invaluable help 
from our Ambassadors and their staffs in each of the countries we 
visited. They gave us excellent advice and support.
    Madam Secretary, like last year, we are faced with an extremely 
difficult budget environment. We will almost certainly receive an 
allocation that is below the amount requested by the President, and 
getting a bill to his desk will require difficult choices.
    But for as long as I have held the gavel of this subcommittee we 
have functioned in a bipartisan, cooperative manner. We also work that 
way with our House counterparts. Every detail of what we recommend is 
open to scrutiny and debate.
    I want to thank Senator Graham for being such an active and 
constructive partner, and the other members here. We have a lot of work 
ahead of us.

    Senator Leahy. Senator Graham.
    Senator Graham. Thank you.

                  STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Well, I have nothing to blame my voice on. 
I just actually talk this way. But I know you have just gotten 
back from some overseas travels, and I really appreciate the 
working relationship. It has been fun to understand the world 
from a different perspective.
    The first thing I want to do is acknowledge the Secretary 
of State. I am glad we don't pay you by the mile.
    You would bust the budget.
    Senator Leahy. Or by the hour.
    Senator Graham. Yes, by the hour. But really, on behalf of 
all Americans, Secretary Clinton, I really appreciate what you 
have done for our country. You are tireless. You travel the 
world, it seems to be endless. I know you must have a refueling 
probe on your plane. But sometimes we will have differences, 
but I know you sincerely care about the state of world affairs, 
and I think you represent our country very well on the world 
stage, and I just want to say that because I know how hard you 
work.
    Everything Senator Leahy said is true. Fifty-four billion 
dollars, we probably won't get there. It is a 2.6-percent 
increase. I would ask my colleagues to think about the world. 
Has the world gotten 2.6 percent more dangerous? I would say it 
has.
    But the foreign aid budget is 1 percent of the budget. When 
I ask people at home about foreign assistance, it is a very 
tough topic--I think everybody in the Senate agrees with that--
because people need so much to be done here.
    I would just tell my fellow citizens and people from South 
Carolina, I want to shape the world the best we can, rather 
than just follow the world. And if you don't believe military 
force is the answer to every problem, which I don't, then we 
need an engagement strategy. Sometimes investing in a country 
at the right time can pay dividends.
    So, yes, the world is in turmoil, but there are a lot of 
exciting opportunities to re-engage parts of the world that we 
have been shut out.
    Tunisia, for one. This new government in Tunisia has a lot 
of potential. They believe in free markets. They want a free 
trade agreement with the United States. But they have a cash 
flow problem for the next couple years. They have just had 
snowfall, which is sort of a historic abnormality. Tunisia is a 
good example of where, if we could work with the international 
community to provide some budget assistance for 2 years, I 
think we could turn the country around and have a lot of 
business opportunities.
    Egypt, strategically, is a very important country. They are 
trying to figure out who they are and where to go. The new 
government, believe it or not, wants to separate themselves 
from the Mubarak era. And the Muslim Brotherhood, when you hear 
that term in America, a lot of people get concerned, including 
me, given some of the things they have said.
    But we met with the Muslim Brotherhood on a recent trip, 
and I was impressed with their view of how to grow the economy 
in Egypt and their desire not to associate themselves with the 
nongovernmental organizations (NGO) law that is being used to 
prosecute National Democratic Institute and International 
Republican Institute American citizens and their associates. 
This is an unjust prosecution. The theory behind the case is 
absurd. Ambassador Patterson has done a wonderful job with the 
State Department.
    I went with Senator McCain and others to deliver the 
message to the Egyptian Government that we would not tolerate 
this kind of behavior, that we want a good relationship. And 
the Muslim Brotherhood issued a statement after our meeting 
saying that the NGO law in question was unjust. They intended 
to change it when they get full control of the new parliament.
    So there are some hopeful things going on in the world. And 
I do hope sanctions will work against Iran. No one wants a 
conflict with Iran, but no one, I believe, in their right mind 
wants Iran to have a nuclear weapon.
    So, as we look throughout Afghanistan and Iraq--Iraq is 
very problematic. Afghanistan is at one of the low points, but 
I do believe that a strategic partnership agreement, wisely 
crafted, can secure our interests in Afghanistan. And to those 
who say, ``Is it worth it? We have been there for 10 years'', 
the question for me is, ``Can you afford to lose?'' The answer 
is ``No''.
    We do have a game plan. There is a transition plan in place 
with General Allen. There is a military-civilian partnership 
plan, where the State Departmentand the Departments of Justice 
and Agriculture work hand-in-hand with our military to create 
some economic capacity.
    It is a corrupt place, but the people we are working with 
that we are mentoring, the younger people of Afghanistan, will 
be in charge one day, and they have a very good view of 
America. We are just going to have to push through this and not 
make emotional responses that are understandable and in many 
ways justified. But we have to think strategically.
    And that is what I would like to end this, my opening 
statement on, is that this is a time of strategic thinking, not 
emotional reaction. Republicans and Democrats need to work 
together the best we can.
    Senator Leahy, it has been a joy to work with you.
    Secretary Clinton, I think you have tried to always keep 
our national security and diplomatic interests in strategic 
terms, not tactical terms.
    So I look forward to working with you and your staff to 
come up with a budget that is lean and affordable. And what you 
are doing in Africa I think has been a case study of how 
American assistance can change a continent and change the 
relationship between the United States and people of an entire 
region. So I look forward to working with you in the future.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Leahy. Thank you, Senator Graham.
    Like you, when I travel to different parts of the world, I 
am always struck and very pleased to hear the respect that 
heads of state and foreign ministers have for you. It is 
respect because you have earned it.
    Madam Secretary, why don't you go ahead, and then we will 
ask questions. After Senator Graham and I, we will go back and 
forth in the order that people arrived.

              SUMMARY STATEMENT OF HILLARY RODHAM CLINTON

    Secretary Clinton. Thank you very much, Chairman Leahy, 
Ranking Member Graham, and members of the subcommittee.
    It is good to be back here in the Senate again. And I 
greatly appreciate the excellent working relationship that we 
have had over the last 3-plus years.
    I wish also to register my concern and my best wishes for 
Senator Kirk. Of course, I wrote him as soon as I heard about 
his health challenges, and we all wish him a speedy return.
    I also greatly appreciate the travel that both of you have 
just described having taken. I think it is absolutely essential 
to see what is going on in the world with your own eyes and to 
hear from leaders and citizens with your own ears. So let me 
express to you and to all members our appreciation.
    We know how quickly the world is transforming, from Arab 
revolutions to the rise of new economic powers, to a more 
dispersed, but still dangerous al Qaeda terrorist threat. In 
this time, only the United States of America has the reach, 
resources, and relationships to anchor a more peaceful and 
prosperous world.
    The State Department and United States Agency for 
International Development (USAID) budget we discuss today is a 
proven investment in our national and economic security, but it 
is also something more. It is a down payment on continuing 
American leadership.
    When I took this job, I saw a world that needed America, 
but also one that questioned our focus and our staying power. 
So we have worked together to put American leadership on a firm 
foundation for the decades ahead.
    We have ended one war. We are winding down another. We have 
cemented our place as a Pacific power while maintaining our 
alliance across the Atlantic. We have elevated the role of 
economics within our diplomacy. And we have reached beyond 
governments to engage directly with people, with a special 
focus on women and girls.
    We are updating our diplomacy and development for the 21st 
century and finding ways to work smarter and more efficiently. 
After the first-ever Quadrennial Diplomacy and Development 
Review (QDDR), we created two new bureaus, focused on 
counterterrorism and energy, and reorganized a third, focused 
on fragile states.
    Now, like many Americans in our tough economic times, we 
have made difficult tradeoffs and painful cuts. We have 
requested 18 percent less for Europe, Eurasia, and Central 
Asia, preserving our most essential programs, and using the 
savings for more urgent needs elsewhere. We are scaling back on 
construction, improving procurement, and taking steps across 
the board to lower costs.
    Now, within the foreign operations budget, the State 
Department and USAID are requesting $51.6 billion. That 
represents an increase of less than the rate of inflation, and 
just more than 1 percent of the Federal budget, even as our 
responsibilities multiply around the world.
    Today, I want to highlight five priorities.
    First, our request allows us to sustain our vital national 
security missions in Iraq, Afghanistan, and Pakistan, and 
reflects the temporary extraordinary costs of operating on the 
front lines. As President Obama has said, ``The tide of war is 
receding.'' But as troops come home, civilians remain to carry 
out the critical missions of diplomacy and development.
    In Iraq, civilians are now in the lead, helping that 
country emerge as a stable, sovereign, democratic partner. This 
does increase our civilian budget, but State and USAID are 
asking for only one-tenth of the $48 billion the United States 
Government spent on Iraq as recently as 2011. The 2013 U.S. 
Governmentwide request for Iraq, including defense spending, is 
now $40 billion less than it was just 2 years ago. So we think 
that this is a continuing good investment to stabilize the 
sacrifice that our men and women in uniform, our civilians, and 
our taxpayers have made.
    Over time, despite the past week's violence, we expect to 
see similar Government-wide savings in Afghanistan. This year's 
request will support the ongoing transition, helping Afghans 
take responsibility for their own future and ensure their 
country is never again a safe haven for terrorists who can 
target us.
    Next door, we have a challenging, but critical relationship 
with Pakistan. And we remain committed to working on issues of 
joint interest, including counterterrorism, economic stability, 
and regional cooperation.
    Second, in the Asia-Pacific, this administration is making 
an unprecedented effort to build a strong network of 
relationships and institutions in which the United States is 
anchored. In the century ahead, no region will be more 
consequential.
    As we tighten our belts around the world, we are investing 
the diplomatic attention necessary to do more with less. In 
Asia, we pursue what we call ``forward-deployed diplomacy'', 
strengthening our alliances, launching new strategic dialogues 
and economic initiatives, creating and joining important 
multilateral institutions, pursuing a possible opening with 
Burma--all of which underscores that America will remain a 
Pacific power.
    Third, we are focused on the wave of change sweeping the 
Arab world. As the region transforms, so must our engagement. 
Alongside our bilateral and security support, we are proposing 
a $770 million Middle East and North Africa Incentive Fund.
    This fund will support credible proposals, validated by 
rigorous analysis and by the Congress, from countries that make 
a meaningful commitment to democratic change, effective 
institution building, and broad-based economic growth. In an 
unpredictable time, it lets us respond to all of the 
unanticipated needs in a way that reflects our leadership and 
agility in the region.
    This budget request would also allow us to help the Syrian 
people survive a brutal assault and plan for a future without 
Assad. It continues our assistance for civil society and Arab 
partners in Jordan, Morocco, and elsewhere. And I want to echo 
Senator Graham's emphasis on Tunisia, a country that I think 
deserves a lot of attention and support from the United States.
    The budget also provides a record level of support for 
Israel, and it makes possible our diplomacy at the United 
Nations, and around the world, which has now put in place, with 
your help, the toughest sanctions Iran or any nation has ever 
faced.
    The fourth priority is what I call ``economic statecraft'', 
in particular how we use diplomacy and development to create 
American jobs, jobs in Ohio, New Jersey, Maryland, Vermont, 
South Carolina, and Indiana. We have more than 1,000 State 
Department economic officers working to help American 
businesses connect to new markets and consumers. We are pushing 
back against corruption, redtape, favoritism, distorted 
currencies, and intellectual property theft.
    Our investment in development helps create the trading 
partners of the future, and we have worked closely on the three 
trade agreements that we believe will create tens of thousands 
of new American jobs. We hope to work with the Congress to 
ensure that as Russia enters the World Trade Organization, 
foreign competitors do not have an advantage over American 
businesses.
    And finally, we are elevating development, alongside 
diplomacy and defense, within foreign policy. Poverty, disease, 
hunger, climate change can destabilize entire societies and sow 
the seeds for future conflict. We have to make strategic 
investments today to meet even our traditional foreign policy 
goals tomorrow.
    Through the Global Health Initiative, we are consolidating 
programs, increasing partners' capacities, and shifting 
responsibilities to help target our resources where they are 
most needed and highest impact, including in areas like 
maternal and child health. Our Feed the Future Initiative is 
helping millions of men, women, and children by driving 
agricultural growth and improving nutrition to hasten the day 
when countries no longer need food aid at all.
    As we pursue these initiatives, we are transforming the way 
we do development, making it a priority to partner with 
governments, local groups, and the private sector to deliver 
measurable results. Ultimately, our goal is to empower people 
to create and seize their own opportunities.
    These five priorities, Mr. Chairman, are each crucial for 
American leadership. And they rely on the work of some of the 
most capable, hardest working, and bravest people I have ever 
met--the men and women of State and USAID. Working with them is 
one of the greatest honors I have had in public life.
    So, with so much on the line, we simply cannot pull back. 
And I know this subcommittee understands this.
    But, for me, American leadership is personal. After 3 
years, 95 countries, more than 700,000 miles, I know very well 
what it means to land in a plane that says ``United States of 
America'' on the side, to have that flag right there as I walk 
down the stairs. People look to us to protect our allies and 
stand by our principles and serve as an honest broker in making 
peace, in fighting hunger, poverty, and disease, to standing up 
to bullies and tyrants.

                           PREPARED STATEMENT

    American leadership is not just respected. It is required. 
And it takes more than just resolve and a lot of hours in the 
plane. It takes resources.
    This country is an unparalleled force for good in the 
world, and we all want to make sure it stays that way.
    So I urge you to work with us to make this investment in 
strong American leadership and a more peaceful and prosperous 
future.
    Thank you very much.
    [The statement follows:]
              Prepared Statement of Hillary Rodham Clinton
    Chairman Leahy, Ranking Member Graham, members of the subcommittee: 
it is good to be with you again. I am grateful for your support for 
civilian power these past 3 years and eager to hear your thoughts on 
the work ahead.
    We are living through a time of volatility and possibility. The 
Arab world is transforming. The rise of new powers is redrawing the 
strategic map, creating new partners, new challenges, and growing 
economic competition. Al Qaeda is weakened, but still dangerous. In 
this time, only America has the reach, resources, and relationships to 
anchor a more peaceful and prosperous world.
    The State Department and United States Agency for International 
Development (USAID) budget we discuss today is a proven investment in 
our national and economic security, but also something more: it is a 
down payment on American leadership in a fast-changing world.
    When I became Secretary of State, I saw a world that needed 
America, but also one that questioned our focus and staying power. Ever 
since, we have worked together to put American leadership on a firm 
foundation for the decades ahead. We have ended one war and are winding 
down another. We have cemented our place as a Pacific power, while 
maintaining the most powerful alliance in history across the Atlantic. 
We have elevated the role of economics within our diplomacy to create 
American jobs and advance our strategic interests. We have reached 
beyond governments to engage directly with people--with a special focus 
on women and girls.
    We are updating our diplomacy and development for the 21st century, 
making use of new technologies, partnering with the private sector and 
finding ways to work smarter and more efficiently. After the first-ever 
Quadrennial Diplomacy and Development Review, we created two new 
bureaus focused on counterterrorism and energy and reorganized a third 
to prevent fragile states from becoming failed states.
    Like many Americans in tough economic times, we have made difficult 
tradeoffs and painful cuts. We have requested 18 percent less for 
Europe, Eurasia and Central Asia, preserving our most essential 
programs and using the savings for more urgent needs elsewhere. We are 
scaling back construction, improving procurement, and taking countless 
steps to lower costs.
    Even as our challenges and responsibilities multiply around the 
world, our request represents an increase of less than the rate of 
inflation. State and USAID request $51.6 billion, just more than 1 
percent of the Federal budget.
    Today, I want to highlight five priorities--all made possible by 
the investments in this budget.
    First, our request allows us to sustain our vital national security 
missions in Iraq, Afghanistan, and Pakistan. As President Obama says, 
``the tide of war is receding''. But as troops come home, civilians 
remain to carry out the critical missions of diplomacy and development. 
Our request reflects the temporary, extraordinary costs of operating on 
the frontlines.
    In Iraq, civilians are now in the lead, working to help that 
country come through this current period of challenge and uncertainty 
to emerge as a stable, sovereign, democratic partner. This increases 
our civilian budget, but State and USAID are asking for only one-tenth 
of the $48 billion the United States Government spent on Iraq as 
recently as 2011. The 2013 United States Government request for Iraq, 
including defense spending, is now $40 billion less than it was just 2 
years ago. So this approach is saving taxpayers a great deal of money.
    Over time, despite the past week's violence, we expect to see 
similar Governmentwide savings in Afghanistan, where civilians have 
already taken on increased duties. This year's request will support the 
ongoing transition, helping Afghans take responsibility for their own 
future and ensure their country is never again a safe-haven for 
terrorists to threaten America. In Pakistan, we have a challenging, but 
critical relationship. We remain committed to working on issues of 
joint interest, including counterterrorism, economic stability, and 
regional cooperation.
    For the past decade, we have been focused--by necessity--on the 
places where we face the greatest threats. In the decade ahead, we need 
to be just as focused on the areas of greatest opportunity. Which 
brings me to another critical priority: the Asia-Pacific region, from 
the Indian subcontinent to the shores of the Americas. The Obama 
administration is making an unprecedented effort to build a strong 
network of relationships and institutions across the Pacific. In the 
century ahead, no region will be more consequential.
    As we tighten our belts around the world, we are investing the 
diplomatic attention necessary to do more with less. In Asia, we are 
pursuing what we call forward-deployed diplomacy--from strengthening 
our alliances, to launching new strategic dialogues and economic 
initiatives, to creating and joining important multilateral 
institutions, to our new opening with Burma--to underscore that America 
will remain a Pacific power.
    Third, we are focused on the wave of change sweeping the Arab 
world. We have a significant stake in successful democratic 
transitions. And as the region transforms, so must our engagement.
    Alongside our bilateral and security support, we are proposing a 
$770 million Middle East and North Africa Incentive Fund to encourage 
major political and economic reforms. This fund will support credible 
proposals--validated by rigorous analysis and key stakeholders, 
including the Congress--to promote democratic change, effective 
institutions, and broad-based economic growth. When countries commit to 
making genuine reform, the fund will provide meaningful assistance, 
which ultimately puts our partnerships on firmer footing. And, in an 
unpredictable time, it lets us respond to unanticipated needs in a way 
that reflects our leadership role in the region.
    Of course, not all countries in the region are embracing the mantle 
of reform and responsibility. This budget request would allow us to 
keep our commitment to help the Syrian people survive a brutal assault, 
reclaim their country, and plan for a future without Assad.
    Our request also supports those working for change at the 
grassroots. It continues our assistance for Arab partners in Jordan, 
Morocco, and elsewhere. It provides a record level of support for our 
ally, Israel. And it makes possible our diplomacy at the United Nations 
and around the world, which has now put in place--with your help--by 
far the toughest sanctions Iran has ever faced.
    The fourth priority is what I call economic statecraft--how we act 
at the crossroads of economics and diplomacy. At every turn, we are 
asking: How can we use diplomacy and development to strengthen our 
economy? We have more than 1,000 State Department economic officers 
working every day to help American businesses connect to new markets 
and consumers to create opportunities here at home. We are pushing back 
against corruption, redtape, favoritism, distorted currencies, and 
intellectual property theft. USAID invests in the poorest, most 
unstable regions because it is the right thing to do, but also because 
it helps create the trading partners of the future. Under the 
leadership of U.S. Trade Representative Ron Kirk, we have worked 
closely together on three trade agreements that will create tens of 
thousands of American jobs. And we hope to work with the Congress to 
ensure that, as Russia enters the World Trade Organization, foreign 
competitors do not have an advantage over American business.
    Finally, we are elevating development alongside diplomacy and 
defense within our foreign policy. Poverty, disease, hunger, and 
climate change can destabilize entire societies and sow the seeds for 
future conflict. We have to make investments now not just to promote 
human security, but to meet even our traditional foreign policy goals 
down the road.
    Through the Global Health Initiative, we are consolidating 
programs, increasing efficiencies and shifting responsibilities to host 
countries. By driving down costs, we will be able to provide life-
saving HIV treatment for 6 million people by the end of 2013 without 
additional spending-accelerating our progress toward President Obama's 
vision of an AIDS-free generation. Building on past investments, we are 
increasing countries' own health system capacity. That helps us target 
our resources where they are most needed and have the greatest impact, 
including areas like maternal and child health.
    Our Feed the Future initiative will help millions of men, women, 
and children--farmers and consumers--by driving agricultural growth and 
improving nutrition to hasten the day when countries no longer need 
food aid at all.
    As we pursue these initiatives, we are transforming the way we do 
development. We are partnering with governments, local groups, and the 
private sector instead of substituting for them. We are making it a 
priority to deliver measurable results, build local capacity and 
promote good governance and pro-growth policies to empower people to 
create and seize their own opportunities.
    These five priorities--the frontline states, the Asia-Pacific, the 
Arab transitions, economic statecraft and elevating development--are 
each crucial to American leadership. And they are just the beginning of 
what we do to serve and safeguard the American people in every region 
of the world--including Africa, Latin America, Central Asia, and 
Europe. The Department of State and USAID reduce the threat of nuclear 
weapons, fight international trafficking, counter violent extremism, 
and protect U.S. citizens overseas.
    This work is done by some of the most capable, hardest-working, and 
bravest people I have ever met--the men and women of State and USAID. 
The political officers who worked for thousands of hours to assemble 
and hold together a NATO-Arab coalition that helped the Libyan people 
reclaim their future--without a single American death. The economic 
officers helping American companies take part in the tens of billions 
of dollars of construction underway as Brazil prepares for the World 
Cup and Olympics. The development officers offering life-saving 
treatment. The consular officers who serve as the front line of our 
efforts to secure our borders. The public diplomacy officers who tell 
the world our story. And the management officers who make everything 
else possible. Working with them is one of the greatest honors I have 
had in public life.
    With so much on the line, from the Arab world to the Asia-Pacific, 
we simply cannot pull back. Investments in American leadership are not 
the cause of our fiscal challenges, and retreating from the world is 
not the solution.
    American leadership is personal for me. It is my job everywhere I 
go. After 3 years, 95 countries and more than 700,000 miles, I know 
very well what it means to land in a plane that says ``United States of 
America'' on the side. People look to us to protect our allies, stand 
by our principles and serve as an honest broker in making peace; to 
fight hunger, poverty and disease; and to stand up to bullies and 
tyrants. American leadership is not just respected. It is required. And 
it takes more than just resolve. It takes resources.
    This country is an unparalleled force for good in the world. We all 
want to make sure it stays that way. I urge you to make this investment 
in strong American leadership and a more peaceful and prosperous 
future.

    Senator Leahy. Thank you very much, Madam Secretary.
    I agree with you that it is a good symbol when you land, 
but I suspect the symbol is even more yourself. In some areas 
we are basically reintroducing America to the rest of the 
world.
    You mentioned the Arab Spring. Like everyone, I saw the 
uprising in Tunisia, Egypt, Libya, and Yemen. We also see 
violent attempts by regimes who want to cling to power--Syria, 
especially.
    You propose a new Middle East and North Africa Incentive 
Fund. Is this substantively different from what we appropriated 
for this region during fiscal year 2012, or is it just money 
consolidated under one heading? I know it is about $700 
million----
    Secretary Clinton. Right.
    Senator Leahy [continuing]. But I am curious how it 
differs.
    Secretary Clinton. It is intended to do several things, Mr. 
Chairman. We are, of course, grateful for the funding that we 
have had in the past that allows us to do the work we do.
    But given the fast-moving changes that we are seeing, it is 
very hard to predict, sitting here today and even as you go 
through the appropriations process, what we are going to need 
in October or November.
    Senator Leahy. I understand that. Perhaps you could provide 
for the record more fully how it differs from the money we have 
already given.
    In that regard, I would note that Senator Inouye and I had 
a hearing last year where we submitted some questions to you, 
and we got the responses 11 months later. We will include them 
in the record. But at that point, it is impossible to use them 
to make any judgments on the budget.
    It is going to be a battle royale this year on the budget. 
So if questions are submitted, please tell your staff to get 
responses as quickly as possible.

    UNITED NATIONS EDUCATIONAL, SCIENTIFIC AND CULTURAL ORGANIZATION

    Regarding the United Nations Educational, Scientific and 
Cultural Organization (UNESCO), President George W. Bush 
announced the United States would rejoin UNESCO as a symbol of 
our commitment to human dignity. As you know, we have two 1990 
laws that prohibit a United States contribution to UNESCO if 
the Palestine Liberation Organization (PLO) becomes a member.
    The PLO became a member. Our $79 million contribution was 
cut off. We were doing this to support Israel. It is 
interesting. Of course, Israel remains a contributing member of 
UNESCO.
    They get all the advantages of being a member. We lose our 
influence. So it is like saying, ``Here, we will punish the PLO 
by hitting ourselves in the head.''
    Is there any way we get out of this?
    Secretary Clinton. Well, a couple of things, Mr. Chairman.
    First, I deeply regret that any questions did not get to 
you in a timely manner. I was not aware of that. I checked on 
it when I saw some reporting on it, and I can tell you it will 
never happen again. I deeply regret it.
    Second, I wanted to just respond on the $770 million. You 
know, during the course of this last year, based on what the 
Congress appropriated, we had to carve out nearly $360 million 
from ongoing programs and from global humanitarian assistance 
accounts to meet emerging needs in Tunisia, Egypt, and Libya.
    In addition, we set aside money from the Egypt program, 
from the rest of the world, to try to fund what the Congress 
agreed with us on, namely the debt swap, and to create another 
program that Congress supported, the Enterprise Funds for Egypt 
and Tunisia. We pulled money from other programs to address the 
ongoing challenges in North Africa and the Middle East, and it 
was an awkward, difficult kind of operation.
    And if you compare the $770 million that we are requesting 
for this fund to what we did in 1989, where we had support for 
East European democracy, providing assistance for just Hungary 
and Poland alone at $1 billion, and then when we responded in 
the aftermath of the Georgia-Russia conflict in 2008, the U.S. 
Government committed $1 billion. I think we made the right 
investments back in 1989 and 2008. I think we need to recognize 
the requirement for such a fund at this point.
    And Mr. Chairman, on your third point, you are absolutely 
right. Under our laws, we certainly followed the requirements 
that we no longer fund UNESCO. We are abiding by the 
requirements from the early 1990s. But you are right that 
Israel remains a full, dues-paying member of UNESCO. And we 
were delighted to help Israel join UNESCO.
    And the reason I think they believe it is important is 
because you battle out a lot of issues that are critical to 
Israel and, I would add, to the United States. But certainly, 
the requirement of our law does not permit any room for 
discretion.
    Senator Leahy. Anybody would do exactly what you did under 
our law. I am just pointing out that sometimes these laws, 
while they may have great symbolic significance to Members or 
certain lobbies can end up really hurting us in the end. I hope 
that regarding this one cooler heads may prevail.

                                  IRAQ

    Now, you speak of and moving money around in Africa, and 
then you talked about Eastern Europe. I am well aware of each 
of those times we have had to move it. That is why I worry a 
great deal about our Embassy in Iraq, again something you 
inherited, but I think it is far too big and too expensive. I 
think it is a symbol of grandiose and unrealistic ambitions in 
that country.
    The administration has a $4.8 billion budget request for 
civilian operations and programs in Iraq, particularly relating 
to an $850 million police training program. The cost of 
providing security and day-to-day needs of employees and 
contractors is five times more costly than the actual programs.
    Of the 16,000 staff under the Ambassador's authority, more 
than 14,000 are for extraordinary support, including more than 
8,000 security and life-support contractors.
    We have a Shiite government that seems more autocratic 
every day, aligned with Iran. They go out of their way to tell 
us how little they think of us, and we don't have enough money 
for our Embassies where we have other interests, including U.S. 
commercial interests. We don't have enough money for the 
programs you speak of in Africa and elsewhere, which I think 
are very important.
    How do we continue to sustain this? I have got to tell you, 
just as one Senator, I am finding it harder and harder to vote 
for money to continue these programs in Iraq, Afghanistan, 
Pakistan. As you were giving your answer on the needs for 
Africa and elsewhere--and I agree with you--I look at this 
great big, almost like a blinking red light, this budget for 
our Embassy in Iraq.
    [The information follows:]

    The resources requested for fiscal year 2013 in Afghanistan will 
play a key role in ensuring Afghanistan never again serves as a safe 
haven to al Qaeda or other extremist groups. Foreign assistance 
resources will focus on building Afghan capacity to more effectively 
manage their own development. The $1.85 billion requested in the 
Economic Support Fund for Afghanistan represents our estimate of the 
resources that will be required to set a sustainable foundation for an 
economically stable, post-transition Afghanistan, Such requests will 
gradually decline from a high point of $3.4 billion in fiscal year 2010 
in a responsible manner in order to ensure a successful transition and 
maintain hard-won gains of the last decade. Foreign operations 
resources will ensure a secure U.S. diplomatic and development presence 
appropriately sized to oversee our continuing robust cooperation with 
Afghanistan.
     In the last year, we have taken significant strides toward a 
secure and stable Afghanistan through gains on the battlefield, the end 
of bin Laden, and strong commitments by the region and international 
community to Afghanistan's future at the Istanbul and Bonn conferences. 
At the North Atlantic Treaty Organization (NATO) Summit in Chicago 
later this spring, we hope to join with international partners to 
announce a plan to share the burden of training and equipping Afghan 
security forces to ensure Afghanistan's long-term stability.
    Since 2002, the Government of Afghanistan has made significant 
progress in terms of its fiscal sustainability and technical capacity 
to govern. Government revenues have increased steadily over the last 5 
years, including significant increases in collection of customs duties 
and fees for electricity. The Government has also signaled its 
commitment to reform through the adoption of a new economic strategy 
last year in Bonn which sets specific objectives to combat corruption 
and improve governance. This is not to say there have not been 
challenges and setbacks. In spite of the challenges though, we remain 
determined to meet our goal of transitioning security responsibility to 
the Government of Afghanistan by the end of 2014, which should result 
in a significant reduction in United States military spending.
    Our assistance program in fiscal year 2013 will continue to improve 
project sustainability through capacity building to ensure Afghans can 
maintain past investments into the future. Nowhere is this more evident 
than our investments in the Afghanistan infrastructure sector. Our 
fiscal year 2013 assistance request for infrastructure is a 12-percent 
decrease from fiscal year 2012 and a 31-percent decrease from fiscal 
year 2011; and our major focus is on increasing operations and 
maintenance capacity and sustainability as opposed to new construction 
projects.
    We are also seeking to improve the sustainability of the projects 
by increasing the percentage of development projects implemented by the 
Government of Afghanistan. These on-budget projects give the Government 
of Afghanistan hands-on experience in managing their own development 
within tightly defined parameters and with close supervision by USAID. 
We also remain committed to support for the Afghanistan Reconstruction 
Trust Fund, and the related National Solidarity Program as a means to 
improve the capacity of the government to sustain the country's 
development.
    Development resources have allowed the United States to work in 
partnership with Afghans to make major improvements in health, 
education and economic growth, but more work is required to ensure 
Afghans can continue progress without outside help. Making key 
foundational investments now (including energy infrastructure, 
sustainable agriculture, and government economic capacity) is important 
in fostering a more sustainable and resilient economy.

    Secretary Clinton. Well, it is the case, Mr. Chairman, as 
you know very well, that we have attempted to do something that 
hasn't been done since World War II, which is to take 
responsibility for the transition from a very large military 
footprint performing a lot of functions inside Iraq, 
unilaterally and bilaterally with the new Iraqi Government, and 
move toward a normal relationship between the United States and 
Iraq. And that does require right-sizing Embassy Baghdad.
    And so, we have a robust diplomatic presence in Iraq, not 
only in Baghdad, but in Erbil, in Basra, elsewhere. We are 
looking to make sure we have a constructive relationship with 
the new Iraqi Government and a normal relationship between 
sovereign nations.
    We have never made any secret of the fact that, even as we 
planned and executed the military-to-civilian transition, we 
were thinking about the next phase, a methodical plan for 
moving in the direction of operations along the lines of how we 
operate elsewhere in the world.
    And our budget request for fiscal year 2013 shows a 
reduction as a result of normalizing operations. This process 
is just part of the daily doing business, and we haven't--I 
don't think we have moved too quickly, contrary to press 
reports. We haven't reduced our presence by 50 percent. But we 
do hope over the coming years to be able to normalize by hiring 
more Iraqis, which is what we do everywhere in the world, 
sourcing more goods locally, reducing our dependence on 
contractors, which is very expensive.
    So we understand the serious concerns in your question, Mr. 
Chairman. And I can assure you that we are trying to move in a 
methodical way to do this right, so that what we end up with 
represents the importance of this relationship.
    Senator Leahy. We will probably have a lot more discussion 
about this. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I think maybe I will just pick up where you left off. I 
share the chairman's concern--and I know you do, too--about the 
security environment in Iraq. I think we are down to 600 
American military personnel.
    My question is, do you feel, given the conditions in Iraq, 
that we can safely operate on the diplomatic and economic 
development front?
    Secretary Clinton. At this time, our Embassy personnel, our 
U.S. mission--which, of course, is not just State and USAID, 
but a number of Government agencies--is going about the 
business of working with the people and Government of Iraq. We 
are obviously focused on ensuring the safety of both our staff 
and our contractors. We monitor security hour by hour, and we 
know there is no guarantee of safety. But we think we have 
judiciously deployed our staff and made everyone aware of the 
risks that they face.
    Senator Graham. How would you describe the security 
environment in Iraq right now? Is it stable, unstable, 
somewhere in between?
    Secretary Clinton. I think, Senator Graham, it is certainly 
far better than at any point in the past. It is more stable and 
safe. But there is a continuing unfortunate danger from 
extremists. We have seen this in the car bombs and other 
attacks, and we are doing our best to make sure our people are 
as safe as possible.
    This is not the only environment in which our diplomats and 
development experts operate with some concern about their 
safety. But right now, based on our assessment, we believe it 
is a manageable risk in Iraq.
    Senator Graham. Well, I think I will probably come out with 
a different view of the security situation, and we are going to 
have to look at our aid in light of that. I just don't see how 
we can effectively engage the Iraqi people, given the 
deteriorating security situation. We will have to re-evaluate 
our programs there.
    So I share Senator Leahy's concern, and I appreciate all 
those serving in Iraq, because it is dangerous. And nobody 
wants it to turn out well more than I, but I am very concerned 
about Iraq.

                             UNITED NATIONS

    Let us talk about the United Nations right quick. 
Palestinian statehood being achieved through the United Nations 
without negotiations with Israel, I think the administration 
opposes that. Is that correct?
    Secretary Clinton. That is absolutely correct.
    Senator Graham. And I think that is a very wise decision. 
We want a two-state solution, but instead of the United Nations 
conferring statehood just out of the blue, we want the parties 
to sit down and negotiate a peace treaty, then have statehood.
    So it is the position of the Obama administration, I think, 
is to tell subdivisions of the United Nations please don't 
admit the Palestinians through this process. Is that still the 
position?
    Secretary Clinton. That is still our position.
    Senator Graham. So when you are talking about the World 
Health Organization (WHO), which is a fine organization, if the 
Palestinians applied tomorrow, and WHO agreed to admit them, it 
would be the position of this Government that we would no 
longer participate. Is that correct?
    Secretary Clinton. We would no longer be able to fund WHO.
    Senator Graham. And I just think that is the signal to send 
the United Nations. You are not doing Israel and the 
Palestinian people much of a service when you go around the 
peace process.
    So I support the idea that United Nations subdivisions not 
unilaterally confer statehood on the Palestinians without first 
negotiating with the Israelis. And I want to applaud the 
administration, and I will continue to push back against any 
effort to obtain statehood through that process.

                                 SYRIA

    Let us go to Syria right quick. Do you believe that Assad 
should be viewed by the international community as a war 
criminal?
    Secretary Clinton. I think that, based on definitions of 
war criminal and crimes against humanity, there would be an 
argument to be made that he would fit into that category.
    Senator Graham. Is there any effort to make that argument 
before the world community?
    Secretary Clinton. I think people have been putting forth 
the argument, but I also think that from long experience, that 
can complicate a resolution of a difficult, complex situation 
because it limits options to persuade leaders perhaps to step 
down from power.
    Senator Graham. Well, I hope we can persuade him to step 
down. It doesn't seem to be that we are very successful right 
now.
    But eventually, he goes. Do you agree with that?
    Secretary Clinton. I do. I just don't know how to define 
``eventually'' right now.
    Senator Graham. Well, sooner rather than later would be the 
goal.
    Secretary Clinton. Yes.
    Senator Graham. And what follows--tell me what follows in 
Syria.
    Secretary Clinton. It depends upon how it is done, Senator. 
That is what we spend a lot of our time worrying about.
    We have just had, after 1 year of effort, a transition of 
power in Yemen. It was not easy, there was a lot of bloodshed, 
a lot of bombing and other activity went on. But eventually, 
through persistent diplomacy, and I particularly applaud our 
Ambassador on the ground in Sana'a, there was a peaceful 
transfer of power after an election that was viewed as widely 
credible.
    So, in Syria, what we are trying to achieve is something 
similar.
    Senator Graham. I hate to interrupt, but would you agree 
that the level of violence by the regime in Syria is 
unprecedented versus the Arab Spring as a whole? That what 
Assad is doing, killing citizens by the thousands, using tanks, 
is something different than we have experienced in other 
places?
    Secretary Clinton. Well, there were similarities----
    Senator Graham. Other than Libya.
    Secretary Clinton. Yes, I was going to say other than--
there were similarities to what Gaddafi both did and attempted 
to do in Libya. So there--it is not unprecedented certainly 
around the world, but it is----
    Senator Graham. In the----
    Secretary Clinton [continuing]. The most extreme use of 
state violence in the Arab Spring.
    Senator Graham. And people always ask me on my side, ``What 
do you think about Secretary Clinton?'' I always answer, ``I 
have a very high opinion of her.'' And I think one of your high 
moments was when you persuaded the President, along with some 
other strong women in the administration, not to let Misurata 
be slaughtered. I thought that was one of the best things you 
did for the world community because it will pay dividends in 
Libya.
    I would argue that we need to be looking at Syria through 
the same prism, that people are literally being slaughtered. 
And eventually, arms were supplied to the Libyan opposition, 
with training. I am not suggesting we do it, but the Saudi 
Arabians have talked about helping the opposition in Syria.
    So I would just encourage you to be looking at the Libyan 
model for Syria because it did end the atrocities, and for 
that, I am very grateful.
    Now, Iran. Do you believe the Iranians are trying to 
develop a nuclear weapon or peaceful nuclear power?

                            NUCLEAR WEAPONS

    Secretary Clinton. Well, as you know, Senator, there has 
been intense effort by the intelligence community here in our 
country and elsewhere to answer that question. There is no 
doubt that they are developing their nuclear capacity. It is 
the conclusion of our intelligence community that they have not 
made a decision to pursue a nuclear weapon. And that is----
    Senator Graham. Have they made the decision to create the 
capability to build a nuclear weapon?
    Secretary Clinton. That is a point of debate in the 
intelligence community, as you know.
    Senator Graham. Is it the position of this administration 
to deny them the ability to become a nuclear threshold state?
    Secretary Clinton. It is the position of the administration 
to prevent them from attaining nuclear weapons.
    Senator Graham. Would that be the component parts to make a 
nuclear weapon?
    Secretary Clinton. I am going to stick with what the policy 
of the administration is.
    Senator Graham. Now I have got to run to the Budget 
Committee, but I shall return because this is----
    Secretary Clinton. Oh, say a good word for us.
    Senator Graham. I will. I am going to go up there and see 
if I can put a plug in for your budget. Because you really are 
running the State Department in a business-like fashion.
    But do you believe, as someone who has spent 700,000 miles 
on the road, do you really have any doubt what the Iranians are 
up to? I really don't. Because I don't think you build nuclear 
power plants at the bottom of a mountain. And if you really 
weren't up to any good, why would you be defying the world 
community's ability to come in and look at what you are doing?
    I just think we need to embrace the idea that the Iranians 
are, in fact, developing nuclear capability, and it should be 
the policy of the United States not to let that happen.
    So, from a personal point of view, do you think they are 
trying to develop nuclear capability for weapon purposes?
    Secretary Clinton. Well, Senator, I am here as the 
Secretary of State and answer on behalf of the administration. 
I think the intelligence community's position has been quite 
clear.
    But I do think, having lived as long as I have lived, 
people sometimes say and do things that are at variance with 
what one might expect. It still is quite bewildering to me why 
Saddam Hussein wanted everybody to believe that he had 
chemical, biological, and even nuclear weapons of mass 
destruction when, apparently, he did not at that point----
    Senator Graham. One last question.
    Secretary Clinton [continuing]. In history.
    Senator Graham. If we err--if we err in judging Iran, don't 
you think we should err on the side of making sure they don't 
develop nuclear capability? And the tie goes to us, not them. 
Given the behavior of the regime, given the rhetoric of the 
President, given all their actions, that it would be a prudent 
thing for the United States and the world to assume the worst 
about Iran, and not the best?
    Secretary Clinton. I think that there is a very clear-eyed 
view of Iran and Iranian objectives, and that is why the 
President's policy is so clear and adamant, that the United 
States intends to prevent Iran from obtaining a nuclear weapon.
    Senator Leahy. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman.
    Secretary Clinton, it is so great to have you back in the 
Senate, and all of your women colleagues in the Senate on both 
sides of the aisle continue to extend you an invitation to come 
to one of our regular dinners. You have a certain emeritus 
status with us.
    Senator Mikulski. And again, after 3 years, 700,000 miles, 
95 countries, you accomplished a lot. Candor, determination, 
leadership, your commitment to--ongoing commitment to the 
empowerment of women and girls and children around the world is 
legendary, and your emphasis on smart power and diplomacy.
    We want to thank you for what you are doing. But as the 
Senator from Maryland, I also want to thank you--and thank you, 
and by thanking you, thank all of the people who work at the 
State Department and our Foreign Service professionals who work 
both in this country and around the world. Many of them live in 
my own home State. Some have even sacrificed with their lives, 
like Ambassador Bartley did at the Khobar Towers.
    And our USAID workers. And also those NGO contractors. It 
was the University of Maryland who responded to Haiti with our 
National Guard. It is Hopkins and its School of Public Health 
that is helping in Africa and Nepal. Eliminating blindness 
among African children came out of work at Hopkins. And we are 
the home of Catholic Relief and Lutheran World Vision.
    So I want to thank everybody who works every day with where 
you provide the leadership, we help provide the money and the 
policies. But it is really--they are a unique group of people 
who have boots on the ground. And too often in all the budget 
debates, we forget about their salaries. We forget about their 
wages. We forget about their healthcare. We forget about their 
pensions. And every time we bash the Federal civil service, we 
are bashing those who are diplomats who bring the boots on the 
ground. So I want to publicly say, ``Thank you.''

                    DEATH OF MAJOR ROBERT MARCHANTE

    But, Madam Secretary, today Maryland is filled with grief. 
And let me share it with you.
    We woke up this morning to a headline that says this. 
``Maryland National Guard Major Died in Afghanistan Shooting''. 
Major Robert Marchante was a Maryland National Guardsman who 
was 1 of 2 killed at the Interior Ministry. All of Maryland is 
in shock--not shock and awe, but shock and awful because of 
what happened to him.
    It seems that working in this room with another officer--
John Loftis--it appears that he received a shot in the head. We 
leave it to our military to do their forensic investigation. 
But regardless of how he was killed, he was killed.
    I am sorry about the inadvertent burning of the Koran. I 
can understand the passion about it. But passion and anger is 
not equivalent to assassination.
    So this is really sad because this man was a public school 
teacher. He was a physical education teacher. He was a big, 
bulky guy. He worked in the blue-collar schools in Baltimore 
County that you, yourself, have visited on occasions, like at 
Steelworker's Hall. And when he got ready to leave for this 
deployment, kindergarten children put together a photo album. 
And he sat in their classroom in those little chairs--this big, 
manly, vigorous guy.
    So when we say good-bye to him--it is his wife, his four 
children, his grandchild--but children in Maryland are 
affected. So you get how we are feeling pretty bad today.
    And my question is, ``What do I tell his family?'' What do 
I tell his family today? Was it worth it? Because they are 
angry. People in Maryland are angry. We went there with the 
best of intentions and out of need after we were attacked. You 
were the New York Senator. We remember those--the harsh reality 
of that brutal 9/11.
    But here we are, they are growing dope. Girls still can't 
go to school the way we would like to. There is corruption. And 
now, because of an inadvertent act, the relationship is so 
fragile there is this tumultuous thing.
    What do I tell this family? Was it worth it? When are they 
coming home? What would you say if you have to make the phone 
call that I am going to make this afternoon?
    Secretary Clinton. Well, Senator, first, I would express 
the deep condolences and concerns that I know you will, as 
someone who cares deeply about the people you serve. And there 
aren't any words that can tell a wife and four children and 
friends and colleagues why any kind of death in combat, in 
service to our country, is explicable.
    But I would also say that the United States did go to 
Afghanistan for a very clear purpose, rising out of the attacks 
that originated there. President Obama has set us on a path to 
transition out of Afghanistan. This is not an endless 
commitment that will take lives far into the future.
    But that we have both made progress on the principal reason 
we were there, security. Because of our platform and our 
presence in Afghanistan, we have been able to target 
terrorists, particularly top al Qaeda operatives, including bin 
Laden, in their safe havens, and we have made progress in 
helping the Afghan people.
    Is it what we would want? Is it anywhere near what someone 
living in Baltimore would expect from a government, from the 
daily life, the human rights? No, it is not. But there are more 
positive developments because of the sacrifice and commitment 
of our people, our men and women in the military, in the other 
aspects of civilian power.
    So I could never justify the death of any one person, but I 
can with a clear conscience say that the work we have done 
there has made America safer and has created the possibility 
for a better future for the Afghan people.
    Senator Mikulski. Thank you, Madam Secretary.
    I have other questions, but it is not a lot more than I can 
say today.
    Thank you very much, Mr. Chairman.
    Senator Leahy. Thank you.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    Madam Secretary, I have said this to you personally. I want 
to say it publicly. There are a lot of people on both sides of 
the aisle who respect all the hard work that you have put in as 
Secretary. It almost makes diplomacy during the cold war look 
easy, compared to the fires that are burning all across the 
world. Add to that the jet-hopping from place to place, and I 
am sure half the time you don't know what country you are in 
when you tuck yourself into bed at night, only to get up early 
in the morning.
    I think we all appreciate the enormity of the tasks that 
you have had to deal with over the past 3 years and appreciate 
your hard work and commitment to that.
    I was a little taken by the comments you made in your 
opening statement here, listing your five priorities. Your very 
first priority, that this request ``allows us to sustain our 
vital national security missions in Iraq, Afghanistan, and 
Pakistan. The tide of war is receding, and that results in 
significant savings.'' Well, it does because we are pulling our 
military out of both Iraq and Afghanistan, and that does 
achieve significant savings.
    But I mean, can we rest easy on that, as we watch what 
happens, listen to the news every day, and review the 
intelligence reports? We have got a cauldron of problems. All 
across North Africa, very tenuous situations.
    And I am just wondering, it can't be easy to sleep at night 
knowing that the responsibility, so much responsibility has 
been shifted to the Department of State to deal with security--
something that was extremely difficult and continues to be for 
the military. Hired contractors and minimal personnel at the 
Embassy and so forth just doesn't give me any kind of assurance 
that there is a brighter day ahead.
    When you add the Iranian issue with the Israeli concerns to 
the mix, I think we are looking at a lot of volatility and a 
lot of unexpected requirements for the United States, given our 
commitment to these various areas. So I just wonder if you 
would reflect on that and respond to that issue.
    Secretary Clinton. Well, Senator, you are right. It is not 
an easy time to be in either your position or mine, looking out 
at the world that is so rapidly changing. But I do believe that 
drawing down our troops in Iraq, in accordance with the 
agreement that was reached in the prior administration--as you 
recall, it was an agreement to have our troops out by the end 
of last year--focused everybody's attention, including the 
Iraqis', on the way ahead. There was no easy answer to whether 
it was going to work out well or not, but it was, from our 
perspective, necessary to keep faith with what the agreement 
had been.
    I also think, based on our conversations and agreements 
with the new Iraqi Government they are trying to balance in a 
very dangerous region themselves. They have expressed on 
numerous occasions their desire for United States presence, 
United States support, United States training, United States 
military equipment. So it is moving into what I call a more 
normal relationship. And that means that sometimes we will be 
satisfied, and sometimes we will be disappointed by what 
happens and what they do.
    Similarly, in Afghanistan, the decision by our NATO allies, 
which the United States fully supported, reached at Lisbon 2 
years ago, to begin a transition to end combat presence in 2014 
helped to increase the attention paid to training the Afghan 
security forces because, ultimately, this country has to be 
able to defend itself. And there has been a lot of progress 
made on that front.
    But you are right to say what are the questions, what are 
the concerns, what are the worries, because we evaluate them on 
a regular, ongoing basis, and it is hard to--it is hard to have 
any certainty about what is going to happen next because of the 
fast-changing transformation that is affecting this region.
    Senator Coats. Well, I thank you for your answer.
    I would just state to the chairman, I think we will be back 
talking about adjustments to this budget before we want to. I 
mean, the hope and promise of the future in a number of these 
areas isn't being borne out by the reality that is taking place 
right now. Hopefully, it will be better, but I have some real 
concerns about that.
    When I was out of the Senate, I co-chaired with the 
Bipartisan Policy Committee, along with former Senator Chuck 
Robb, some very, very intensive and detailed studies relative 
to the Iranian pursuit of nuclear weapons. I can't help but 
come to the conclusion, based not only on what we learned 
through that whole process, other things that I have learned 
since I have been back in the Senate, and what the Iranians 
themselves have acknowledged that they are doing, that we are 
very, very close, if we haven't already surpassed, the point of 
dealing with a situation that could be a total game changer for 
the Middle East.
    I am not asking you to respond to that. You responded to 
Senator Graham. But I think the questions he asked were very 
relevant, and I think the situation--from my standpoint is that 
we are trying to make the best out of a very bad situation, and 
while we are trying to do that, the clock is ticking toward a 
nuclear Iran.

    UNITED NATIONS EDUCATIONAL, SCIENTIFIC AND CULTURAL ORGANIZATION

    The last question I have, as my time is running out, on the 
UNESCO issue, you said there is no room for discretion. If 
there is no room for discretion, why is the $78 million 
requested in the budget? Is the administration looking for the 
Congress to repeal the current laws?
    Secretary Clinton. No, I think that we are wanting to be 
prepared about what might happen going forward. We remain 
committed to a peace process. We remain committed to 
negotiations between the parties. And we hope that there might 
be breakthroughs at some point this year.
    Senator Coats. Yes. Of course, we have been hoping for that 
for about 30 years.
    Secretary Clinton. Yes, we have. And I think we have to 
continue to hope for it because it is the best outcome for both 
Israel and the Palestinian people.
    Senator Coats. So if the administration is not really--I 
mean, if it is just a hope and a wish and a prayer, we might 
have $78 million available for us to shift to other functions. 
Is that correct?
    Secretary Clinton. Well, I think what--let us see, somebody 
just handed me a note, and it could be applied toward the 
UNESCO assessment, should the Congress pass legislation to 
provide authority to waive restrictions, which was debated 
within the Congress at the end of last year, on appropriations. 
So I think it was an effort to be prepared in the event that 
situations developed well in the Middle East, or the Congress 
decided to provide waiver authority.
    Senator Coats. But there is no request from the 
administration for the Congress to do that. Is that correct?
    Secretary Clinton. Not in--is there? Yes, I think there is. 
I think there is in the budget. Yes.
    Senator Coats. In the budget. But is there----
    Secretary Clinton. I think that what--honestly, Senator, 
what we are trying to do is to figure out how to represent the 
United States. I mean, it is, as the chairman points out, 
somewhat ironic that Israel continues to pay its dues to 
UNESCO.
    Senator Coats. How much do they pay? Do you know?
    Secretary Clinton. Oh, it is done on the basis of their 
budget and their size. So it is nowhere near what we pay.
    And much of what they support in UNESCO, which is why they 
continue to participate despite the association of the 
Palestinians, is to stand up for things we believe in, like 
Holocaust education, like preventing people from pursuing the 
designation of certain groups or institutions in a way that 
would be inimical to Israel's interests. And we are the ones 
who fought for years to get Israel into UNESCO.
    So we are in an odd position, to be honest.
    Senator Coats. Has Israel made a request to the United 
States that we fund this?
    Secretary Clinton. You know----
    Senator Leahy. We ought to have our own request, and not 
Israel's or any other country's request.
    Secretary Clinton. Yes. No----
    Senator Coats. No, I mean the implication here is that, 
well, since Israel is still funding it and participating in it, 
then that we ought to go ahead and do it.
    Senator Leahy. Well, we can't do it. Our law doesn't allow 
us----
    Senator Coats. Exactly.
    Secretary Clinton. No, we don't--we can't. We can't do it.
    Senator Coats. Exactly. So there is no waiver provision?
    Secretary Clinton. No.
    Senator Coats. It has to be--the law has to be repealed.
    Senator Leahy. That is right.
    Senator Coats. And it is unlikely that it probably will 
happen in this year, based on how I read the House of 
Representatives----
    Senator Leahy. Well----
    Senator Coats [continuing]. And the stalemate that has gone 
on. I was just wondering if the administration is asking us to 
go forward and----
    Senator Leahy. Well, we don't have to repeal it. We can 
provide a waiver. Some of us feel we should at least have a 
waiver in there because it looks rather foolish that we say we 
are doing this to support Israel, but Israel continues to fund 
UNESCO. And----
    Senator Coats. But if there is no room for discussion, how 
can we provide a waiver?
    Senator Leahy. Well----
    Secretary Clinton. So there could be a----
    Senator Leahy. By amending the law.
    Secretary Clinton. Yes.
    Senator Leahy. A waiver is a waiver. We would amend the law 
to add a waiver to it. We do this in a number of areas, as the 
Senator knows from his own experience here in the Senate and as 
an ambassador. We have done this to give discretion to both 
Republican and Democratic administrations in areas where they 
should have it.
    Secretary Clinton. Could I just add----
    Senator Leahy. I would say my own personal view, that I 
think it is somewhat incongruous to say we are doing this to 
show solidarity with Israel, and they say, ``Yes, okay, but we 
are going to stay.''
    Go ahead.
    Secretary Clinton. Well, look, I mean, we continue to 
discourage very actively and we oppose Palestinian membership 
in international organizations. That is our position.
    Senator Leahy. Which I do, too.
    Secretary Clinton. We work on it. We reach out to countries 
all the time.
    But there are costs to the United States. I mean, Senator 
Graham asked about the WHO. Suppose there is an outbreak of 
some kind of new flu, and we are out of it. I mean, this is 
just not as clear-cut as I wish I could say it is. Because our 
position is very clear. We oppose it. We are doing everything 
we can to prevent it. But there are some organizations, like 
the International Atomic Energy Agency, WHO, the Food and 
Agriculture Organization--a long list of them--where the United 
States has very real interests.
    And so, having a waiver, if our diplomacy were to fail and 
there was an offer of associate membership, it is not a 
recognition of statehood. That cannot be in any way bestowed. 
But they can become some sort of associate or even full member 
in an organization that we also have an interest in.
    I mean, I just think it is a more challenging set of 
questions than--nobody doubts our singular focus and support 
for Israel. That is clear beyond any reasonable doubt 
whatsoever. But even though we oppose, that doesn't mean we can 
stop other organizations and even our European friends from 
going forward.
    So it is just--I think it raises questions. And having a 
waiver that would be exercised under only the most serious 
consequences might be worth looking at.
    Senator Coats. Yes, it is a dicey issue, no matter what.
    Secretary Clinton. It is.
    Senator Coats. Thank you, Mr. Chairman.
    Senator Leahy. Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. And I include 
myself in the Clinton fan club.
    Secretary Clinton. Thank you.
    Senator Lautenberg. And I say thanks for all the people 
that I talk to, bump into, and so forth, and Secretary 
Clinton's name comes up, they are all plaudits. Hillary, you 
are doing a great job, and we are all proud of you.
    Secretary Clinton. Thank you.
    Senator Lautenberg. Thank you very, very much.
    I want to ask kind of a philosophical question here. All of 
us are dismayed by what we see in Afghanistan. The brutality 
that exists there is shocking.
    And The New York Times now has taken to publishing pictures 
on the front page of the terrible deeds taking place there--a 
young woman being hauled out of her house by a bunch of men 
because her uncle did something. And the standards that we see 
in some of these countries are incomprehensible to those of us 
who--in this country, with all of our freedoms.
    What do we do about these things in our calculus, when we 
say, ``Look, we have got to defend the relationship with the 
country,'' to us and the bigger picture, the fact that, in 
Afghanistan, they behave so abominably compared to our 
standards--drugs that keep addiction going in our society, no 
central law and order programs.
    What do we do, Madam Secretary, about a situation that we 
see throughout the world, where you are forced to make contacts 
with people whose behavior is just, again, not to be 
understood?

                              HUMAN RIGHTS

    Secretary Clinton. Well, I share your concern, Senator. One 
only has to look back in the history of the 20th century to see 
behavior that was totally inexplicable, beyond the pale of 
anything that the human spirit or conscience could abide.
    I think we live with many different levels of human 
behavior regarding human rights, women's rights. It is not 
confined, by any means, to one country. It is, unfortunately, 
found in many parts of the world. But because we have invested 
so much in our efforts to try to help the people of 
Afghanistan, I think that it is understandable that you, your 
constituents, our media would be focusing on what is happening 
there.
    It is difficult to have a broader picture, but the lives of 
so many Afghans have been expanded, broadened, and improved in 
the last decade because of the efforts of the United States and 
our international partners. You are certainly not going to hear 
from me any conclusion that the country has been transformed. 
It is a short period of time in historical terms. But it is 
fair to say that progress has been made.
    And we have invested an enormous amount of blood and 
treasure in Afghanistan. We do have a stake in trying to help 
work toward the best possible outcome, and that is what we are 
doing now.
    We are working with our allies on the potential for a 
political resolution through a reconciliation process. We are 
working to provide greater support to the Afghan security 
forces so they can defend themselves. We continue to support 
many aspects of their social system, from education to health.
    So there have been a lot of improvements, but it is still 
quite difficult for many of us to see what still goes on in 
that society. But I want to put it in a broader context than 
just to focus on what is so distressing to us.
    Senator Lautenberg. Yes. It is difficult. And I am sure it 
causes you a lot of grief and worry, you are so close to the 
situation.

                            FAMILY PLANNING

    In recent years, congressional opponents of contraception 
have sought deep cuts to international family planning 
programs. What happens, Madam Secretary, if they succeed in 
cutting the family planning programs? What is the penalty? What 
is the cost of that in real terms?
    Secretary Clinton. Well, the cost is financial. The cost is 
in women's lives. The cost is to undermine what many of the 
very same opponents claim is their priority--namely, to prevent 
abortions--because we want to stay focused on improving 
maternal and child health. And there is no doubt at all that 
family planning services are absolutely essential to improving 
both maternal and child health.
    Working through our Government, with other governments, 
with NGOs, with expertise, capacity-proven track records, we 
have made a big difference in women's health. You know, global 
estimates, Senator, indicate that by helping women space births 
and avoid unintended pregnancies, family planning has the 
potential of preventing 25 percent of the maternal and child 
deaths in the developing world. Family planning is the best way 
we have to prevent unintended pregnancies and abortion.
    So I know that it is a very controversial issue, but 
numerous studies have shown that the incidence of abortion 
decreases when women have access to contraception. And 
therefore, I strongly support what this administration is doing 
in trying to provide the means to improve the health of women 
and children around the world.

                                 EGYPT

    Senator Lautenberg. The 2012 omnibus spending bill 
prohibits Egypt from receiving aid from us unless you certify 
that Egypt is meeting its obligations under the peace treaty 
with Israel. What is your assessment of Egypt's progress toward 
them?
    Secretary Clinton. There is no indication that any--there 
is any intention or action at this time to undermine the peace 
treaty. In fact, we hear of a continuing commitment by the 
authorities in Egypt. We consult closely, as you might expect, 
with our Israeli partners on this. So, at this time, there 
seems to be an ongoing commitment to the importance of the Camp 
David accords to Egypt.
    Senator Lautenberg. The--which of the surrounding 
countries, surrounding Iran, can we comfortably say that they 
are really doing what they can to help influence the other 
neighboring countries?
    When I was in Turkey a couple of years ago, I met with Mr. 
Erdogan, the President, and he declared that, well, Hamas was 
not a terrorist organization, is their civil service 
organization, and that Syria is their best friend. And I know 
they are unhappy about the flood of refugees that are flowing.
    But who is there that among--what about the Arab countries? 
Would they like to see action taken? They are under the same 
risk umbrella that Israel and any other countries are.
    Secretary Clinton. Well, I think, Senator, that we have 
been encouraged by the support we have received across the 
world, not just in the region, in the enforcement of the 
sanctions against Iran. We have had to go to a number of 
countries and point out businesses that operated within their 
boundaries, that needed to be reined in, and otherwise would be 
sanctioned if they didn't stop doing trade and commerce with 
Iran. We are getting everyone lined up better than I think some 
might have expected.
    I think also the P5+1, the permanent members of the 
Security Council plus Germany, are in the process of evaluating 
the Iranian response to the letter sent by Lady Ashton on 
behalf of the P5+1 to resume negotiations, and that includes 
Russia and China. We are in constant contact with our Arab 
friends in the gulf about the threats that they face, the need 
they have for defensive measures.

                          TURKEY VERSUS SYRIA

    And certainly, circumstances have changed in the last year. 
Turkey is leading the charge against Syria and Assad right now. 
Of course, they would have preferred to resolve matters 
peacefully, convince Assad not to be slaughtering his people. 
When that proved unsuccessful, they have been very committed to 
finding ways to support the Syrian people.
    So this is an ongoing consultation, Senator.
    Senator Lautenberg. May I ask one last question, Mr. 
Chairman? Fairly simple, this one.

                           PAN AM 103 BOMBING

    You testified last year that we have worked with the FBI 
and the Justice Department, on the continuing investigation 
into the Pan Am 103 bombing. Libya's ambassador to the United 
States has also assured me that his government will conduct a 
thorough investigation.
    Now, has any progress been made on the investigation of Pan 
Am 103 since--in the last year?
    Secretary Clinton. Well, I think it is fair for me to say 
that this is primarily a Department of Justice responsibility, 
but we have had intensive discussions with our counterparts in 
Libya. We have made it clear to them of the great importance of 
this state--of this case to the United States, our 
determination to bring those responsible to justice. And the 
investigation remains open. We are working to obtain new 
information.
    I think it is only in the last few months that there could 
even be any assurance that we would get answers, because of the 
conflict ending, this new government trying to get into 
operation. But I want you to know, because of your deep 
interest in this, Senator, this is always at the top of my list 
whenever I talk with any Libyans.
    Senator Lautenberg. Thank you.
    Senator Leahy. Senator Brown.
    Senator Brown. And I thank you very much, Secretary 
Clinton, for joining us and for your outstanding public service 
for so many years.
    I follow on Senator Lautenberg's question on Libya. This is 
the 40th anniversary of the Munich Olympics massacre, where 11 
Israeli athletes were killed. One of those athletes was an 
American citizen, David Berger from, I believe, Shaker Heights, 
Ohio, Cleveland area. I spoke with his 90-plus-year-old father 
last week.
    I know the Department is working to compensate victims of 
Gaddafi's terrorism. Walk me through where things are with 
getting compensation and accountability for David Berger and 
his teammates, if you would.
    Secretary Clinton. I may have to take that one for the 
record, Senator, because clearly, we are pursuing a lot of the 
cases that we believe can be traced back to the Gaddafi regime. 
Some of those cases have been settled, and therefore, there is 
no further litigation or negotiation to be pursued.
    I am not familiar with where the specific case that you 
just mentioned rests, so I will get you information for the 
record.
    [The information follows:]

    The Department of State extends its deepest sympathies to the 
family of David Berger and the other victims of the 1972 terrorist 
attacks in Munich. We are currently looking into the matter, and would 
be prepared to discuss appropriate measures with you or your staff at a 
future date.

    Senator Brown. And we will follow up on that----
    Secretary Clinton. Yes.
    Senator Brown [continuing]. With some of the questions I 
probably won't have time to ask today on Syria, Sri Lanka, and 
a couple other things.
    Secretary Clinton. Okay.

                       TRADE UNIONS/WORKER RIGHTS

    Senator Brown. At last year's hearing, you and I had an 
exchange about the role that trade unions played in the Arab 
Spring, especially in Tunisia and Egypt. You suggested that we 
should do more to support trade unions around the world, much 
like we did in the 1970s and 1980s with Lech Walesa and 
Poland's Solidarity movement.
    In China today, workers continue to suffer from poor work 
conditions. We have read about the--and talked about the 
700,000 workers for Foxconn, and those related, who make Apple 
computer products. And we hear much about many of these issues.
    A new generation of young migrant workers in China has 
grown more vocal in asserting their rights, including strikes 
at auto parts factories. While the auto industry and the auto 
rescue is working well in my part of the country--well beyond 
Ohio, but my part of the country, we know, in terms of auto 
parts, we have seen from 2000, from permanent normal trade 
relations until now, about an 800-percent increase in our trade 
deficit, just unilaterally or bilaterally with China, an 800-
percent increase in our trade deficit there.
    But more to the point, what is--what can the State 
Department do to help workers in China increase their capacity 
to organize and protect their rights? What potential do you see 
in China and our role for an increase--and our role 
contributing to increased democracy in the Chinese workplace?
    Secretary Clinton. Well, let me just make three quick 
points because this is a very important issue.
    As I said last year, we have upped our emphasis on labor 
issues in the State Department. We have beefed up the personnel 
and the attention we are paying to labor issues. We are more 
actively participating in international labor meetings because 
the United States believes that if we can put together a 
greater coalition of countries and trade unions who are 
concerned, we will have more impact.

                             WORKER RIGHTS

    Specifically with respect to China, the trends suggest that 
there will be increasing economic pressures on the Chinese 
business and government to be able to respond to working 
conditions, wages, and the like, and that if we just project 
out, a lot of that will come from people organizing. And we are 
very supportive of that. We think that workers organizing on 
behalf of themselves and having their voices heard is a 
critical component of real democratic development.
    Senator Brown. How does that manifest itself? If I am a 
Chinese worker that has come from the countryside, as many do, 
to work in an auto parts plant in Wuhan or Xi'an, how do I know 
that the U.S. Government really does care about that?
    Secretary Clinton. I am not sure you would because what we 
fund are lawyers who bring cases on behalf of people who aren't 
paid, who are made promises about working conditions that 
aren't fulfilled. It is a huge country, and I don't think it is 
particularly broadly known that we are doing what we can 
through our democracy and human rights work to zero in on 
working conditions in China and elsewhere.
    So I don't know that the worker you are talking about would 
know it. But we are helping to create a body of law and 
expectations that will, I believe, eventually filter down to 
even that worker. That there will be a greater awareness of 
people's rights, as we are now seeing emanating from the 
village democracy movements, where people are speaking out for 
themselves.
    Senator Brown. So talk to me for a moment along those same 
lines. When American elected officials in--or American 
officials, excuse me, meet with their Chinese counterparts, 
whether it is the President meeting with Vice President Xi 
last--a week or so ago, or when he met with a number of us in 
the Senate, are we bringing up--is the President, are you, or 
are other officials--not very many Senators are, frankly, and 
should be, in my view. But there are other things to bring up, 
too, so I am not sitting in judgment of my colleagues.
    But are we bringing up those issues of worker rights in 
these bilateral private meetings? Can you assure me that we 
are?
    Secretary Clinton. I can assure you that we are bringing up 
human rights in every meeting with any Chinese interlocutor. 
That includes freedom of religion, freedom of expression, 
assembly, association, which certainly includes labor rights, 
organizing rights.
    In our human rights dialogue, in our legal experts' 
dialogue, that is right up there with other areas of our 
concerns about human rights and their lack of definition and 
enforcement in China.
    Senator Brown. Okay. Thank you.
    And I urge you--and I know your sentiments, and I know you 
want to, and I urge you to continue that and encourage you to 
send that through the administration perhaps more than it has 
been.

                                SOMALIA

    Last question. I want to ask you about Somalia. Somalia is 
approaching 20 years as a stateless society in the Horn of 
Africa. It has become a target for those who want to cultivate 
vulnerable young people to a life of terrorism.
    Are you confident that the budget request gives you the 
tools needed to help in whatever way we can, especially if we 
see another famine next year like this year?
    Secretary Clinton. Well, I just attended a very well-
organized conference on Somalia in London that the UK 
Government put together. And I don't want to overstate it, but 
I think that we have a plan that is not just a U.S. plan, but 
an international plan.
    As you know, the United States is the largest humanitarian 
donor to the Horn of Africa region. That includes Somalia, 
where we invested $210 million in humanitarian assistance last 
fiscal year.
    We are encouraged at what we see in political development. 
We are encouraged in what we see as military success against 
al-Shabaab. The United States just supported an increase in 
African Union Mission to Somalia forces and funding that we are 
going to have to fund, to try to finish off al-Shabaab in 
Somalia. And I think our assistance is yielding results.
    Now our big challenge is on the political side. The 
transitional federal government (TFG) has been given until 
August of this year to meet certain internationally agreed-upon 
obligations--to have a constitution, to have new parliamentary 
elections for a smaller, hopefully more effective parliament. 
And we are putting great pressure on the existing TFG to 
fulfill those promises.
    So conferences can come and go, but I think this particular 
one was--set some very clear benchmarks on humanitarian relief, 
military security action, and political reform.
    Senator Brown. Thank you.
    I will have additional questions on the global questions 
and inquiries with you on the Global Fund and Sri Lanka and 
Syria.
    So, thank you, Madam Secretary.
    Secretary Clinton. Thank you, Senator.
    Senator Leahy. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Madam Secretary----
    Secretary Clinton. Hello, Senator.
    Senator Durbin [continuing]. It is good to see you.
    Secretary Clinton. Thank you.
    Senator Durbin. And thank you for what you are doing for 
our country.
    You have done two things recently that I want to make a 
comment on, I thought were very powerful and very important. 
Your statement about Russia and China failing to join us in the 
United Nations Security Council on what would have been a 
powerful statement against the killing, the wanton killing 
taking place in Syria was one of the best. There was no 
cloaking your feelings.
    You felt very strongly about those victims across Syria, 
and I think you were right to call Russia and China to task for 
what I consider to be an--I will say this--an irresponsible 
position they have taken when it comes to the Syrian conflict. 
Thank you for that.
    Second, the situation in Afghanistan with the 
unintentional, though controversial, destruction of the Korans 
put you and the President in an extremely difficult position. 
You had to make it clear that it was something that did not 
reflect the feelings or values of this country, and you did 
your best to calm down the situation, as did the President.
    I think that was what leadership is all about. And when 
several political voices this last Sunday raced to the Sunday 
shows to be critical of those statements, they ought to talk to 
the families of the men and women serving our country in 
Afghanistan, who want them to come home safely.
    What you said was the right thing for our country and the 
right thing for those families. So I want to thank you for both 
of those statements at the outset.

                                 HAITI

    May I speak to you for a moment about Haiti? Senator Leahy 
just returned with a delegation. I was there a few weeks ago. 
You have an abiding interest as Secretary of State and through 
your husband, the former President, and the work that he has 
done.
    I feel disappointment. Garry Conille, the Prime Minister 
for a few weeks only, is now gone, and President Martelly is 
looking for his fourth Prime Minister in the short period of 
time he has been there. There are so many things that need to 
be done in this impoverished country still recovering from an 
earthquake, but there is one in particular that I want to call 
your attention to.
    My impression in traveling around is, as you reported to 
Senator Brown, we do many good things around the world that the 
average person on the street never knows. We still do them 
because it is the right thing to do. There are things which we 
can and should do that really affect the hearts and minds of 
people.
    Port-au-Prince, an NGO named GHESKIO, G-H-E-S-K-I-O, a 
woman, Dr. Deschamps, takes me on a tour and points to a piece 
of machinery on the ground. And she says to me, ``This is our 
new well and water pump. We had to drill down 600 feet. We 
found clean, fresh water. We draw it to the surface, put it in 
a reservoir, treat it with chlorine, and provide clean drinking 
water to 120,000 people in Port-au-Prince.''
    And I said, ``Who paid for the well?'' She said, ``You 
did.'' The Paul Simon Water for the Poor Program, which is 
funded at a very modest level, thanks to Senator Leahy, but 
enough. For $25,000, this well with clean water helped this 
group protect more than 100,000 people from the threat of 
cholera.
    I said to President Martelly, you could do this all over 
Port-au-Prince, and we can help you. For modest amounts of 
money, we can provide clean drinking water, which is a basic, 
as you and I have discussed many times.
    Tell me, as you look at Haiti and things like this, what 
are we doing that not only makes a difference, but may be 
appreciated by the people who live there?
    Secretary Clinton. Well, Senator, thank you for your 
opening two comments. I greatly appreciate both of them. And 
thank you for asking about Haiti because we have been focused 
on Haiti even before the earthquake in this administration.
    And you know, we have made a considerable investment that 
has produced results for the people of Haiti. We are well aware 
of the challenges that remain. But your question really goes to 
the dilemma we face in trying to provide assistance that 
produces results and that people know we are doing.
    You know, we do a lot to help people all over the world, 
that water well that you are talking about. But I am still not 
satisfied that we do a very good job in conveying to the world 
what we do, what the American taxpayer pays for us to do. I am 
not satisfied. I think that there is so much that you can be 
proud of.
    And like you, I travel all over the place. I see the clean 
drinking water projects. I see the agricultural seed products. 
I see the maternal and child health clinic projects. I see all 
of this.
    But oftentimes, people don't know, in the country where we 
are helping them or in our own country what we are investing 
in. So there is a lot that we could do better, and we are 
working to try to improve that.
    Second, we are doing a lot to try to make our aid 
sustainable. And by that, I mean except for humanitarian 
emergencies, like after an earthquake or in the Horn of Africa 
with a famine, where we have to just come in and help save 
people's lives, we need to be asking ourselves, is what we are 
doing likely to be sustainable by our friends with whom we are 
partnering, either in their public sector or their NGOs?
    And we are moving very much toward country-owned, country-
directed aid. Well, that is kind of change for a lot of our 
folks.
    So there is an enormous amount of ferment going on in our 
development efforts, including with USAID, but not exclusively 
there because some other of our Government agencies contribute 
as well.
    Senator Durbin. I have one last question, and it relates to 
a speech which you gave many years ago as First Lady in Chicago 
at a dinner at the Hilton Hotel honoring our mutual friend Bill 
Brodsky. You had just returned from a trip to India, and you 
said something which has stuck with me ever since, in case you 
don't think you make an impression on people. You did.
    You said, ``If I go to one of the poorest countries on 
Earth and I can only ask one question to find out how they are 
doing and what their chances are, it would be this. How do you 
treat your women?''
    Secretary Clinton. Right.
    Senator Durbin. I remembered that, and I have asked that 
question wherever I have gone.
    And it led me to introduce legislation which has passed the 
Foreign Relations Committee twice and the Senate, which has 
been stalled in the House of Representatives, on the issue of 
child marriage.

                             CHILD MARRIAGE

    Secretary Clinton. I know. Thank you, Senator.
    Senator Durbin. And I just hope that you can, at the G8 
meeting or in other avenues, open up some conversation here.
    What happens to those poor little girls----
    Secretary Clinton. Mm-hmm.
    Senator Durbin [continuing]. Who become victims of a child 
marriage, it ruins their lives, and sometimes literally kills 
them with an early pregnancy they can't handle.
    Secretary Clinton. Right.
    Senator Durbin. So I hope you can join the voices that are 
on both sides of the aisle here that are promoting that 
legislation.
    Secretary Clinton. We strongly support it. We were deeply 
disappointed that it died in the House, for reasons that I 
don't think were directly relevant to the purpose of the bill. 
So we want to work with you and with a bipartisan coalition in 
the House to try to get it passed this year.
    Senator Durbin. Thank you.
    Senator Leahy. If I can take a chairman's prerogative here 
to praise Senator Durbin, who has been a----
    Senator Durbin. Take all the time you need.
    Senator Leahy [continuing]. Consistent voice on this and 
other issues that come also before the Judiciary Committee.
    But you, Madam Secretary, from your days as First Lady have 
been very consistent on this, and as a member of the U.S. 
Senate. You have continued as Secretary of State.
    I have to think that there are, as a result of some of the 
efforts that have gone on, there are young women who may never 
know you or Senator Durbin, or any of the rest of us, all they 
will know is their lives are better. I think that is what we 
strive for.
    If we don't do that, then we don't deserve the privilege we 
have as citizens of this country and, in our case, citizens who 
do not have to worry about those kinds of things.
    So I thank you both.
    Secretary Clinton. Thank you.
    Senator Leahy. Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman.
    And Madam Secretary, it is always wonderful to see you. And 
thank you for your leadership.
    And I also want to thank Senator Durbin and Leahy for their 
initiative on child marriage and want to join them in 
supporting that initiative.
    I also want to commend you for your work with the Director 
of USAID on your reform efforts for how we deliver foreign aid. 
I think it is a major departure, but an important departure, 
Mr. Chairman, that I am sure you are aware the Secretary and 
Dr. Shah have been developing, which is to purchase more of the 
supplies and goods from the countries that we are attempting to 
serve. Because it then has the added benefit of not only 
putting in the well, or building the hospital or the clinic, 
but you are also stimulating the local business and local 
entrepreneurship.
    Can you comment briefly about that initiative? And are you 
pleased with the way it is moving forward? Is there anything we 
can do to be more supportive?

              QUADRENNIAL DIPLOMACY AND DEVELOPMENT REVIEW

    Secretary Clinton. Well, Senator, first let me thank you 
for your very important focus on aid and particularly on 
everything that we are trying to do for children around the 
world.
    As part of our first-ever QDDR that I directed, we have all 
taken a hard look at how we can do our business more 
efficiently, produce better results in State and USAID. And 
under Dr. Rajiv Shah's leadership, USAID is moving forward on 
their agenda on how we can improve procurement, how we can 
improve the information technology platforms that USAID uses. 
In fact, how does USAID and State work closer together to 
eliminate duplication and redundancy so that our separate 
missions are not wasting money on things that are essentially 
just the logistical part of being out in the world.
    So I think that on these indicators--and I can get you a 
fuller response for the record--of procurement, shifting toward 
more locally purchased goods and services saves money and gives 
us, therefore, more bang for the buck in delivering the aid 
that we are looking for. Looking at how we deploy people is 
giving Administrator Shah more flexibility so that he can more 
quickly move people from location to location.
    Increasing the coordination between USAID and State, so 
that we are not reinventing the wheel every time there is an 
emergency. USAID leads on humanitarian emergencies. State leads 
on political conflict emergencies.
    So we are really trying to do what we do better. We think 
it is part of our obligation. And I am very proud of what USAID 
is doing.
    Senator Landrieu. Well, please give us any specific updates 
as you can and keep us posted. I particularly want to be 
supportive.

                          VULNERABLE CHILDREN

    Second question, on vulnerable children.
    Secretary Clinton. Mm-hmm.
    Senator Landrieu. As you know, several years ago--and 
Senator Leahy has supported this set-aside in the budget to 
focus on, and it was authorized, but the Senator also supports 
it--a couple of hundred million dollars for orphans and 
vulnerable children. And under your leadership and with the 
State Department and with this subcommittee, we have been 
trying to focus that money--which is a large amount, but small 
in relation to all of the PEPFAR money and others--on programs 
that can help better connect and serve children that are out of 
family care. And you agreed and spoke at the first conference 
directed.
    Can you give us a brief update about how the State 
Department or USAID can be a little bit more focused on trying 
to reach to those children who are just out of family care? 
They are either on the street, they are in institutions. How 
are we better connecting them to families, which every child 
deserves a permanent loving and protective family?
    Secretary Clinton. Well, you have been such a leader on 
this. And you know, what we are trying to do is, number one, 
work with other nations to do more themselves to take care of 
their vulnerable children. Because you are right. We have 
children in sweatshops. We have children on the streets. We 
have children being trafficked into brothels. I mean, we have 
terrible kinds of situations for too many vulnerable children 
around the world.
    So we are tightening laws and regulations. We are training 
workers, judges, and police officers to just get them to focus 
on their own children. Because no matter how generous we would 
want to be, we are just a small part of the solution.
    But with respect to what we are doing, we are working to 
improve adoption systems and out-of-home care for vulnerable 
children around the world. We had more than 9,000 children 
finding permanent homes through inter-country adoption last 
year. We know that is an important part of what we can do to 
help these vulnerable children.
    We have to make sure that there are no scandals associated 
with them, that you don't have child kidnappings and thefts and 
all the other terrible things that go along with it. So we are 
pushing hard for broad-based acceptance of the Hague Convention 
on Adoption.
    So we have a multi-pronged strategy, which you have helped 
us support by having the Congress be a partner, and we want to 
continue doing that.
    Senator Landrieu. Thank you.
    And my final question--I do want to mention Haiti, and the 
opportunity that I had to go down to Haiti about a year-and-a-
half ago. I look forward to getting briefed by the chairman on 
his recent visit and just want to encourage our work. I know it 
is difficult.

                             LATIN AMERICA

    My final question, though, is about Latin America. The 
budget, and the President has recommended--which is hard for me 
to understand, and I know all budgets are tight--a $92 million 
reduction for the Western Hemisphere.
    With the recent escalation of drug trafficking in Guatemala 
particularly, the devastation in El Salvador due to the recent 
disaster that happened there--an unnamed storm, but nonetheless 
delivered as much rain and devastation as a named hurricane 
would just recently.
    How are we justifying this reduction, and are you concerned 
about it? And what can we do to show our support for these 
emerging Latin American democracies that are so important?
    Secretary Clinton. Well, I think, Senator, here is a 
potentially good news story, just to a great extent.
    Our assistance in the hemisphere seeks to promote citizen 
security. We have three of the most violent--well, the three 
most violent countries in the world are in Central America. We 
want to help them continue their work to develop durable 
democratic institutions, encourage economic and social 
opportunity, and emphasize clean energy, as they try to link up 
all of their people with electricity.
    So the decrease in the fiscal year 2013 request reflects a 
trend toward lower costs--lower costs, first, because what we 
have learned is how to be more efficient in our security-
related institution building programs. We are focusing on fewer 
areas of development in USAID, in light of the overall economic 
progress in the hemisphere.
    So, for example, our request for citizen security programs 
is declining in part because two of our largest recipients--
Colombia and Mexico--are transitioning from periods of 
intensive capital investment--building police academies, 
building prisons, building courthouses--to equipment and 
training, and they are really looking at how they are 
sustainable. And I think this Congress should be very proud of 
the work we have done in Colombia and in Mexico over the last 
15 years.
    And we are also trying to be smarter about how we ask Latin 
America to help itself. We have some booming economies that are 
beginning to be aid donors themselves. So, for example, in 
Central American security, it has taken us some time, but we 
have invested heavily in diplomatic outreach to get Latin 
America, Canada, the European Union, specific European 
countries, all to work with us, so that we would leverage the 
resources we put in.
    So, I think, by and large, it is a good news story. But if 
there are specific areas that you remain concerned about, I 
would be very happy to know about that.
    Senator Landrieu. Thank you, Madam Secretary.
    Senator Leahy. Senator Hoeven.

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being with us today. The 
first thing I would like to ask you about is the situation with 
our NGO workers in Egypt who have been detained because of a 
travel ban. I was recently there with Senator McCain and also 
Senator Lindsey Graham, our ranking member, and several other 
Senators.
    We had an opportunity to meet with the detainees. And of 
course, they are at the Embassy, our Embassy there. One of the 
detainees is from North Dakota. And so, I had an opportunity to 
visit with her, which I appreciated very much.
    We also met with the Muslim Brotherhood and the Freedom and 
Justice Party, the speaker of their parliament, and others. And 
actually, the day after we were there, the Muslim Brotherhood, 
Freedom and Justice Party, put out a statement that I thought 
was very helpful. And I am appreciative of Senator McCain and 
Senator Graham for leading that group over there to try to 
encourage that the travel ban be lifted.
    But it hasn't been. So I am very concerned. And I would 
just ask you to give me whatever update you can on your efforts 
to get our seven American NGO workers back here to the United 
States.
    Secretary Clinton. Well, first, Senator, thank you for 
going to Egypt. Thank you for traveling to these countries that 
are incredibly important to our future peace and security.
    We are engaged in very intensive discussions with the 
Egyptian Government about finding a solution. We have had a lot 
of very tough conversations, and I think we are moving toward a 
resolution. But I don't want to discuss it in great detail 
because it is important that they know that we are continuing 
to push them, but that we don't necessarily put it out into the 
public arena yet.
    So I will--now that I know one of the NGO workers is one of 
your constituents, we will stay in very close touch with you.
    Senator Hoeven. Well, I appreciate that. I appreciate your 
efforts. And again, I certainly want to do anything I can do to 
help, but certainly we want to do everything we can to see that 
our workers, our Americans, get home safe and sound.
    Secretary Clinton. Yes.
    Senator Hoeven. And of course, beyond that, we want to 
build a good relationship with this new democratic government 
in Egypt.
    So there is a lot at stake here, and I know you are hard at 
work on it. And I appreciate it very much and look forward to 
staying in close contact with you.
    The other item I wanted to bring up is the sanctions on 
Iran. My background is banking. And so, I understand when you 
have no access to funding, it puts a lot of pressure on you.
    Now, through the National Defense Reauthorization Act, 
which included the Kirk-Menendez amendment, we put sanctions on 
Iran's Central Bank. These are very effective. I mean, those 
sanctions basically provide, I guess is the way I should put 
it, that any country or company that tries to buy oil from Iran 
has to pay for it through Iran's Central Bank, and they can't 
do it and deal with the United States banking system.
    That is a powerful sanction. But it needs to be fully 
implemented, and we can't grant exceptions. And that is why 
Senator Graham and myself and others are sponsoring a 
resolution supporting the administration, and calling on them 
to fully implement that sanction and to not allow exceptions.
    I know that creates diplomatic pressure with friends like 
South Korea, with countries like India and others that buy oil 
from Iran. But this is our chance to really put pressure on 
Iran to stop their nuclear ambitions, short of other options, 
including, obviously, a military strike.
    I feel we need to impose those sanctions as aggressively as 
we can. I am asking you to do that. Would you please comment on 
that?

                             IRAN SANCTIONS

    Secretary Clinton. Well, we totally agree with you, 
Senator. And we are implementing the new Iran sanctions 
aggressively. The President issued an Executive order on 
February 6 that blocks assets under United States jurisdiction 
of all Iranian banks, also makes it clear that both the 
Departments of the Treasury and State are expected to enforce 
the sanctions absolutely.
    We have been traveling the world, high-level teams from the 
Departments of the Treasury, Energy, and State, to explain what 
the sanctions are to counterparts around the world. We are very 
frank in these discussions about the requirements of U.S. law.
    And we have seen a lot of action. A broad range of 
countries are making decisions to reduce their dependence on 
Iranian crude, unwind their dealings with the Central Bank of 
Iran.
    We are also pushing very hard to make it clear that we will 
help countries that have a significant dependence on Iranian 
crude to try to find alternatives. It is something that they 
have to look for. They can't just stop cold turkey, and not 
have anything fueling their economies. Some of our major--our 
friends who are major producers have set forth their 
willingness to try to make up the difference. So we have had a 
positive reaction.
    Just for your information, the EU member states--I mean, 
you take some of those countries were dependent up to 30, 35 
percent on Iranian crude--and Japan have been among the most 
visible. They have been taking extraordinary steps to try to 
comply with our sanctions and deny revenue to Iran.
    We have seen increasing difficulty by Iran in importing and 
exporting products. They cannot purchase third-party liability 
coverage for their vessels. So we have stopped them from being 
insured, which means they can't travel. So European--or travel 
with insurance. So European and Asian companies are actually 
moving more quickly in reducing their imports and their 
purchases than we thought they would be able to.
    So, we are just relentlessly pressing them, Senator. We are 
going to do the very best we can to help them.
    I would say that we have some unique situations. I mean, 
look at Japan, which lost so much of their electricity 
production because of the earthquake and the Fukushima nuclear 
power plant meltdown. They have been reducing their imports 
from Iran in the range of 15 to 20 percent since last year 
because we have been working with them and talking to them, and 
they are aggressively seeking out new suppliers. But they have 
got to find new suppliers.
    We have got some challenges there. Libya is not back up the 
way it needs to be. We are now sanctioning Syria. So their 
contribution is not what it needs to be. But I can assure you, 
we are working as aggressively as we can to try to meet these 
very tough sanction targets.
    Senator Hoeven. Mr. Chairman, I will just wrap up here with 
this comment.
    Again, thank you, Madam Secretary, for joining us this 
morning. We are working to help you in the Senate in terms of 
imposing those sanctions. That is our best shot to really apply 
pressure to the Iranian Government to stand down its nuclear 
ambitions, and we will continue to try to help make those 
sanctions as effective as possible.
    Secretary Clinton. Thank you, Senator.
    Senator Leahy. Thank you.
    I know the Secretary has to leave in just a couple of 
minutes, but I am going to yield first to Senator Graham, and 
then I have one last question.

                   FREE TRADE AGREEMENT WITH TUNISIA

    Senator Graham. Thank you, Mr. Chairman.
    And we are going to try to do this in 3 minutes. Okay?
    Tunisia. Do you support the efforts of trying to open up a 
dialogue regarding our free trade agreement with Tunisia?
    Secretary Clinton. I do support that. I know that----
    Senator Graham. That is good. That is enough.
    Secretary Clinton. Okay. All right.
    Senator Graham. All right. Do you support reprogramming 
money to help Tunisia get through their budget shortfall for 
the next 2 years?
    Secretary Clinton. I do support that.
    Senator Graham. And you will seek other countries to 
support Tunisia?
    Secretary Clinton. And we are doing that as you speak, Mr. 
Graham.

                                 EGYPT

    Senator Graham. Egypt. Do believe the cases against the NGO 
workers are legitimate?
    Secretary Clinton. No, I do not. Now----
    Senator Graham. Do you--good answer.
    Do you believe that it would be unsafe for our people to 
appear in Egyptian court, given the security environment that 
exists today in Egypt?
    Secretary Clinton. I don't want to go any further than I 
have in saying that----
    Senator Graham. Fair----
    Secretary Clinton [continuing]. We are hoping to resolve--
--
    Senator Graham [continuing]. Fair enough.
    Secretary Clinton [continuing]. These very soon.
    Senator Graham. I really believe that would be a mistake. 
And I understand where you are coming from.
    If you were asked today to certify Egypt as complying with 
all the conditions in the appropriations bill for receiving 
aid, could you do so?
    Secretary Clinton. I am not going to answer that either at 
this point----
    Senator Graham. Good enough.
    Secretary Clinton. Okay.
    Senator Graham. Okay. Egypt just needs to listen.
    Secretary Clinton. Yes.
    Senator Graham. That she is not saying yes.
    Okay. Afghanistan. Is it worth it for us to have a 
strategic partnership agreement? Is it in our national security 
interest?
    Secretary Clinton. It is absolutely in our national 
security.
    Senator Graham. And I hope and pray that Karzai understands 
that this is the last, best chance for Afghanistan to be stable 
and have a bright future, and take the administration up on 
this offer.
    Thank you very much for all you have done for our country.
    Secretary Clinton. Thank you, Senator.
    Senator Leahy. Thank you.

                         LEAHY/GRAHAM AMENDMENT

    Just to follow up on one thing that Senator Graham said. 
Does Egypt now realize that the Leahy-Graham amendment on Egypt 
is a reality?
    Secretary Clinton. I think they are coming to understand 
that, Mr. Chairman.
    Senator Leahy. Thank you.
    Secretary Clinton. It is.
    Senator Leahy. All our people who go over there to speak 
with them understand----
    Secretary Clinton. Yes, Sir.
    Senator Leahy [continuing]. That it is real. Because that 
was not always clear at the beginning.

                            LEAHY AMENDMENT

    I have one other question. We have the Leahy amendment, 
which prohibits aid to units of foreign security forces that 
violate human rights. It does have some strong supporters in 
the State Department, but it also has detractors. I often hear 
of efforts to narrowly interpret the law in a way contrary to 
its intent. In the past, we have had some Embassies that 
applied it only to funding for training and not for equipment, 
which would be a flagrant misreading of the law.
    Can you assure me that there is guidance to our U.S. 
Foreign Service officers, who are responsible for applying the 
law, that they will accurately reflect what we intend and what 
the law says.
    Secretary Clinton. Well, I believe that we do implement the 
Leahy amendment in a consistent way across the world. The 
vetting process requires that the Embassy, Bureau of Democracy, 
Human Rights, and Labor, the relevant regional bureaus all 
agree that a candidate either is or is not eligible for 
assistance, and that is what we are going to continue to do.
    Senator Leahy. Thank you.

    UNITED NATIONS EDUCATIONAL, SCIENTIFIC AND CULTURAL ORGANIZATION

    I should note, just to make sure we have it clear in the 
record, that while Israel will remain a member of UNESCO I am 
told they are not planning to make their assessed contribution 
this year. They also realize our law, which was done to support 
them contrary to our interests, is a law that provides no 
wiggle room.
    I would hope that we would at least be able to amend the 
law. I think it would be more helpful to Israel to amend the 
law to give you the same kind of waiver we have given past 
administrations for similar laws.

                               SRI LANKA

    I also want to commend you for your efforts to pursue 
accountability for the perpetrators of war crimes in Sri Lanka. 
I hope you will continue to support international efforts to 
bring the Sri Lankan war criminals to justice, even though 
their own courts don't.
    I will take that nod to be a ``Yes.''

                               LAND MINES

    Finally, the United States has completed its review on the 
use of antipersonnel landmines, something we haven't used in 20 
years. They're banned by 156 countries, including all our NATO 
allies. We spend a fortune cleaning up landmines every year. 
But we're treated as an outsider because we haven't joined the 
treaty.
    Do you know when a recommendation will go to the President 
on this?
    Secretary Clinton. I have been hoping that the process 
would be completed as soon as it could be. So far, that has not 
yet occurred.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. I see. Well, you and I will have more 
conversations on that.
    I will keep the record open until Friday for any further 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
    Question. Can we do more to engage with the Chinese on the whole 
range of issues, from climate change to human rights, piracy of 
intellectual property, and military cooperation?
    Do you agree that we should continue supporting partnerships 
between United States universities and nongovernmental organizations 
(NGOs) with counterparts in China to strengthen the rule of law and 
environmental health and safety in China?
    Answer. Building a positive, cooperative, and comprehensive 
relationship with China is an important part of the United States' 
reinvigorated engagement with the Asia-Pacific. In 2012, we will 
continue to deepen our bilateral engagement with China in a wide 
variety of areas, including human rights, intellectual property rights 
and rule of law, climate change and other environmental and health 
issues, and military-to-military dialogue.
    Specifically, we will continue to use forums such as the Strategic 
and Economic Dialogue, Strategic Security Dialogue, Human Rights 
Dialogue, Legal Experts Dialogue, Consultation on People-to-People 
Exchange, Joint Commission on Commerce and Trade (JCCT), JCCT IPR 
Working Group, Ambassador's IPR Roundtable, Joint Commission on Science 
and Technology Cooperation, EcoPartnerships Program, Ten-Year Framework 
for Cooperation on Energy and Environment, and more than 50 other 
ongoing regional and functional subdialogues we have with China to 
advance our interests, promote universal values, strengthen the 
international system that we have helped shape, and build our relations 
with an increasingly influential China.
    Partnerships between United States and Chinese universities, NGOs, 
and subnational entities are an increasingly vital part of the 
bilateral relationship. Not only do programs such as the U.S.-China 
EcoPartnerships and the 100,000 Strong Initiative enjoy broad support 
from both sides, they provide new mechanisms for strengthening China's 
institutions and introduce positive aspects of the United States to the 
next generation of China's social, educational, and political leaders. 
We also believe that it is vitally important to continue to support 
engagement between United States NGOs and universities and their 
Chinese counterparts through programs that advance the protection of 
human rights, the development of the rule of law and civil society, and 
the promotion of religious freedom in China. These programs offer low-
cost investments in reform that will offer long-term dividends for the 
United States. Furthermore, such engagement broadens understanding 
between our societies, empowers Chinese civil society organizations to 
advocate for their fellow citizens' rights, and promotes our strong 
interest in expanding peaceful and positive relations with China.
    It is only through increased connection at all levels that we can 
develop open and honest exchanges, build bilateral trust, reduce the 
risk of misunderstanding, and address areas of disagreement.
    Question. For fiscal year 2013 you are requesting $2.1 billion to 
house, protect, and support our diplomats and aid workers (in 
Afghanistan), and another $2.5 billion for programs. The total 
represents a $1.1 billion--or a 30-percent increase for the State 
Department and United States Agency for International Development 
(USAID) above the current level. Given our track record in Afghanistan 
where it seems that the more ambitious and costly our goals the worse 
the results, is it really responsible to spend all that money? With the 
latest fiasco with the Koran burnings, how are we going to have 
confidence that our investments can and will be sustained by the 
Afghans?
    Answer. The resources requested for fiscal year 2013 in Afghanistan 
will play a key role in ensuring Afghanistan never again serves as a 
safe haven to al Qaeda or other extremist groups. These funds are 
crucial to enable us to complete preparations for Afghanistan's 
assumption of full security control throughout its territory in 
December 2014.
    We continue to carefully assess the security situation in 
Afghanistan following recent violent incidents. However, these 
incidents have not prevented us from carrying out programs and 
implementing essential construction projects in Afghanistan. United 
States forces will remain in Afghanistan in fiscal year 2013 and 
provide the security support necessary to implement our plans.
    Foreign assistance resources will focus on building Afghan capacity 
to more effectively manage their own development and foreign operations 
resources will ensure a secure United States diplomatic and development 
presence appropriately sized to oversee our continuing robust 
cooperation with Afghanistan. In the last year, we've taken significant 
strides toward a secure and stable Afghanistan through gains on the 
battlefield, the end of bin Laden, and strong commitments by the region 
and international community to Afghanistan's future at the Istanbul and 
Bonn conferences. At the NATO Summit in Chicago later this spring, we 
hope to join with international partners to announce a plan to share 
the burden of training and equipping Afghan security forces to ensure 
Afghanistan's long-term stability. Since 2002, the Government of 
Afghanistan has made significant progress in terms of its fiscal 
sustainability and technical capacity to govern. The Government of 
Afghanistan's revenues have increased steadily over the last 5 years, 
including significant increases in collection of customs duties and 
fees for electricity. The government has also signaled its commitment 
to reform including through the adoption of a new economic strategy 
last year in Bonn, which sets specific objectives to combat corruption 
and improve governance. This is not to say there have not been 
challenges and setbacks. In spite of the challenges, we remain 
determined to meet our goal of transitioning security responsibility to 
the Government of Afghanistan by the end of 2014, which should result 
in a significant reduction in United States military spending.
    Our program in fiscal year 2013 will continue to improve project 
sustainability through capacity building to ensure Afghans can maintain 
past-investments into the future. Nowhere is this more evident than our 
investments in the infrastructure sector. In fiscal year 2013 our 
request for infrastructure decreases by 12 percent from fiscal year 
2012 and 31 percent from fiscal year 2011; our major focus is on 
increasing operations and maintenance capacity and sustainability as 
opposed to new construction projects.
    We are also seeking to improve sustainability by increasing the 
percentage of development projects implemented by the Government of 
Afghanistan. These on-budget projects give the Government of 
Afghanistan hands-on experience in managing their own development 
within tightly defined parameters and with close supervision by USAID. 
We also remain committed to support for the Afghanistan Reconstruction 
Trust Fund, and the related National Solidarity Program as a means to 
improve the capacity of the government to sustain the country's 
development.
    Development resources have allowed the United States to work in 
partnership with Afghans to make major improvements in health, 
education and economic growth, but more work is required to ensure 
Afghans can continue progress without outside help. Making key 
foundational investments now (including energy infrastructure, 
sustainable agriculture, and government economic capacity) is important 
in fostering a more sustainable and resilient economy.
    Fiscal year 2013 will be a critical year in establishing our 
enduring presence in Afghanistan in secure facilities that will permit 
our diplomatic staff to carry out programs and engage with Afghan 
partners after the security transition process is complete. In addition 
to Embassy Kabul, our plan is to establish platforms in Jalalabad in 
the east and Kandahar in the south in addition to the two current 
consulate locations in Mazar e Sharif and Herat. If facilities are to 
be ready in these locations in 2014, we must do much of the work to 
prepare them in 2013.
    Question. You are requesting more for military and economic aid for 
Pakistan than last year, even though our relations have grown 
progressively strained. The Pakistani military is deeply suspicious of 
the United States and is not cooperating fully with our efforts against 
al Qaeda and the Taliban. Our supply lines through Pakistan are not 
moving. Corruption is endemic. The Pakistani people are as virulently 
anti-American as ever. We need a constructive relationship with 
Pakistan, but business as usual is not the answer. Why are you 
proposing to provide another $2.2 billion for the same kinds of 
activities as in the past?
    In 2010, a video of Pakistani soldiers summarily executing 
suspected Taliban prisoners was posted on the Internet. General Kayani 
pledged to conduct an investigation, but since then we have heard 
nothing. This was not an isolated case of alleged war crimes by 
Pakistani soldiers. The Taliban has also summarily executed Pakistani 
police captives. Do you know if any Pakistani soldiers have been 
punished for these crimes?
    Answer. Despite recent challenges and tensions, our core national 
security interests in Pakistan are as urgent and compelling as ever, 
and we remain committed to a productive, respectful relationship with 
Pakistan. While Pakistan's Parliament is undertaking a review of the 
relationship, the results of which we expect to be issued in the coming 
weeks, we continue to engage with Pakistan on our key interests such as 
counterterrorism and achieving our goals in Afghanistan.
    Although similar to fiscal year 2012 funding levels, the fiscal 
year 2013 request represents a 25-percent decrease from fiscal year 
2012 request levels. It reflects resource and implementation 
constraints, while remaining sufficiently robust to send a consistent 
statement of our intention to continue cooperating with Pakistan on our 
joint interests, including building Pakistan's counterterrorism and 
counterinsurgency capacity to help disrupt, dismantle, and defeat al 
Qaeda.
    While the events of 2011 led to a downturn in our relationship, we 
have been consistent in our continued support of the Pakistani people 
and their democratically elected civilian representatives, not with the 
goal of winning a popularity contest, but because we take the long-term 
view. We think a stable, democratic, tolerant, prosperous Pakistan, 
which can provide alternatives to extremism for its population, is good 
for the security of the region and the national security of the United 
States. Civilian assistance is an important part of achieving that 
long-term goal. A goal we share with the Pakistanis is to continue to 
foster opportunities to move toward ``trade not aid'', and our fiscal 
year 2013 budget will help build trade and investment in Pakistan, 
which must ultimately drive Pakistan's growth and reduce its dependence 
on foreign assistance.
    There are serious governance and human rights problems in Pakistan 
and we continue to both report on and raise these with the government. 
In this particular case, in October 2010, Chief of Army Staff Kayani 
ordered a board of inquiry to investigate the video and the 
allegations. We continue to ask the Pakistani Government for the 
results of this investigation. However, to date, we have not been made 
aware of its findings.
    Question. The Leahy amendment, which prohibits aid to units of 
foreign security forces that violate human rights, has some strong 
supporters in the State Department and I want to thank you for some of 
the recent steps that have been taken to more vigorously implement and 
enforce the Leahy amendment. However, it also has its detractors, and I 
often hear of efforts to narrowly interpret the law in ways that are 
clearly contrary to its intent. Most importantly, I understand that 
many U.S. Embassies have required vetting of individuals to determine 
their eligibility under the Leahy amendment to receive U.S. training, 
but have not vetted their units which may have a history of human 
rights violations. Vetting units is a core concept of the Leahy 
amendment. It is against the law to provide any form of assistance--
training, equipment, or anything else--to any person who either belongs 
to a unit credibly alleged to be involved in gross violations of human 
rights or who personally is involved in such violations. Can you assure 
me that the guidance for every U.S. Foreign Service Officer who is 
responsible for applying the law will accurately reflect these core 
principles, and that top officials in the Department will be informed 
of the importance of fully implementing the law?
    I would also be grateful to have your assurance that foreign 
governments will be informed if assistance is being withheld from 
specific units under the Leahy amendment. As you know, this also is 
specifically required by the law.
    One important goal of the law is to end the impunity for members of 
foreign security forces who violate human rights. Consequently, the law 
also directs that the United States must offer assistance to help bring 
to justice individuals who have committed gross violations. Who within 
the Department is tasked to implement this legal requirement? What 
funds have been allocated to carry out this requirement of the law? Can 
you provide me any examples since the law was first enacted when the 
United States offered such assistance?
    Finally, I believe that the Leahy amendment and the reputation of 
the United States and of the Department of State have suffered because 
of the refusal by the Department to provide public information about 
how seriously the Department takes the law, how much effort it devotes 
to implement it, and how many cases are affected by the law. I 
understand that it may be important in rare cases to keep certain 
information confidential concerning the law in order to protect 
intelligence sources and methods. But many of the atrocities subject to 
the law are reported in news articles and other public sources. At a 
minimum, I would appreciate it if you would provide me--in 
nonclassified form--aggregate information about the implementation of 
the Leahy amendment over the last 12 months, including the following:
  --What is the Department's best estimate of how many times units or 
        individuals have been denied approval under the Leahy amendment 
        vetting process;
  --What is the Department's best estimate of the number of times that 
        a request for vetting was not finally approved either because 
        approval was denied or for any other reason; and
  --What is the Department's best estimate of the number of countries 
        in which a vetting request was denied or otherwise not approved 
        under the Leahy amendment.
    Answer. Please be assured that all levels of the Department 
involved in security assistance are well aware of the Leahy amendment 
and all Foreign Service Officers and others in the Department charged 
with implementing the law are aware of the requirements. As you know, 
the Department has established a robust vetting system called INVEST 
(INternational VEtting and Security Tracking) which is now in use by 
Embassies worldwide to conduct Leahy amendment vetting. By replacing 
the former cable-based process, the INVEST system has greatly 
facilitated efficient vetting of security force units and individual 
candidates nominated to receive State-funded training and assistance, 
as well as Department of Defense (DOD) training. The INVEST system 
includes detailed policy and procedural instructions for conducting 
vetting in compliance with the Leahy amendment. We have vetted in 
excess of 200,000 nominees since the system became fully operational in 
January 2011.
    If at any time during the vetting process we determine that a 
nominee cannot receive assistance because there is credible information 
of gross human rights violations, or incomplete information that 
prevents us from completing vetting on the nominee, the nominee is not 
approved for assistance. In these circumstances, the host country is 
asked to nominate a replacement candidate or to provide additional 
information to allow vetting to be completed.
    With respect to unit vetting, we understand that units or 
individual candidates from units credibly implicated in gross human 
rights violations cannot be provided assistance under the Leahy 
amendment. The Department is issuing additional guidance on this point 
that highlights the explicit provision in this regard recently added by 
section 620M(d)(5), and to ensure that all involved in the vetting 
process are aware of the unit vetting requirement.
    Regarding notification of host governments, we recognize on several 
fronts the value of conveying to partner governments when we have 
identified credible information of gross human rights abuses by its 
officials and seek to comply with this legal requirement. Embassies and 
senior level United States Government officials engage host governments 
at every opportunity to raise specific human rights concerns, and to 
offer assistance in bringing violators to justice.
    The Department does not have a specifically designated program to 
assist foreign governments in bringing individuals to justice, nor do 
we have funding set aside for this purpose. However, the Department 
does have more than 260 law enforcement and justice programs worldwide 
designed to enhance the rule of law, human rights, and good governance. 
As such, in some countries, such as Colombia, the Department supports, 
within the Prosecutor General's office, a specialized Human Rights Unit 
which identifies human rights violators and seeks to bring them to 
justice.
    In the past year, 1,766 individuals and units have been denied 
assistance or training due to credible information about gross human 
rights violations, or where vetting was suspended due to discovery of 
derogatory human rights information that could not be resolved before 
the training deadline. An additional 12,571 candidates did not receive 
assistance or training because they were submitted for vetting with 
insufficient information, additional requested information was not 
received in time, or they were not submitted in time to complete 
vetting. While the number of candidates not approved to receive 
assistance is important, it is also significant to note that, due to 
the broad awareness of the Leahy amendment, our Embassy staffs 
frequently work to prevent the nomination of units and individuals that 
are known to have credible information that implicates them in gross 
human rights violations, and where the host country has not taken 
effective steps to bring the responsible members to justice. In effect, 
this extends the effect of the Leahy amendment beyond those cases where 
assistance is denied by vetting.
    On occasion, derogatory information on issues that would not 
trigger the Leahy amendment surfaces and candidates are rejected as a 
matter of policy. In some instances, candidates are re-submitted at a 
later date with additional information and favorably vetted for follow-
on training or assistance. The INVEST system is set up so that if a 
candidate is not favorably vetted at all steps in the process, the 
candidate is not approved and the training or assistance is not 
provided. In the past year, candidates from 46 countries have not 
passed vetting and have thus been denied training or assistance.
         changing united states role in the asia-pacific region
    Question. Over the past couple of months you have made the point 
that as the United States withdraws and reduces its commitments in Iraq 
and Afghanistan, we must begin an increased and strategic investment in 
the Asia-Pacific region. I don't see this shift in focus reflected in 
the fiscal year 2013 budget request. What specific investments are you 
proposing?
    Answer. Looking forward to the next decade, we recognize no region 
will be more important to the United States than the Asia Pacific. 
Overall fiscal constraints in the foreign affairs budget have placed 
limits on our ability to increase direct State Department and USAID 
resources to the region in fiscal year 2013. However, we have been able 
to elevate our commitment to the region through a strategy that is 
multifaceted, involving close coordination with the full spectrum of 
interagency partners to make sure our diplomatic, defense, and 
development efforts are aimed at increasing U.S. investments in the 
region in key areas. Foreign assistance is but one aspect of our 
strategy to deepen our engagement with the region and the fiscal year 
2013 budget reflects strategic choices that must be made as the budget 
becomes more constrained. It is important to look at the whole picture 
of what we are sending to the region.
    Substantial Millennium Challenge Corporation compacts that were 
recently signed will bring more than $1 billion of American assistance 
to Indonesia and the Philippines in the next 5 years. In addition, we 
are substantially increasing our consular resources in the Asia-Pacific 
to address an unprecedented increase in demand for United States visas. 
This is not entirely evident in the East Asia and Pacific chapter of 
the fiscal year 2013 congressional budget justification, since the 
budget tables do not take into account fee-funded positions and 
expenditures, such as consular officers and some construction expansion 
projects. In China, we are expanding our consular presence at every 
single post, and visa issuances have more than doubled in the last 5 
years.
    Diplomatic efforts are also an essential part of our longstanding 
and ongoing engagement in the region. They are a critical component of 
how we pursue and achieve our strategic objectives, but are not 
captured by figures like development assistance dollars. For example, 
we successfully concluded our implementation review process for our 
major free trade agreement with Korea, which entered into force on 
March 15 of this year, and are now working aggressively on the Trans 
Pacific Partnership. Our enhanced engagement with Burma and our 
strategy to match ``action-for-action'' to encourage the country's 
reform process has already shown signs of progress including a 
substantial release of political prisoners. These efforts have already 
produced real results, such as new strategic dialogues across the 
region with emerging partners, strengthened alliances, and expanded 
engagement with the region's multilateral fora including the 
Association of Southeast Asian Nations (ASEAN) and the East Asia 
Summit, as well as deepening regional cooperation on a range of 
economic issues through Asia Pacific Economic Cooperation--which all 
work to advance U.S. interests.
    In addition, we have established the Lower Mekong Initiative with 
four nations sharing the Mekong, and launched the Indonesia 
Comprehensive Partnership and Partnership for Growth in the 
Philippines. The budget request reflects the administration's continued 
support for and commitment to these important initiatives.
    As part of the National Export Initiative and the new focus on 
economic statecraft, our diplomats are also helping United States 
companies learn about the massive infrastructure development 
opportunities in the ASEAN region, particularly Indonesia. We believe 
that our companies are best-placed to bring world-class capabilities 
and state-of-the-art technology toward this endeavor and in the process 
create jobs for Americans on the homeland.
    We remain more committed than ever to the region and to making sure 
America remains a leader in the Pacific arena.
    Question. I want to commend State Department for its efforts to 
pursue accountability for the perpetrators of war crimes in Sri Lanka. 
The Liberation Tigers of Tamil Eelam (LTTE) committed terrible 
atrocities, and we are all glad they are defeated, but the Sri Lankan 
army also violated the laws of war and thousands of civilians died as a 
result. Unfortunately, so far the Government of Sri Lanka has not 
punished anyone. Will you continue to call for international mechanisms 
to investigate these crimes and bring Sri Lankan war criminals to 
justice?
    Answer. We are deeply concerned about the events of the final 
months of the conflict, including reports that there could have been as 
many as 40,000 civilian deaths. We support a full accounting of, and 
accountability for, serious allegations of international humanitarian 
law and international human rights law violations that occurred in the 
final months of the conflict.
    The United States has maintained a consistent dialogue with the 
Government of Sri Lanka regarding the issues of reconciliation and 
accountability since the end of the conflict in May 2009, and is 
concerned that without genuine reconciliation and accountability, the 
country could return to conflict.
    The United States is supporting a resolution at the March UN Human 
Rights Council session that calls for action on important steps toward 
accountability and reconciliation, while expressing the international 
community's concern about delays on implementation of such measures. It 
also encourages the Government of Sri Lanka to communicate what it 
intends to do to implement the constructive recommendations of its own 
Lessons Learnt and Reconciliation Commission, advance reconciliation, 
strengthen democratic institutions, and address accountability.
    While domestic authorities have primary responsibility to ensure 
that those individuals responsible for violations of international 
humanitarian law and international human rights law are held 
accountable, international accountability mechanisms can become 
appropriate in circumstances in which a State is unable or unwilling to 
meet its obligations. The Government of Sri Lanka needs to demonstrate 
that it is able and willing to meet these obligations. If they do not, 
there will be growing pressure from the international community for an 
international accountability mechanism.
    Again, we support a full accounting of, and accountability for, 
serious allegations of international humanitarian law and international 
human rights law violations that occurred in the final months of the 
conflict.
    Question. The President issued an Executive order last month to 
improve visa and foreign visitor processing. I was glad to see this 
because we have been trying to get the Department to improve the 
tourist visa process for several years and included language in the 
fiscal year 2012 bill directing the Department to reduce visa wait 
times, particularly for citizens from China and Brazil and to improve 
the way the Department forecasts the demand for tourist visas.
    What is the status of the improvements that the Department is 
planning and implementing and have wait times gone down for Chinese and 
Brazilians who want to visit the United States? Are there any 
improvements that you want to make but can't and need the Congress' 
help?
    Answer. We are confident that we will meet the goals of the 
Executive order. Our ongoing efforts to increase staff, expand or 
improve existing facilities, and implement internal efficiencies are 
paying off. Interview wait times in China are currently under 7 days. 
Missionwide, wait times have averaged less than 30 days for all but 2 
of the past 18 months. In Brazil, wait times missionwide have fallen 
from more than 100 days to just weeks at some posts. The longest wait 
time in Brazil is less than 30 days, a significant accomplishment.
    Demand for visa services in China and Brazil continue to increase 
in 2012. Our consular sections accommodated 33 percent and 62 percent 
growth, respectively, in the first 4 months of this fiscal year, as 
compared to the same period last fiscal year. We expect demand to 
remain at these levels in Brazil, and to increase in China over the 
traditional spring and summertime ``high season'', as prospective 
university and college students begin to apply for visas. Staffing 
flexibility is critical to keeping interview wait times down during 
this period, and we are deploying the first group of limited noncareer 
appointment consular adjudicators in March and April 2012 to support 
the expected demand increase.
    Although we chiefly rely on our internal observations to predict 
future visa demand, we also consider the Department of Commerce's 
Forecast of International Travelers to the United States as a key 
indicator of potential demand for visa services among some of the 
fastest growing economies, including China and Brazil.
    We appreciate congressional interest in this topic and we value 
constructive congressional oversight of our visa function. As we are 
meeting the goals of the Executive order, we must not forget that every 
visa issuance decision is a national security decision, and that there 
will be visa adjudication cases for which additional review would be 
warranted.
    Question. The fiscal year 2013 budget request proposes a $226.9 
million cut in funding for refugee assistance and resettlement 
programs. Given what we know the needs are, how can we justify this?
    Answer. The President's fiscal year 2013 request includes $1.675 
billion for the Migration Refugee Assistance and the Emergency Refugee 
and Migration Assistance accounts. While this represents a decrease in 
funding available for humanitarian programs supported by these accounts 
in fiscal year 2012, it represents a $30.3 million increase from the 
President's fiscal year 2012 request for these accounts. This increase 
reflects the administration's ongoing commitment to humanitarian 
programs, while taking into account current budget constraints. The 
administration remains dedicated to providing robust support for 
humanitarian programs worldwide.
    Question. Has the Government of Israel obtained bulldozers or spare 
parts for bulldozers with Foreign Military Financing (FMF) assistance 
since January 2009?
    In April 2011, the State Department informed me that a foreign 
military sale (FMS) (IS-B-ZLT $24.5 million) of 33 nonarmored (plus an 
option for an additional 12) D9-R bulldozers was completed on July 27, 
2010 and that ``to date, the contract was awarded by the U.S. Army on 
December 15, 2010 with an estimated delivery date for all 33 of 250 
days (i.e., on or about 21 Aug 11)''. Were these bulldozers delivered 
as estimated in April 2011? For what purpose(s) were they provided? Is 
this information related to the contract still accurate today?
    When was the last sale of bulldozers or spare parts for bulldozers 
to Israel either through a direct commercial sale or under the FMS 
program, and for how many, what type, and for what purpose?
    Would bulldozers or spare parts for bulldozers transferred to 
Israel, either through direct commercial sales or under the FMS or FMF 
programs, be permitted to be used for Palestinian home demolitions 
under the standard conditions provided in section 505 of the Foreign 
Assistance Act? Have such transfers been subject to any restrictions on 
their use for Palestinian home demolitions? Have they been used for 
Palestinian home demolitions?
    Answer. Under FMS case IS-B-ZLT, Israel received 33 commercially 
configured, custom-built, nonweaponized, nonarmored Caterpillar D9R 
Bulldozers and associated tool sets, storage chests, diagnostic 
equipment, and spare parts. Israel procured these bulldozers under a 
contract awarded on December 15, 2010. As part of this case, the 
Government of Israel has the option of purchasing 12 additional 
bulldozers. It has not exercised that option to date.
    The bulldozers were shipped to Israel beginning on April 28, 2011, 
and ending on August 5, 2011. The spare parts, tools, and storage kits 
were delivered on September 23, 2011. The purpose of the bulldozers was 
to support the activities of the Israeli Defense Forces. The Israeli 
Ministry of Defense is the stated end user in this case.
    There are a number of general military applications for bulldozers 
including earthworks, digging moats, mounting sand barriers, building 
and demolishing fortifications and structures, recovering overturned or 
damaged armored fighting vehicles, clearing landmines, detonating IEDs 
and explosives, clearing terrain obstacles and opening routes for 
armored fighting vehicles and infantry.
    At this time, there are no open requests for bulldozers from 
Israel. The U.S. Government decided as a matter of policy in 2007 that 
due to earlier incidents of concern, if Israel wants to purchase 
bulldozers using FMF, Israel must use FMS channels and authorities. 
Israel can, however, use its national funds to purchase bulldozers from 
commercial sources worldwide.
    The sale of Caterpillar spare parts is done through FMS channels 
against a blanket open ended spare parts case on an as-needed basis. 
This ensures economies of scale based on high volume procurements for 
certain parts in DOD inventory.
    Although we are in contact with several Israeli NGOs and 
organizations like United Nations Office for the Coordination of 
Humanitarian Affairs that track Palestinian home demolitions, they do 
not appear to keep records of what type of bulldozer is used for each 
demolition, nor do we track individual bulldozers for each demolition, 
nor do we track individual bulldozers within the Israeli fleet. 
Therefore, we have no information as to whether bulldozers purchased 
with United States funds were used in home demolitions. We do note that 
the Road Map calls for Israel not to demolish homes or property as a 
punitive measure.
    Question. The Inter-American Commission on Human Rights and other 
human rights groups have denounced recent human rights violations in 
Bajo Aguan, Honduras. Has the United States Ambassador to Honduras made 
any public statements regarding such violations?
    The United States has provided training and support to the Honduran 
army's 15th Battalion in the past. Please describe the role of the 15th 
Battalion's role, if any, in the Bajo Aguan region. Are there any plans 
to provide assistance to this Battalion in fiscal year 2012 or fiscal 
year 2013?
    To which units of the Honduran army is the administration planning 
to provide assistance in fiscal year 2013, and for what purposes?
    Have any members of the Honduran police forces been arrested, 
charged, or punished for human rights violations in the Agu n region?
    Answer. The Department of State closely follows the land conflict 
in the Bajo Aguan region of Honduras. United States Ambassador to 
Honduras Lisa Kubiske has expressed concerns about the violence both 
publicly and in meetings with Honduran officials. In February, Deputy 
Assistant Secretary for Democracy, Human Rights, and Labor Kathleen 
Fitzpatrick visited Honduras, where she referenced the conflict in a 
public statement and raised the issue in private meetings with Honduran 
officials. In November 2011, the Department of State sent officials to 
the Bajo Aguan to meet with leaders of farm worker collectives, 
representatives of security forces, and landowners. The following 
month, Under Secretary for Civilian Security, Democracy, and Human 
Rights Maria Otero visited Honduras, where she met with Honduras' 
Secretary of State for Justice and Human Rights. The United States 
Government was pleased to see the February 2012 agreement, brokered by 
Honduran officials, to sell cultivated land to farm workers and address 
the root causes of the conflict.
    Contrary to reports from several human rights groups, the Honduran 
Army's 15th Battalion is not participating in the Xatruch II operation 
in the Bajo Aguan, designed to prevent confrontations between farm 
workers and private security guards. A DOD-funded U.S. Special Forces 
detachment assists in training members of the 15th Battalion in areas 
including medical care and marksmanship. All training activities 
emphasize the importance of protecting human rights.
    The United States Government provides security assistance to the 
Honduran armed forces to support its efforts to more effectively 
control its national territory, participate in peacekeeping operations, 
respond to natural disasters, and conduct search-and-rescue operations. 
In addition to the 15th Battalion, the United States Government 
provides training to the Honduran Army's 1st Special Forces Battalion, 
among other units. Consistent with the Leahy amendment and department 
policy, the Department of State conducts background investigations of 
potential recipients of security training from the Department of State, 
as well as from certain Department of Defense training programs, to 
ensure that they have not committed gross human rights abuses.
    Honduran authorities are investigating 11 police officers for 
alleged human rights abuses in the Bajo Aguan and the surrounding 
region. Four of those officers have been arrested, and an additional 
four are suspended pending completion of the police investigations.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
    Question. Madam Secretary, I appreciate the focus you have always 
given to Asia and the Pacific during your tenure. I commend the 
administration for its announcement earlier this year to shift the 
focus of United States foreign policy to Asia. Given this interest 
could you please elaborate on the strategy that the Department would 
like to pursue engaging our Pacific partners?
    Answer. Looking forward to the next decade, we recognize that the 
Asia-Pacific region will continue to increase in importance to the 
United States and we understand that our diplomatic presence and 
engagement should reflect the significance the region will have for our 
country. We are working smartly to elevate our commitment to the region 
through a strategy that is multifaceted, involving close coordination 
with the full spectrum of interagency partners to make sure our 
diplomatic, defense, and development efforts are targeted toward our 
highest priorities.
    The Pacific Island countries remain vital to U.S. interests due to 
our shared history, defense partnerships, commercial links, people-to-
people connections, and consistent alignment on key UN issues. I have 
met with Pacific Island leaders the last 2 years on the margins of the 
UN General Assembly to discuss issues of mutual concern and highlight 
our shared interests in working together.
    Our strong strategic position in the Pacific is the foothold for 
our pivot to the broader Asia-Pacific region. Increasingly, outside 
powers compete for regional influence. Our challenge in 2012 is to 
maintain our historical pre-eminence through increased high-level 
engagement, leveraging whole-of-government capabilities, and regional 
partnerships to deliver mutual benefits.
    Specifically, we look to implement a Pacific component to President 
Obama's strategic pivot that will promote democracy and good 
governance, sustainable economic development, regional trade and 
investment, and U.S. commercial interests, help with regional concerns, 
including climate change, energy, and health, and advance our security 
engagement in the Pacific. I look forward to working closely with you 
to secure congressional passage of the pending legislation to implement 
the results of the mandated 15-year Compact Review. Provisions of this 
legislation will help ensure that Palau achieves budgetary self-
sufficiency over time as it continues to stand with us as a staunch, 
dependable, and democratic ally.
    We look to underscore our commitment to the region and its 
institutional architecture through active engagement at the upcoming 
6th Pacific Leaders Meeting, the 50th anniversary of Samoan 
independence, the Pacific Island Forum, WWII 70th anniversary 
commemorations, and the second annual interagency Pacific island visit. 
We will continue working collaboratively to expand educational and 
health services, empower Pacific island women, build regional 
capacities, and strengthen trade and investment, including with the 
leaders of the Freely Associated States. In addition, we will build 
upon United States Agency for International Development (USAID) 
programs for climate change adaptation and health, seek ways to 
mitigate high-energy costs, and explore partnerships for addressing 
noncommunicable diseases in the region.
    Question. Madam Secretary, I was very impressed with the Asia 
Pacific Economic Cooperation (APEC) meeting last November in Hawaii. I 
wish to commend you and your Department for the hard work put into 
making it a tremendous success. I believe the meetings served as a 
wonderful opportunity to showcase the United States as a Pacific power. 
Since the success of APEC, I understand efforts are moving forward with 
the Trans-Pacific Partnership trade agreement. Would you please 
elaborate on other economic related initiatives the administration is 
undertaking to move forward in a complimentary manner to our security 
efforts?
    Answer. The United States has positioned itself to maintain its 
global leadership role in the 21st century. The world is changing, and 
security is increasingly shaped in financial markets, in agricultural 
trade, on factory floors, and in diplomatic negotiations. When people 
have food to eat, when their children have schools to attend, and when 
they live in a prosperous economy, people feel secure. This security 
extends beyond borders when stable economies engage, integrate, and 
cooperate to each others' mutual advantage. With this understanding, 
American power in the 21st century will also depend on our economy and 
on our trade. By promoting the development of next-generation economic 
rules of the road, we are working with our global partners toward the 
emergence of a stable, competitive, transparent, and balanced global 
economy.
    This work not only seeks to establish an open, free, transparent, 
and fair economic system in which American enterprise can prosper, but 
also promotes positive interactions between parties that might 
otherwise be suspicious of one another. By building a 21st century 
trade system based on competition, this process works against the 
development of conflicts rooted in economic inequity. The trust and 
interdependence that develop through economic engagement help secure 
the peace that is required for prosperity in the United States of 
America, and abroad.
    In 2011, APEC leaders committed to reduce significantly barriers to 
trade in environmental goods; adopt market-driven innovation policies; 
improve the regulatory environment; and launch the Policy Partnership 
on Women in the Economy as well as the Travel Facilitation Initiative. 
These measures represent progress on an agenda to improve sustainable 
economic growth and regional stability. By promoting an active and 
outcomes-focused APEC, the United States is working with partners to 
establish rules of the road for 21st century trade based on free-market 
principles and open competition. Through working with our neighbors in 
APEC, we are bringing our economies toward a harmonized system where 
American businesses can compete on a level field of play. This work is 
conducted through APEC in a nonbinding, consensus-based fashion that 
builds mutual understanding and interconnectivity between members and 
promotes positive interactions and signaling between economies as they 
develop increased ties and interconnectivity.
    Furthermore, we and our Trans-Pacific Partnership (TPP) partners 
are working hard to establish a high-standard regional free trade 
agreement that will similarly increase regional economic integration 
and reduce barriers to trade and economic growth. TPP negotiators made 
substantial headway during the 11th round of negotiations held in 
Melbourne, Australia in March. In April, a number of the issue working 
groups are holding intersessional meetings.
    We have also increased our economic engagement with Association of 
Southeast Asian Nations (ASEAN). President Obama was the first U.S. 
President to attend the East Asian Summit last year, and our first 
resident ambassador to ASEAN, David Carden, is now in place in Jakarta, 
Indonesia. ASEAN's goal to establish a fully integrated economic 
community by 2015 complements both our other economic initiatives as 
well as our security work: the link between the two is growing in Asia, 
where states increasingly view economic strength, rather than just 
military might, as a measure of power.
    We are increasing the role of the private sector in our 
engagements. The APEC Business Advisory Council and APEC CEO Summit are 
two such initiatives that are bringing businesses into the fold of 
trade policy. We are also meeting the President's goal to attract 
greater foreign direct investment as part of the SelectUSA initiative, 
with our missions overseas engaging directly with foreign companies 
looking to invest in U.S. cities.
    The Department has established a new ``Direct Line'' program to 
increase U.S. private sector access to our Embassies and consulates 
overseas in a way that will improve the Department of State's and the 
U.S. Government's responsiveness to stakeholder interests. The Direct 
Line program complements the President's National Export Initiative 
(NEI), which directs the State Department to use every asset available 
to expand American exports and, in turn, to create jobs.
    The President's NEI is leveraging our diplomacy to promote American 
jobs. As productivity rises, companies need fewer employees to meet 
their goals. Thus, in order to create more jobs, we have to expand our 
existing trade relationships and create new ones. That is why a broad 
cross-section of businesses, from high-tech companies to heavy 
equipment manufacturers to Montana grain growers, supported passage by 
the United States Congress of the trade promotion agreements with 
Colombia and Panama. They know that securing more favorable market 
access is essential to increasing our exports, jobs, and 
competitiveness. We're also building a 21st century smart border with 
Mexico that supports security and competitiveness on both sides. The 
bottom line is that geography matters. It is a comparative advantage to 
be embraced, and we neglect it at our own peril.
    Latin America is home to dynamic companies, entrepreneurs, and 
innovators who purchase technology and equipment and help drive 
competitiveness and innovation in American businesses. This is good 
news for the people of Latin America as well as for the United States. 
Our energy security depends on this hemisphere. Latin America alone 
accounts for approximately one-third of our imported oil, with Mexico 
our second-biggest supplier. So as we move toward a clean-energy 
economy, Latin America's role will have to grow. And already, we are 
working on renewable energy technology and resources with Mexico, 
Brazil, the Caribbean, and across the region, thanks in part to 
President Obama's leadership in launching the Energy and Climate 
Partnership of the Americas.
    Seven of the 10 fastest-growing economies in the world will be in 
sub-Saharan Africa, making sub-Saharan Africa the world's last economic 
frontier. We have a number of programs and initiatives in place to 
counter the perception that Africa remains a risky place for United 
States business, despite record rates of return over the past 5 years. 
The African Growth and Opportunity Act (AGOA) provides our best tariff 
treatment to goods coming from eligible African countries, and we use 
the annual AGOA Forum to discuss decreasing barriers to trade, 
increasing transparency, and fostering intra-regional trade. We are 
ramping up our work with Africa's regional economic communities in an 
effort to duplicate some of APEC's success in promoting regional trade 
and increasing the role of the private sector. This year's AGOA Forum 
will focus on energy and infrastructure, two key components of 
increasing economic growth. The State Department will also lead an 
interagency U.S.-Africa Business Conference to help United States and 
African companies in the energy, transportation, and water/sewage 
industries connect and form partnerships. With African companies 
providing local expertise and United States companies providing access 
to United States technology and capital, these partnerships help Africa 
realize desperately needed infrastructure improvements to sustain 
economic growth.
    The Partnership for Growth (PfG) program is a partnership between 
the United States and a select group of countries to accelerate and 
sustain broad-based economic growth. PfG involves rigorous joint 
analysis of constraints to growth, the development of joint action 
plans to address these constraints, and high-level mutual 
accountability for implementation. Two countries in sub-Saharan 
Africa--Tanzania and Ghana--have been identified as PfG countries. 
These are just a few of the initiatives in Africa we have dedicated to 
the pursuit of economic integration, food security, healthcare, and 
development, through which we will see economies grow and stability 
increase.
    In Europe, as tariffs have fallen in recent decades, nontariff 
measures or ``behind the border'' barriers to trade and investment have 
come to pose the most significant obstacles to our trade. Regulators in 
both the European Union (EU) and the United States aim for the same 
strong protections for the health and safety of our citizens, for our 
environment, and for our financial systems. But differing approaches to 
regulation and to the development of standards can create barriers and 
slow the growth of trade and investment. Reducing unnecessary 
differences can create opportunities. One way we are seeking to 
minimize the impact of unnecessary regulatory divergences on trade and 
investment is to examine closely our respective regulatory processes 
and to try to identify ways to make them more compatible and 
accessible. The Transatlantic Economic Council and the U.S.-EU High 
Level Regulatory Cooperation Forum have spurred new discussion on our 
respective approaches to risk analysis, cost-benefit analysis, and the 
assessment of the impact of regulation on trade.
    These initiatives represent the focus on economics, trade, and 
economic security that the Department of State has implemented across a 
large and diverse portfolio. This work positively enhances economic 
growth and security of the United States by building a sustainable, 
balanced, free, and fair global economic environment.
    Question. Secretary Clinton, the East-West Center was established 
by the Congress to promote education and cultural understanding between 
the United States and our neighbors in the Pacific. It puzzles me as to 
why the President's request once again results in a cut given the 
renewed focus on the Asia-Pacific region. The Center works to promote 
people-to-people connections and building the relationships that are so 
important to regional peace and stability. Other important programs 
promoting public diplomacy and exchanges, like the Mansfield Foundation 
and U.S.-Asia Institute were cut. I am interested in the reasoning 
behind this action and in light of the shift in strategic focus, and 
how the Department intends to achieve some of the same interactions 
these two institutions promote.
    Answer. Fostering strong relationships with the Asia-Pacific region 
in a wide variety of spheres is a very high priority for the Department 
of State. We continue to view the East-West Center as a key national 
resource for education and dialogue on critical issues of common 
concern and to foster people-to-people connections to promote regional 
peace and stability. The State Department has supported the work of the 
Mansfield Center for many years as well.
    During my tenure as Secretary of State, I have visited and spoken 
at the East-West Center and have met the Center's leaders as well as 
participants in its educational programs. I can personally attest to 
the Center's effectiveness and am committed to sustaining its work. 
Last year, I was pleased to appoint an exceptionally strong group of 
new U.S. members to the Center's Board of Governors. These five new 
appointees participated in the March 2012 meeting of the Board in 
Honolulu and are actively engaged in overseeing and supporting the 
Center's work. I am very optimistic about the knowledge, energy, and 
ideas that these distinguished individuals will bring to the Center in 
areas such as program development, alumni activities, financial 
administration, and fundraising.
    As you are well aware, the stringencies of the current budget 
environment have affected Federal agencies as well as nongovernmental 
organizations (NGOs), universities, and other institutions. We 
recognize that reductions in appropriated funding have required the 
East-West Center to make painful choices. The Center has been strategic 
and responsible in implementing spending reductions. The Center has 
also shown creativity and resourcefulness in competing for other 
funding, including from U.S. Government sources. A long-time recipient 
of cooperative agreement awards from State's Bureau of Educational and 
Cultural Affairs (ECA) for the U.S. South Pacific and U.S. Timor Leste 
Scholarship programs, the Center has also been selected through 
competition to receive awards for Student Leader Institutes and Citizen 
Exchanges projects from the ECA Bureau. The State Department also 
recently identified the Center as the appropriate U.S. institutional 
partner for a major new project focused on English language teaching in 
ASEAN countries, funded by the Government of Brunei, and has been 
coordinating closely with the Center on that activity. The Center has 
also received funding from our Embassy in Pakistan for journalism 
exchanges, reflecting its expansion of activity with South Asia. 
Recently, the Center won a grant from the National Endowment for the 
Humanities for Asian studies programs at U.S. community colleges, an 
important sector of U.S. higher education.
    Based on its sustained work in the area of outreach, development 
and alumni engagement, I understand that the Center is also seeing 
increases in private sector contributions. I am hopeful that the 
members of the Board of the Governors, together with the Center's 
management and staff, will be successful in continuing to diversify the 
Center's sources of financial support while maintaining robust and 
effective programming in its key areas of endeavor.
    With respect to the Mansfield Fellowship Program, funding has not 
been reduced for fiscal year 2013. The State Department continues to 
support the spirit of the Mansfield Program and is working to develop a 
more robust and higher impact exchange through more effective 
implementation of the allotted funding. We want to work with the 
Mansfield Foundation to explore new ways to promote two-way exchanges 
with Japan that support capacity building and the bilateral 
relationship.
    The State Department appreciates the work of the U.S.-Asia 
Institute to strengthen U.S.-Asia/Pacific relationships. The Institute 
has not been a recent recipient of funding from the Bureau of 
Educational and Cultural Affairs or the Bureau of East Asian and 
Pacific Affairs.
    Question. Our national security interests in the Pacific continue 
to grow, and the rise of China as a regional power concerns many 
people. The sea lanes and open waterways are increasingly important. I 
am interested to learn how the administration intends to engage with 
our partners in Southeast Asia, and in particular the Philippines?
    Answer. Our national security and economic interests in the Pacific 
continue to grow as the Asia-Pacific region increasingly becomes a key 
driver of global politics and commerce. As a Pacific nation and 
resident power, the United States has a national interest in freedom of 
navigation, the maintenance of peace and stability, respect for 
international law, and unimpeded lawful commerce in the region's 
maritime spaces. We share these interests with countries in the region 
and the broader international community.
    We engage closely with our allies and partners to reinforce these 
interests via the region's multilateral institutions. We believe by 
engaging with and strengthening Asia's architecture, the region's 
multilateral forums can more effectively reinforce the system of rules 
and responsibilities, including freedom of navigation, that form the 
basis of an effective international order. Since 2010, the United 
States has used the ASEAN Regional Forum in particular to advance a 
concerted, region-wide diplomatic effort to protect navigational rights 
and freedoms within the South China Sea. As half the world's merchant 
tonnage flows through this body of water, this was a consequential 
undertaking.
    Additionally, we are building our bilateral relationships with 
Asia-Pacific partners to help address areas of common interest, 
including enhancing our humanitarian and disaster relief capabilities 
and countering transnational maritime threats like piracy, illegal 
fishing, and environmental degradation. With the Philippines, a long-
time treaty ally, we are stepping up our bilateral engagement on a wide 
range of issues, particularly with regard to maritime security. Last 
summer, we provided a decommissioned United States Coast Guard cutter 
to the Philippines and intend to provide a second cutter in the coming 
months. We also conduct a wide range of joint training activities, 
including our 28th annual ``Balikatan'' (``Shoulder-to-Shoulder'') 
exercise taking place during April 2012, which will focus on disaster 
preparedness. As we move forward in our consultations with our 
Philippine allies, including the upcoming visit of their Foreign and 
Defense secretaries to Washington, we will discuss ways of further 
enhancing our robust cooperation through expanded joint trainings, 
increased United States ship and aircraft visits, and support for 
Philippine defense modernization.
    Question. Japan is one of our closest allies in the region, and 
last year the United States Government responded as a whole to the 
March 11, 2011, earthquake, tsunami, and subsequent nuclear emergency. 
I believe these efforts have reaffirmed the importance of our 
relationship with the Japanese. It is regrettable that our special 
relationship with Japan is now focused on the planned relocation of 
United States marines from Okinawa to Guam, and the challenges facing 
this agreement. In February, both governments announced in a joint 
statement the de-linking of the relocation being contingent on the 
construction of the Futenma Replacement Facility. In addition, the 
number of marines relocating to Guam was reduced and the balance of 
marines will be rotating throughout the region. I am interested in what 
your thoughts are about both governments moving forward on the 
relocation of United States forces, as well as the security cooperation 
between the United States and Japan.
    Answer. The United States-Japan Alliance remains indispensable to 
the security of Japan and the United States and to the peace, 
stability, and economic prosperity of the Asia-Pacific region in the 
21st century.
    The close and effective cooperation between Japan and the United 
States in response to the March 11, 2011, disasters demonstrated the 
special bond enjoyed by our two countries and contributed to the 
deepening of the Alliance.
    The United States conducted a strategic review of its defense 
posture in Asia in order to achieve a more geographically distributed, 
operationally resilient, and politically sustainable force structure in 
the region. Japan welcomes this initiative.
    As part of this effort our two governments are engaged in ongoing 
official discussions to adjust current United States posture plans set 
forth in the Realignment Roadmap, including the unit composition and 
numbers of marines moving from Okinawa to Guam. We are also discussing 
the delinking of both the movement of marines to Guam and resulting 
land returns south of Kadena from progress on the Futenma Replacement 
Facility.
    As our February 8, 2012 statement noted, the discussions between 
our two governments will continue over the weeks and months ahead. It 
is our hope to reach mutual understanding on these issues quickly to 
enable more focus on larger Alliance goals and objectives.
    We recognize the importance of the presence of United States forces 
in Japan, including in Okinawa, to maintain deterrence and strengthen 
Alliance capabilities in view of the current evolving regional security 
environment. We also are committed to reducing the impact of U.S. 
forces on local communities, including in Okinawa, to help ensure a 
sustainable United States military presence in Japan.
    We remain committed to the construction of the Futenma Replacement 
Facility at the Camp Schwab Henoko-saki area and adjacent waters. We 
believe that the current Futenma Replacement Facility plan is the only 
viable way forward.
    Both the United States and Japan agree that the development of Guam 
as a strategic hub, with an operational Marine Corps presence including 
marines relocated from Okinawa, remains an essential part of the 
Alliance's Asia-Pacific Strategy.
    We have made progress in a number of significant areas since the 
2006 Realignment Roadmap and are resolved to continue making progress 
toward realizing its objectives.
    The essential role of the Alliance is to maintain regional security 
and stability. To meet existing and emerging challenges, we continue to 
work to strengthen Alliance capabilities by adapting our cooperation, 
modernizing our forces, enhancing interoperability, and cooperating in 
the development of new technologies. As our two nations work to deepen 
and broaden cooperation, our shared values, democratic ideals, common 
interests, and respect for human rights and the rule of law remain the 
foundation of the Alliance.
    Our Alliance has never been more important or been faced with more 
significant challenges. Accordingly, both sides are committed to 
continuing to take steps to deepen the intensity of consultations and 
coordination on the full range of security, strategic, and political 
issues that face the region and the world.
    Question. The South and Western Pacific are also very important 
areas to the United States. The Department is engaged in diplomatic 
negotiations with Pacific Island countries on many levels including 
important fisheries-related treaties. Could you please provide an 
update on the status of those negotiations?
    Answer. The United States is currently engaged in negotiations to 
extend and amend the 1987 Multilateral Treaty on Fisheries with the 16 
Pacific Island Parties to the Treaty. After slow progress initially, 
recent sessions of the negotiations have been generally more positive. 
However, more work remains before an agreement is reached.
    An earlier sticking point was the Government of Papua New Guinea's 
May 2011 decision to withdraw from the Treaty. Had the Government of 
Papua New Guinea maintained that position, the Treaty would have ceased 
to have effect by its own terms in May 2012. However, the Government of 
Papua New Guinea announced in January 2012 that it would revoke its 
instrument of withdrawal from the Treaty, providing an additional year, 
until May 2013, to conclude the negotiations. This was a positive step, 
and concurrently negotiators made progress in narrowing differences 
between the two sides. Even so, much work remains and at the most 
recent negotiating round in February in Honolulu, the parties agreed on 
an accelerated timetable of meetings, with four negotiating sessions 
scheduled before the end 2012.
    At the February round the United States was able to further advance 
our understanding of the parties to the Nauru Agreement (PNA) Vessel 
Days Scheme. However, negotiators were not able to further narrow 
differences over the level of fishing opportunities afforded to the 
U.S. purse-seine fleet and the overall financial package due to 
linkages to the March 26-30 annual meeting of the Western and Central 
Pacific Fisheries Commission (WCPFC8) where regional levels of fishing 
effort and other conservation measures were to be discussed.
    At the WCPFC8 meeting, the members agreed to a new baseline for 
purse-seine fishing effort in waters under the national jurisdiction of 
the PNA. This outcome should allow the PNA to make more vessel days 
available to the U.S. fleet, which up to this point has been one of the 
major constraints to progress in these negotiations.
    The United States is looking ahead to the next session in June in 
Auckland, New Zealand, where, based on the outcomes of the WCPFC8 
meeting, we expect to be able to make more progress on the central 
issues.
    Question. The Pacific nations have seen an increased interest by 
China and others in ``big dollar'' diplomacy. Last summer you were very 
gracious to meet with me about the Compact of Free Association (COFA) 
and discuss the impacts of migrants on the State of Hawaii. I would 
appreciate learning about the Department's plan for diplomatic 
engagement with COFA countries, and how resources provided through the 
Compacts may be better directed to address some of their pressing 
needs. Additionally, in Public Law 112-74, the subcommittee included 
report language regarding COFA countries. Specifically, the Department 
was directed to work with through the U.S. Government's interagency 
process to help reduce the burden on affected jurisdiction. Could you 
please provide an update on this process?
    Answer. The Department of State is responsible for U.S. foreign 
relations with the Freely Associated States (FAS) and continues to 
coordinate closely with other Federal agencies, especially the 
Departments of the Interior, Defense, and Health and Human Services, on 
addressing pressing needs. The considerable financial assistance that 
we provide the FAS through our respective Compacts helps enable these 
countries to achieve budgetary self-sufficiency over time and continue 
to stand with us as staunch, dependable, and democratic allies. Through 
the Joint Economic Management Committee (JEMCO) meetings with the 
Government of the Federated States of Micronesia and the Joint Economic 
Management and Financial Accountability Committee (JEMFAC) meetings 
with the Government of the Republic of the Marshall Islands, the United 
States works collaboratively with the island governments to improve 
program and economic performance, specifically in the priority sectors 
of health and education. Similarly, with congressional enactment, the 
legislation approving the Palau Compact Review Agreement will require 
Palau to commit to economic, legislative, financial, and management 
reforms, such as the elimination and prevention of operating deficits 
and reductions in the national operating budget.
    We recognize the complexity of the impacts of the Compact and their 
cross-cutting implications for U.S. domestic programs and international 
relations. Both the FSM and RMI governments recognize the costs that a 
small percentage of their emigrating citizens place on the limited 
resources of U.S. jurisdictions where the migrants have settled in 
large numbers. The intent of the Compacts' immigrations provisions is 
to allow FAS citizens to work, study, and live in the United States as 
contributing members of the American community, as well as to bring 
their education and work skills back to the FAS to improve their 
economies. Many--if not most--migrants follow the intent of these 
provisions.
    We continue to work collectively through the interagency, including 
with the Departments of the Interior, Defense, Homeland Security, and 
Health and Human Services to encourage the FAS governments to 
proactively address this complex problem. On March 14, an inaugural 
Pacific Island Leaders Addressing Compact Impact (PILACI) meeting was 
convened by the United States Government in Guam, with representatives 
from the Departments of the Interior and State, including FAS 
Presidents, Governors of Micronesia and the affected jurisdictions, 
Federal agency representatives, and the three FAS ambassadors to the 
United States. Participants agreed on the need to respond to the 
Government Accountability Office's (GAO) call for better impact data. 
Representatives from Hawaii agreed to provide its reporting template, 
to be shared with Guam, Saipan and American Samoa, to see if the 
parties could agree on appropriate metrics to address the GAO's needs. 
Moreover, all FAS presidents expressed a willingness to assist the 
United States by collecting the data and helping to identify those with 
highly contagious diseases for ``no-fly'' listings.
    We will work together with the Department of the Interior to 
identify U.S.-based NGOs and organizations that have contributed or are 
currently contributing to the education and health fields in the FAS. 
Representatives from Guam noted the significant burden FAS citizens 
place on the criminal justice system--approximately 30 percent of 
prisoners serving time in Guam are FAS citizens. The Governor of Guam 
expressed an interest in repatriating ``minor'' offenders back to the 
FAS--the FAS presidents agreed to take a closer look at this issue. The 
next PILACI will convene in 6 months.
    My staff, the interagency, and our ambassadors in the FSM and RMI 
continue to urge both governments to direct human and financial 
resources to address the Compact impact challenges.
    Question. China's military rise in the region is both welcomed and 
watched with caution by many of our Asian partners. Over the last few 
years, we have grown more concerned by its assertive nature with regard 
to sea control and territorial disputes. Furthermore, it is North 
Korea's major trading partner and benefactor. China is also asserting 
itself around the globe, in particular, in Africa. In the United 
States, many people are concerned about the issue of currency 
manipulation and unfair trade practices. The administration should 
receive credit for its work to bring trade disputes before the World 
Trade Organization. Would you please provide your perspective on United 
States engagement with China on security, economic, and human rights 
issues?
    Answer. Developing positive and stable United States-China 
relations is in the interests of both countries, the Asia-Pacific 
region, and the world. We seek a positive, cooperative, and 
comprehensive relationship with China that brings concrete benefits to 
the American people and have said repeatedly that we welcome the rise 
of a strong, prosperous, and successful China that plays a greater role 
in world affairs. To these ends, the Obama administration is pursuing a 
three-pronged strategy for engagement with China.
    The first element of our approach to China begins with robust 
engagement across the Asia-Pacific region. A peaceful and prosperous 
region provides the best foundation to support strong and stable United 
States-China relations. We are therefore reinforcing our enduring 
alliances, reaching out to forge new partnerships with emerging powers, 
and strengthening the region's multilateral institutions.
    America has renewed and strengthened our bonds with our allies--
Japan, Republic of Korea, Thailand, Australia, and the Philippines--and 
we have deepened our partnerships with India, Indonesia, Vietnam, 
Malaysia, Singapore, and New Zealand. Meanwhile, we have passed the 
Korea-U.S. Free Trade Agreement and we continue to make progress in 
negotiating the Trans-Pacific Partnership to help create new 
opportunities for American companies and new jobs for American workers. 
We have also pursued unprecedented engagement in the East Asia Summit, 
the ASEAN Regional Forum, and other multilateral regional institutions. 
Taken together, America's renewed commitment to Asia provides a context 
and avenues for our engagement with China.
    The second element of our engagement strategy with China is to 
focus on building bilateral trust. We seek to build habits of 
cooperation that help us build mutual trust, manage disagreements, and 
prevent crises that might result from misunderstanding or 
miscalculation. We have established a historic level of high-level 
engagement with Beijing, including a record number of meetings between 
our presidents, and sustained interactions across our governments. A 
notable example of our efforts is the Strategic and Economic Dialogue. 
We have also launched a Strategic Security Dialogue with China to bring 
together senior civilian and military officials to address those issues 
that most threaten to undermine mutual trust and confidence in the 
relationship. We have continued the U.S.-China Legal Experts Dialogue 
to broaden and deepen understanding on issues related to the rule of 
law between our two governments.
    In addition, we have established a number of other functional and 
regional sub-dialogues, and we are looking to make progress this year 
on improving our military-to-military relations. Both President Obama 
and President Hu have stressed that a healthy, stable, and reliable 
military-to-military relationship is an important component of our 
overall bilateral relationship.
    Building trust, however, is not just a project for our governments. 
Our peoples must continue to forge new and deeper bonds as well. This 
is why we have launched the U.S.-China Consultation on People-to-People 
Exchange and public-private programs such as the 100,000 Strong 
Initiative that is sending more American students to China.
    The third element of the administration's engagement strategy is 
our commitment to expanding economic, political, and security 
cooperation with China. Our countries share a number of common goals 
and face a number of common challenges. We will continue seeking 
opportunities to work together across the array of international and 
regional issues, including the global financial crisis, international 
development, nuclear proliferation, piracy, climate change, and 
terrorism.
    On the economic front, we will continue to be assertive in securing 
the win-win economic relationship we can and should have with China. We 
want to engage in more trade and investment with China because we 
believe in the benefits that come with greater economic activity and 
healthy competition. But for it to be healthy, it has to be fair, 
rules-based, and transparent. So we will continue to urge China to make 
reforms, including allowing its currency to appreciate more rapidly; 
providing greater market access for American companies, goods and 
services; increasing intellectual property protection; and ending 
policies that discriminate against United States firms while unfairly 
favoring their Chinese competitors (particularly state-owned 
enterprises). We are also working to increase Chinese investment in the 
United States, which will generate more jobs for American workers.
    Finally, and crucially, the issue of human rights remains at the 
heart of American diplomacy and central to our engagement with China. 
In our discussions with Chinese officials, we reiterate our calls for 
the release of political activists imprisoned for exercising their 
universal human rights. We frequently urge China to address policies 
that have caused tensions in Tibetan and Uighur areas, resume 
substantive dialogue with the Dalai Lama or his representatives, 
protect the fundamental freedoms of expression, assembly, and religion, 
and uphold the rights of civil society actors to exist in a framework 
of the rule of law. We believe that when China fulfills its 
international obligations of respecting and protecting universal human 
rights, it will benefit the Chinese people, advance the long-term 
peace, stability, and prosperity of China, and ultimately enhance the 
United States-China relationship and China's role in the world.
    China today represents one of the most challenging and 
consequential bilateral relationships the United States has ever had to 
manage. The relationship does not fit neatly into black-and-white 
categories like friend or foe, and instead has elements of both 
cooperation and competition. United States engagement with China is 
therefore grounded in reality, focused on results, and true to our 
principles and interests.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
    Question. I very much applaud your efforts to strengthen 
independent civil society and nongovernmental organizations (NGO) 
around the world. Can you outline how the President's request will 
support the strengthening of democracy, human rights groups, and labor 
unions around the world both through funding by the State Department 
and U.S. Agency for International Development (USAID)? How are State 
and USAID strengthening worker rights in Arab Spring countries that 
have seen trade unions leading efforts for democratization?
    Answer. The President's request for fiscal year 2013 includes $2.84 
billion for State Department and USAID programs to strengthen 
democracy, human rights, and governance worldwide. Under this broad 
rubric, both the State Department and USAID plan programs to strengthen 
labor unions and worker rights.
    The State Department's programs focus on administration priorities 
to:
  --build trade unions' capacity to advocate for internationally 
        recognized worker rights and engage in collective bargaining;
  --enable trade unions to participate as informed, effective partners 
        in national policy decisions;
  --promote the institutions of social dialogue and the development of 
        modern industrial relations systems;
  --organize vulnerable workers, with particular emphasis on informal 
        sector workers, women, and youth.
    The State Department locates programs in priority countries chosen 
on the basis of:
  --the level of working conditions;
  --opportunity to drive sustainable change; and
  --alignment with broader U.S. policy priorities.
    The State Department encourages labor laws and practice to reflect 
internationally recognized standards, especially on freedom of 
association and the right to collective bargaining. Worldwide, the 
State Department's labor officers work across a range of issues to 
shape policies related to international labor affairs and support 
overall U.S. foreign policy. Among other things, they research and 
report on key labor issues, including worker rights and labor 
relations.
    The State Department supports worker rights in Arab Spring 
countries through a variety of programs. In Egypt and Tunisia, in 
particular, we are helping to:
  --increase awareness of fundamental labor rights;
  --organize vulnerable workers; and
  --strengthen the independence and representativeness of established 
        and new trade unions and their efforts to advocate for 
        increased freedom of association.
    Region-wide, we are helping build worker organizations' economic 
and legal literacy to enhance their ability to engage constructively in 
public policy debates.
    USAID supports administration priorities through its Global Labor 
Program (GLP), implemented by the Solidarity Center, which promotes 
international core labor standards, works to improve workers' access to 
justice, and supports independent, democratic labor unions and NGOs. 
The program has several innovative components including:
  --a global program for technical leadership with special focus on 
        rule of law:
    --gender equity;
    --global organizing;
    --the informal sector;
    --migration; and
    --trafficking in persons; and
  --regional programs to promote core labor standards in Africa, Asia, 
        Eastern Europe, and Latin America;
  --focused 5-year country programs in Ukraine, Georgia, Bangladesh, 
        Cambodia, South Africa, Liberia, Mexico, Honduras, and Brazil; 
        and
  --state-of-the-art monitoring and evaluation, including impact 
        evaluations of labor programming in three countries.
    USAID coordinates regularly on the GLP with the Department of State 
and Department of Labor.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Madam Secretary: I want to express my gratitude for your 
work as First Lady, Senator, and now as Secretary of State on behalf of 
children living outside of family care. The mission of finding 
permanent families for children who have been orphaned, abandoned, or 
otherwise irrevocably separated from their parents, both domestically 
and internationally, has been dear to both of our hearts for some time 
now. I appreciate your presence at last year's the Way Forward Event 
and for Dr. Rajiv Shah's opening remarks (and your letter of support) 
at the first ever U.S. Government Evidence Summit on Protecting 
Children Living Outside of Family Care.
    While we all know instinctively that family care for children is an 
essential part of healthy development, the research truly indicates 
that young children, age 2 and younger, are best raised in families 
rather than in institutional care. The family is the basic unit 
necessary for a child's proper growth and development, and I believe 
that our country's aid to developing countries will be ineffective if 
it does not incorporate initiatives to strengthen child welfare systems 
to ensure bright futures for all children. For this reason, I am 
concerned that the President's fiscal year 2013 budget rarely addresses 
international assistance to strengthen child welfare systems in 
developing countries. It seems to me that United States Agency for 
International Development (USAID) and the Department of State have 
invested in strengthening health systems internationally, but there is 
little mention of programs specifically aimed at strengthening child 
welfare systems and their workforces.
    Do you believe that the fiscal year 2013 budget includes a 
sufficient emphasis on vulnerable children's issues and child welfare 
systems strengthening? Which Department of State and USAID programs 
provide technical assistance to developing governments so that they 
might do a better job of reuniting children with birth families or 
connecting orphaned children with foster or adoptive families?
    Answer. Thank you, Senator. You have been one of the Senate's 
greatest champions for vulnerable children, particularly children 
outside of family care. I appreciate your dedication to these children 
and your efforts to ensure that the U.S. Government is doing the most 
it can to improve the lives of children facing adversity globally.
    U.S. Government departments and agencies are doing good work on 
behalf of the world's most vulnerable children. More than 30 offices 
within seven departments--which include the Departments of Agriculture, 
Defense, Health and Human Services, Labor, State, the Peace Corps, and 
USAID--provided approximately $2.8 billion to implementing partners in 
fiscal year 2010 for 1,710 projects to assist vulnerable children and 
their families in 107 countries. USAID manages more than 65 percent of 
the U.S. Government's investment in programs for vulnerable children 
overseas.
    The largest single investment for orphans and vulnerable children 
is channeled through the President's Emergency Plan for AIDS Relief 
(PEPFAR), which includes a 10-percent earmark for orphans and 
vulnerable children--currently more than $300 million per year. 
Implemented primarily by USAID, this funding supports a range of child 
welfare and protection services, including prevention of and response 
to child abuse, exploitation, neglect and family separation, as well as 
poverty reduction, family strengthening, and efforts to ensure access 
to basic services, such as health, education, shelter, and legal 
protection. In fiscal year 2010, PEPFAR programs reached more than 3.75 
million orphans and vulnerable children.
    USAID's Displaced Children and Orphans Fund (DCOF) also plays a 
critical role in our efforts to help other nations to do more 
themselves to take care of their vulnerable children. With $13 million 
per year, DCOF provides technical assistance to benefit vulnerable 
children, especially children without or at risk of losing family care. 
In fiscal year 2011, DCOF programs reached 130,000 children and 
families. For example, DCOF support strengthened national child 
protection systems in Cambodia, Liberia, Ethiopia, and Guatemala. 
Programs in Moldova and Armenia enabled children to remain with their 
families by preventing children from being placed unnecessarily in 
institutional care. In Sri Lanka, 483 children from 64 targeted 
institutions (55 private children's homes and nine States' homes) in 
the three provinces were reunified with their families.
    Programs assisting highly vulnerable children are managed and 
implemented per legislation and agency mandates. However, regardless of 
the causes and consequences of their vulnerability, our programs must 
strive to build and strengthen sustainable child protection systems 
that effectively address the needs of all vulnerable children.
    Following the U.S. Government Evidence Summit on Protecting 
Children Outside of Family Care last December, U.S. Government 
interagency partners committed to developing whole-of-government 
guidance and strategy to better protect children in adversity, 
particularly those without family care. This strategy is in process and 
will be completed by July 2012. Our interagency strategy development 
team has my fullest support.
    I am also extraordinarily pleased that USAID has assigned a 
renowned expert in international child protection, Dr. Neil Boothby, as 
the U.S. Government Special Advisor and Senior Coordinator to the 
Administrator on Children in Adversity under Public Law 109-95: The 
Assistance for Orphans and Other Vulnerable Children in Developing 
Countries Act of 2005. I know that Dr. Boothby is fully committed to 
promoting comprehensive, coordinated and effective U.S. Government 
efforts on behalf of vulnerable children and their families.
    Question. The administration has said that it wants to make foreign 
aid more effective and efficient and has made some progress on this, 
particularly through the USAID Forward agenda. For example, I've been a 
supporter of procurement reform and was pleased to see that just this 
past month, USAID simplified its regulations so that the agency can 
support smaller businesses in the United States and abroad--supporting 
economic growth in areas that really need it--when buying goods and 
services.
    On procurement reform, what steps have been taken to help both 
small U.S. and developing country businesses know about and take 
advantage of these recent regulatory changes?
    Answer. On January 10, 2012, USAID published in the Federal 
Register (77 FR 1396) a revised, final regulation concerning source and 
nationality requirements for procurements. It became effective February 
6, 2012. The revised regulation:
  --authorizes procurements in the recipient and other developing 
        countries along with the United States, as the Congress 
        directed in the Foreign Assistance Act, via a new default 
        geographic code of 937;
  --eliminates the requirement to determine the ``origin'' of a 
        commodity--a difficult task in today's globalized economy--and 
        simplifying and clarifying source and nationality requirements 
        to restrict procurements from foreign government controlled 
        vendors; and
  --streamlines procedures, including those necessary to obtain a 
        waiver in the event goods or services are needed from any other 
        country or region.
    USAID provided a 45-day public comment period on the proposed rule. 
USAID received 16 external comments, including comments from USAID 
partners that have received USAID funding, trade associations that 
represent them, and other interested parties. Comments received were 
discussed and reflected in the publication of the proposed rule. USAID 
believes that input from small U.S. businesses were reflected in these 
comments.
    The revised regulation is a far-reaching step toward simplification 
of USAID's procurement procedures and toward achieving Agency 
Implementation and Procurement Reform Objective 2, Strengthening Local 
Civil Society and Private Sector Capacity, and Objective 4, use U.S. 
Government resources more efficiently and effectively. As part of our 
outreach to traditional USAID implementing partners, USAID held an 
informational briefing on the new regulation at Inside NGO in early 
February, and will be holding additional briefings on IPR Objective 2 
related reforms with InterAction and the Professional Services Council 
over the next few months. As the new regulation does not specifically 
target U.S. small businesses, USAID does not have outreach sessions 
specific to the regulation targeting that group.
    The USAID Office of Small and Disadvantaged Business Utilization 
(OSDBU), which spearheads IPR Objective 3, Increase Competition and 
Broaden USAID's partner base, provides various services to promote 
maximum practicable opportunities to U.S. small businesses. These 
include outreach sessions, counseling, monitoring planned procurements 
to identify potential small business opportunities, and a mentor/
protege program to aid in the development of small businesses to serve 
as potential prime or subcontractors. OSDBU also provides small 
business programs training to USAID acquisition personnel both in 
Washington, DC and at several overseas missions. Similarly, the Office 
of Acquisition and Assistance, which spearheads IPR Objective 4, has 
developed a USAID Partner Community Outreach Plan to improve our 
business communications and enhance access to information for new and 
existing partners.
    In the field, USAID has held a series of training/workshops on 
Local Capacity Development at the USAID missions in Senegal, Ghana, 
Haiti, Mozambique, Ukraine, Kenya, El Salvador, Thailand, Egypt, and 
South Africa, where USAID has trained U.S. Direct Hire and Foreign 
Service National (FSN) staff from more than 55 USAID missions on best 
practices for working directly with local organizations. The field-
trainings included information on the changes to source and nationality 
regulation, and how to hold industry and business days and other 
outreach events with local civil society and private sector entities to 
inform them about USAID programs and opportunities to participate in 
solicitations.
    Question. What else is the administration doing to ensure that more 
U.S. aid goes directly to or is channeled through foreign government 
and local civil society and private sector partners? What benchmarks or 
measures are employed to ensure that these aid recipients are using 
U.S. funds appropriately?
    Answer. On a global basis, USAID has established a target to 
obligate 30 percent of its USAID-managed assistance through local 
mechanisms--governments, NGOs and private firms--by 2015. This is a 
global target, and we recognize that each country situation is unique. 
USAID will track progress toward achieving this goal on an annual 
basis.
    USAID's policy for use of government-to government mechanisms (G2G) 
is prudent, reasonable, measured, phased, and based on a sincere desire 
to achieve sustainable development, to create a world in which 
governments chosen through their democratic means, deliver adequate 
goods and services to their people through transparent and accountable 
financial management systems. In order to do this in a responsible 
manner, USAID has developed a rigorous due diligence process called the 
Public Financial Management Risk Assessment Framework.
    The Framework involves a multi-stage process. The first stage is 
called the Rapid Appraisal. It covers issues affecting country-level 
fiduciary risk, such as country commitment to development, 
transparency, and accountability of public funds. The Rapid Appraisal 
also examines political or security factors that exacerbate fiduciary 
risk such as existence and quality of policies, legal and institutional 
framework, and systems. This appraisal provides USAID with a high-level 
snapshot of fiduciary risks associated with use of the country's public 
financial management (PFM) systems and helps inform the decision 
whether USAID should move forward and undertake a more rigorous, formal 
Stage 2 Risk Assessment. In Stage 2, USAID identifies, and where 
appropriate, proposes measures to mitigate fiduciary risks at the 
country, sector, or subnational government level. The identification 
process, usually outsourced to an international consulting or auditing 
firm, or a Regional Inspector General-certified local audit firm, 
includes professional examination of the actual PFM, including 
procurement and inventory management, systems. Such investigation 
includes limited testing at the transaction level and other 
investigatory techniques such as tightly focused interviews and 
documentation reviews to ensure that a comprehensive and detailed 
examination is completed. Mitigation measures resulting from this risk 
identification and investigation process can include requirements that 
government institutions meet specific operational standards prior to 
receiving fund advances or are subject to close program monitoring for 
viability and realistic planning.
    USAID is devoting significant management resources to 
implementation of the Framework. Professional full-time staff has been 
hired in several bureaus and in the Chief Financial Officer's office 
for quality assurance and technical support to the field. 
Implementation teams have been assigned by several regional and 
technical bureaus to manage the effort. USAID is conducting specific 
PFM and risk management training for implementation staff.
    In addition, USAID's new Country Development Cooperation Strategy 
and Project Design processes specifically incorporate consideration, 
but do not mandate use, of G2G mechanisms and direct implementation 
through local civil society and private sector organizations. Both the 
Framework and the new country strategy and project design guidance have 
been addressed in a coordinated and disciplined manner in recent 
meetings of Mission Directors, Mission Controllers, and Mission 
Contracting Officers in an effort to reach all levels with the message 
of risk management and sustainable development. USAID is developing 
specific guidance for evaluating G2G and direct implementation through 
local civil society and private sector organizations.
    For direct awards with local civil society and private sector 
organizations, USAID has held a series of field-trainings on Local 
Capacity Development at the USAID missions in Senegal, Ghana, Haiti, 
Mozambique, Ukraine, Kenya, El Salvador, Thailand, Nepal, Egypt, and 
South Africa, where USAID has trained US Direct Hire and Foreign 
Service National staff from more than 55 USAID missions on best 
practices for working directly with local organizations. USAID also has 
established a Washington-based Technical Assistance and Field Support 
Working Group to respond to field requests for local capacity 
development support.
    To ensure that more U.S. aid goes directly to local civil society 
and private sector partners, USAID has revised agency policy on the use 
of fixed obligation grants in order to provide field missions with a 
more flexible grant model to use with local civil society 
organizations. USAID also has sought and received legislative authority 
to limit competition for contracts with local organizations up to $5 
million provided that doing so would result in cost savings, develop 
local capacity, or enable USAID to initiate a program or activity in 
appreciably less time than if competition were not so limited. Finally, 
USAID has issued a revision to Assistance Exceptions to Competition 
Policy to reduce the documentation requirements for limited competition 
for assistance awards to local organizations, and to establish a new 
exception to competition for transition awards to local organizations 
that have been sub-recipients in the past.
    USAID is devoting significant management resources to ensure that 
U.S. aid that goes directly to local civil society and private sector 
partners is used appropriately. To that end, USAID has established 
Local Capacity Development Pilot Teams in Egypt, Kenya, South Africa, 
Peru, and the Philippines comprised of senior Foreign Service National 
staff and Junior Officers under the Development Leadership Initiative 
and led by experienced U.S. Direct Hire Foreign Service Officers in 
order to discern and disseminate best practices in working with local 
organizations. USAID also has been working closely with auditors from 
USAID Inspector General Office to develop a pre-award survey for use 
with local organizations and to revise the standard provisions for 
awards to local organizations to ensure that our requirements are clear 
and understandable.
    Question. Since 2004, the U.S. Government has disbursed close to $2 
billion to help children affected by HIV/AIDS fight the epidemic in 26 
countries through PEPFAR. In 2011, the State Department's Office of the 
Global AIDS Coordinator released results of an external review of 
PEPFAR's Orphans and Vulnerable Children (OVC) portfolio, and I was 
happy to read about the successes of these programs. For example, the 
report documents PEPFAR's intentions to empower more indigenous 
partners, moving away from the use of large international NGOs, 
universities, and private foundations as prime implementers (or prime 
partners) of programs, in order to ensure country ownership and 
ultimately, sustainability.
    Answer. PEPFAR continues to prioritize facilitating country 
ownership and sustainability through increasing use of local 
organizations as partners. PEPFAR prioritizes capacity-building of 
partner governments to strengthen the institutional response to the 
needs of children affected by AIDS. These are key elements of the 
transition toward a more locally led response.
    Significant efforts are under way through both international and 
local NGOs and partner governments to build local capacities through 
various activities, such as social welfare workforce strengthening 
(SWWS). Such systems strengthening efforts are best facilitated through 
government-to-government work and through international NGOs, Schools 
of Social Work and professional organizations that can facilitate 
cross-fertilization and learning among social welfare workforces across 
the world.
    Smaller indigenous organizations and the individuals who lead them 
have benefited significantly from the broader experience that these 
partnerships bring. In many PEPFAR countries, for example, 
opportunities for staff and volunteers to receive training (at 
certificate and degree level) in child and family welfare practice has 
dramatically increased due to such cross-border partnerships. 
Organizational capacity building, including mentorship and skills 
building in financial management and resource development, have also 
featured prominently in NGO-to-NGO partnerships aimed at ensuring civil 
society's long-term role in the response to children.
    Question. Can you give us a progress update on this transition from 
the use of larger, international organizations to more indigenous, 
local organizations as partners?
    Answer. A review of the current portfolio shows that 14 percent of 
all HKID funding in fiscal year 2011 went directly to local 
organizations as prime partners, and nearly one-third (51 out of 161) 
of all prime partners were local, as shown in the accompanying list. 
The awards listed include partner government ministries, as well as 
local NGOs, as both are essential to ensuring country ownership and 
sustainability. In addition, a large majority of awards to other 
partners include significant and strategic sub-awards to community and 
local organizations. To make it possible for more direct awards to such 
organizations going forward, PEPFAR is working to increase the number 
of organizations capable of handling U.S. Government funding directly, 
as described in the previous answer. It is essential for this 
transition to ensure that local organizations have the capacity to 
manage and utilize funds. Thus, awards to international NGOs include 
mandatory, significant work with local organizations to intensively 
build technical and management capacity, so they can successfully 
transition to managing larger awards.
    Question. What percentage of PEPFAR funds through the OVC portfolio 
(also known as HKID programs) are currently awarded to large 
international NGOs, universities, and private foundations versus 
smaller indigenous organizations?
    Answer. PEPFAR-implementing agencies hold partner contacts and, 
therefore, conduct all potential audits. The implementing agencies 
conduct audits per internal policies and procedures. Below are 
responses from the major PEPFAR-implementing agencies, per their 
protocols and the public availability of their audits:
  --Department of Defense (DOD) adheres to the single audit 
        requirements as stated in Office of Management and Budget (OMB) 
        Circular A-133, which governs audit requirements of grant 
        recipients. In a single audit, an independent auditor reviews 
        the programs and management practices. Audits are made public 
        via the Federal Audit Clearinghouse Web site.
  --U.S. Department of Health and Human Services (HHS)/Centers for 
        Disease Control and Prevention (CDC) requires all of its 
        grantees who expend $500,000 or more during their fiscal year 
        to provide an audit that is in accordance with Government 
        Auditing Standards, as specified in 45 CFR 74.26(d), as part of 
        the terms and conditions of the notice of grant award.
  --CDC actively tracks, monitors, and follows-up on the status of 
        PEPFAR audit submissions. CDC does not currently make public 
        the result of audit findings, but can provide copies of the 
        audit reports submitted by PEPFAR grantees.
    Question. Does PEPFAR audit all of the organizations that receive 
PEPFAR funds, including all sub-partners, and are these results made 
publicly available?
    Answer. USAID's Office of Inspector General (OIG) is responsible 
for conducting and supervising audits related to USAID's programs and 
operations, which includes activities funded by PEPFAR. USAID ADS 
Chapters 590-595 (available on USAID's public Web site) cover in detail 
the Agency's policy directives and required procedures for audits 
performed by USAID OIG. USAID OIG also has its own public Web site that 
contains a general overview of its operations (http://www.usaid.gov/
oig/index.html). Audit activities include performance audits of 
programs and management systems, financial statement audits required 
under the Chief Financial Officers Act, and financial-related audits of 
grantees and contractors.
    USAID conducts pre-award and postaward audits of activities 
conducted by our prime partners. Although USAID does not conduct direct 
audits of sub-partners, the Agency holds its prime partners responsible 
for all activities of their sub-partners. Pursuant to the PEPFAR 
Leadership Act, as amended, each year, USAID OIG participates in a 
coordinated interagency audit plan that covers PEPFAR. Here is the 
fiscal year 2012 plan: http://www.usaid.gov/oig/public/plans/
2012_Coordinated _Audit_Plan.pdf
    In accordance with the Inspector General Act, USAID OIG also 
submits a Semiannual Report to Congress (SARC): http://www.usaid.gov/
oig/public/semiann/semiannual_recent.htm.
    In addition, USAID OIG generally makes its program audit reports, 
including those related to the Agency's HIV/AIDS programs, available on 
its Web site at: http://www.usaid.gov/oig/public/public1.htm.
    PEPFAR activities conducted by USAID are also subject to reviews 
and audits by the Government Accountability Office (GAO). USAID's 
policy directives and required procedures for GAO audits are set forth 
in ADS 593. GAO's audit reports are also available to the public on the 
GAO Web site: www.gao.gov.
    Question. According to UNICEF, 64 percent of people in developing 
countries who are living with HIV/AIDS are female. How many of these 
smaller PEPFAR partner organizations are women-led and women-focused?
    Answer. It is not possible to provide a figure as to the share of 
PEPFAR OVC prime partners that are women-led and women-focused, since 
we do not collect that level of data. PEPFAR does work to ensure that 
its OVC programs are fully responsive to the special needs of the girl-
child. Efforts in this area include protection from violence and 
coercion, support for education and income generation, and addressing 
harmful male norms.
    Question. Within Central America, the deteriorating security 
situation threatens citizen safety. Narcotics traffickers continue to 
establish trafficking routes to and through the region. The continued 
expansion of national and transnational gangs creates communities of 
fear where illicit organizations are effectively in control. At a time 
when many of our regional partners are fighting a brutal battle in 
their countries against organized crime, the President's fiscal year 
2013 request recommends that the State Department make a $5 million cut 
from enacted fiscal year 2012 levels to the Central America Regional 
Security Initiative (CARSI). The President recommends that the 
International Narcotics Control and Law Enforcement Account 
appropriation to the Western Hemisphere be reduced by $92 million for 
fiscal year 2013. Can you please explain the President's logic in 
making such a sizeable reduction to this appropriation for the Western 
Hemisphere, when drug-related violence and narcotics trafficking is at 
an all-time high?
    Answer. We share your concern regarding the citizen security crisis 
in Central America, and the accompanying factors that bring violence to 
the region. The problem is large and complex, but the United States is 
committed to continuing to work with Central American governments, as 
well as other donor nations and institutions, to support the region's 
efforts to reverse the deteriorating state of citizen security.
    Through its programming and policy advocacy, CARSI seeks to reduce 
the region's levels of crime and violence, support prevention efforts 
for at-risk youth and those living in marginalized communities, and 
strengthen rule of law institutions. The Bureau of International 
Narcotics and Law Enforcement Affairs (INL) and USAID are implementing 
CARSI programs capable of being replicated or ``nationalized'' by host 
nations. Examples of this are Model Police Precincts, the opening of 
youth outreach centers and vocational training centers, and the 
development of ``Municipal Crime Prevention Strategies'' in communities 
at-risk. CARSI also supports border security professionalization, 
assistance for judicially authorized wire intercept programs, seized 
asset programs, and the training and vetting of specialized 
investigative units.
    Since fiscal year 2008, the United States has committed $361.5 
million to these efforts. The administration requested $100 million for 
CARSI for fiscal year 2012; however, we plan on allocating $105 million 
for CARSI (INCLE: $60 million; ESF: $45 million), pending final 
congressional approval. The administration's fiscal year 2013 request 
of $107.5 million will represent a 2.3-percent increase more than the 
fiscal year 2012 actual allocation for CARSI (INCLE: $60 million--no 
change; ESF: $47.6 million--5.7-percent increase).
    Citizen security is a priority for the people of Central America 
and the hemisphere. The administration's proposed fiscal year 2013 
$91.8 million reduction in Western Hemisphere INCLE funding largely 
accounts for the continuing transition of counternarcotics and rule of 
law programs to the Government of Colombia as it continues to build and 
strengthen its capacities, which reflects the success of United States 
assistance investments. In fact, Colombian capacity has reached the 
point where they are providing law enforcement training and assistance, 
in cooperation with the United States, in both Mexico and Central 
America. In Mexico, the fiscal year 2013 INCLE request decrease 
reflects a reorientation of efforts in Mexico from the acquisition of 
equipment to training, mentoring and capacity building, all of which 
are lower cost and provide long-term sustainability.
    Given the proximity of Central America to our own border, and the 
efforts of transnational trafficking organizations in Central America, 
Colombia and Mexico, we will continue our commitment to Central 
American and in the hemisphere to sustain our efforts and support our 
partners in addressing their most pressing citizen security, rule of 
law and prevention challenges.
    Question. The U.S. Congress voted to ban military aid to Guatemala 
in 1990 due to concerns regarding human rights abuses committed by the 
Guatemalan army. Today, the ban remains in place as a partial 
restriction that limits Foreign Military Financing (FMF) and 
International Military Education and Training (IMET) funding to the 
Army Corps of Engineers, the Navy and the Air Force, allowing only 
expanded IMET to the Guatemalan army. The fiscal year 2012 omnibus 
appropriations bill which passed through the Congress last December 
states that funding to the army will only be considered in fiscal year 
2013 if the army complies with a series of stipulations, including ``a 
narrowly defined mission focused on border security and external 
threats, cooperation with civilian investigations and prosecutions of 
cases involving current and retired officers and with the CICIG, and . 
. .  publicly disclosing all military archives pertaining to the 
internal armed conflict.'' Does the Department of State concur with 
these requirements and do you believe that the Guatemalan army is ready 
to receive regular IMET funding?
    Answer. In 2011, then-Guatemalan President Alvaro Colom formally 
requested the U.S. Congress eliminate restrictions it has placed on FMF 
and IMET funding for the Guatemala army. Newly inaugurated President 
Perez Molina has also expressed interest in having the current 
restrictions lifted, citing the need to increase the capacity of the 
Army in order to combat current security threats, including 
narcotrafficking. The Department of State has indicated to the 
Guatemalan Government that we are willing to discuss the restrictions 
on IMET and FMF funding. It is very early in the Perez Molina 
administration. We will need to thoroughly assess the military's 
commitment and progress with regard to human rights, internal reform, 
and other key issues, including the criteria identified in the 
conference report accompanying this year's appropriations act. The 
Department will continue to work with other U.S. Government agencies 
and the U.S. Congress to determine the way forward on this important 
issue.
    Question. We're witnessing one of the coldest winters on record 
across Europe and Central Asia, leading to a humanitarian crisis for 
already vulnerable populations such as women and children in 
Afghanistan and Pakistan. Tragically, the New York Times recently 
reported the deaths of at least 22 young children in Kabul's informal 
settlements and estimates that 144 per 1,000 children die due to poor 
conditions and cold weather in both formal and informal camps. The 
State Department estimates that there are close to 3 million Afghan 
refugees in Pakistan and Amnesty International reported that there are 
now 400 new Afghans internally displaced (IDP) as a result of conflict 
and natural disaster every single day, adding to a total population of 
half a million IDPs. Though your fiscal year 2013 budget increases 
funding to strengthen diplomatic capacity in the frontline states, 
funding is reduced for the humanitarian assistance programs that are 
critical when responding to crises of this nature and when driving 
longer-term, strategic development.
    Will you please clarify whether increased funding for frontline 
states, including the modest growth in foreign assistance funding for 
Afghanistan, will help make up for the 13-percent cut to programs 
funded through the Migration and Refugee Account? How will this affect 
the refugee response in Afghanistan and Pakistan? What specific 
programs funded through the Migration and Refugee Account will account 
for the cut?
    Answer. Maintaining support for humanitarian programs in South Asia 
is a priority for the Department. The President's fiscal year 2013 
request for the Migration and Refugee Assistance (MRA) account includes 
$107.8 million for humanitarian activities in South Asia, including 
those assisting Afghan refugees throughout the region. While this does 
reflect a decrease from what the Department expects to provide from the 
MRA account for programs in South Asia in fiscal year 2012, the fiscal 
year 2013 MRA request for South Asia actually reflects a slight 
increase from the President's fiscal year 2012 MRA request for South 
Asia of $106 million and what the Department programmed in fiscal year 
2011 (also $106 million).
    As the programs that the MRA account supports respond to ever-
changing humanitarian needs and are ongoing in areas that are often 
unstable and difficult to access, Department programming through the 
MRA account must remain as flexible as possible from year-to-year to 
meet humanitarian needs worldwide. As such, while needs for Afghan 
refugees will remain high in fiscal year 2013, it is yet unclear what 
particular programs within South Asia might receive reduced support as 
a result of decreased available funding. It is important to note that 
in addition to funds included in the fiscal year 2013 MRA request, the 
Department also expects to utilize some of the 2-year fiscal year 2012 
Overseas Contingency Operations (OCO) MRA funds to help meet gaps in 
assistance for Afghan refugees in fiscal year 2013.
    A significant portion of USAID's humanitarian assistance in 
Afghanistan is assisting people displaced in both formal and informal 
settlements. Providing assistance to IDPs has been a central component 
of USAID/OFDA's strategy since 2001. USAID/OFDA has funded programs 
that have specifically targeted IDPs and returnees, as well as programs 
that have targeted vulnerable populations. In response to the severe 
winter this year, USAID/OFDA mobilized partners Save the Children/U.S. 
and the International Organization for Migration (IOM) to provide cold 
weather-related emergency relief supplies, included blankets, winter 
clothing, shoes and shelter materials, to approximately 28,000 of the 
estimated 30,000 residents of the Kabul Informal Settlements (KIS). To 
quickly address humanitarian needs of newly displaced people, USAID/
OFDA supports the pre-positioning of emergency relief supplies in 
strategic locations throughout Afghanistan, which relief agencies draw 
upon when population displacement or other emergency needs occur, such 
as recent avalanches. USAID/OFDA's active programs addressing 
humanitarian needs in Afghanistan total more than $36 million, with 
$17.7 million already programmed in fiscal year 2012.
    Other nonhumanitarian funding for Frontline States included in the 
fiscal year 2013 request, while not directly targeted at immediate 
humanitarian assistance efforts, does continue to lay the groundwork 
for long-term sustainable economic development, improved governance as 
well as increased access to healthcare and education which will help 
the people, government, and regional partners resolve some of the 
issues driving the refugee crisis.
    Question. Can you also clarify whether the Middle East and North 
Africa Incentive Fund (MENA), created and designed in the fiscal year 
2013 President's budget request as ``incentivizing long-term economic, 
political, and trade reforms to countries in transition and to 
countries prepared to make reforms proactively'', will provide 
humanitarian aid in the region? Will monies allocated to the 
International Disaster Assistance and Migration and Refugee Assistance 
accounts now prioritize regions other than the Middle East and North 
Africa?
    Answer. The MENA-IF represents a new approach to the Middle East 
and North Africa through demonstrating a visible commitment to reform 
and to the region; tying assistance to reform agendas; and providing 
flexibility for contingencies in order to take advantage of new 
opportunities. To support this new approach, this Fund has broad 
authorities to allow the United States Government to better respond to 
political changes in the Middle East and North Africa and incentivize 
meaningful and sustainable political and economic reforms by tying 
these reforms to significant levels of U.S. assistance.
    The MENA-IF will address three types of needs:
  --Longer-term transition incentives;
  --Immediate transition/stabilization contingencies; and
  --Regional program platforms.
    The MENA-IF could potentially be used to fund humanitarian 
assistance within the context of immediate transition/stabilization 
contingencies. However, the MENA-IF is not designed to alter the 
prioritization processes of specific global accounts as funding 
decisions will be made on a case-by-case basis.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Even as we watch the events across the Middle East, we 
must not forget that achieving peace between Israel and the 
Palestinians is critical to stability in the region. How do you plan to 
help get the parties to resume direct negotiations to move the peace 
process forward?
    Answer. We continue to believe that direct negotiations are the 
only way to make progress toward achieving the two-state solution. The 
Jordanians hosted several rounds of discussions in January between the 
Israeli and Palestinian negotiators. We were encouraged by the 
atmosphere of the talks, which were generally positive. We are now 
consulting with the Quartet, Jordan, and other international partners 
to find ways to continue these talks. The biggest challenge will be 
building trust between the parties. Last September, the Quartet put 
forward a framework that presents a negotiating alternative. Both sides 
have told us that this is their preferred path, but both sides must 
take steps to improve the climate. The Quartet Principals plan to meet 
in New York in March, to discuss Jordanian Foreign Minister Judeh's 
efforts to bring the parties together. The Quartet Principals will hold 
a meeting in April to discuss next steps toward implementing their 
September statement. Recent unrest in East Jerusalem and the West Bank, 
and Gaza rocket attacks underscores the importance of the parties 
continuing their dialogue; a political vacuum only increases the risk 
of heightened tension and instability on the ground, which both parties 
want to avoid.
    Question. In 1989, I wrote a law--known as the Lautenberg 
amendment--that has helped hundreds of thousands of victims of 
religious persecution escape and come to the United States to live in 
freedom. What will be the impact on persecuted religious minorities 
around the world--particularly in Iran--if this law is not renewed?
    Answer. If the Lautenberg amendment is not renewed, the impact on 
religious minorities would be limited to those from Iran and the former 
Soviet Union who are not otherwise able to meet the United States 
definition of a refugee contained in the Immigration and Nationality 
Act that is applied to other refugees admitted to the United States. 
The reduced evidentiary standard contained in the Lautenberg amendment 
currently benefits certain religious minorities from Iran and the 
former Soviet Union. Individuals who are members of religious groups, 
including those who are members of religious minorities, from any 
country who cross an international border are eligible to seek the 
protection of the United Nations High Commissioner for Refugees 
(UNHCR), which may include resettlement to a third country, including 
the United States, if it is determined to be the best durable solution 
for an individual applicant.
    In addition to those Iranian religious minorities who take 
advantage of the direct application program that the Department of 
State operates in Austria, many Iranians who have suffered persecution 
in their home country, including religious minorities, seek protection 
in Turkey. For many years, the Government of Turkey has proven to be a 
strong partner in refugee protection, and UNHCR has referred thousands 
of Iranians, including religious minorities, for third country 
resettlement. Since 2006, the United States has admitted more than 
5,500 Iranian refugees from Turkey for permanent resettlement. Non-
renewal of the Lautenberg amendment would not have an impact on UNHCR's 
referrals of persecuted Iranian religious minority refugees in Turkey.
    Question. What impact do you believe the treatment of United 
States-based democracy and human rights workers in Egypt will have on 
United States-Egypt relations moving forward? What is the State 
Department doing to ensure nongovernmental organizations (NGO) can 
continue to effectively operate in Egypt?
    Answer. We continue to be deeply concerned about the operating 
environment for NGOs in Egypt in light of the Egyptian Government's 
investigation into foreign funding of these organizations and the 
criminal charges filed against Egyptian, American, and European NGO 
staff. Although some NGO staff facing these charges were able to depart 
Cairo, we have not shifted our attention away from this issue. We 
remain fully engaged and consistently press the Supreme Council of the 
Armed Forces (SCAF) at the highest levels to drop criminal charges and 
allow NGOs in Egypt to operate without undue state interference. We 
have also emphasized to new members of parliament the importance, as 
part of Egypt's democratic transition, of revising the Egyptian legal 
framework regulating NGOs, which does not meet international standards 
for respecting freedom of association. As Egyptians look toward an 
elected president taking power in July 2012, we plan to continue these 
conversations on the legal reforms necessary to ensure a thriving 
Egyptian civil society. In addition, we will continue to look for ways 
to use our assistance to support a pluralistic civil society, 
particularly as we begin conversations with emerging leaders in 
parliament about our future assistance relationship with Egypt.
    Question. The 2010 State Department Quadrennial Diplomacy and 
Development Review (QDDR) incorporated an unprecedented emphasis on 
gender integration in foreign policy programs, recognizing it as a key 
approach for effective development. How does the fiscal year 2013 
budget further this emphasis on gender integration?
    Answer. As you note, the QDDR commits the Department of State and 
the U.S. Agency for International Development (USAID) to elevating 
investments in women and girls and to ensuring that gender issues are 
addressed throughout the program cycle and in all bureaus and missions. 
These are important objectives in their own right, and are also 
powerful catalysts for economic growth and human development. Global 
challenges, including transitions to peace and democracy, global 
health, climate change and food security, cannot be solved without 
explicit recognition of the different roles and contributions of women 
and men.
    USAID has formulated a new policy on Gender Equality and Female 
Empowerment, updating a 30-year-old policy. In March, we intend to 
issue the first-ever secretarial policy directive on promoting gender 
equality. Both policies contain specific steps to ensure that State and 
USAID advance the status of women and promote gender equality in policy 
development, strategic planning, budgeting and programming, monitoring 
and evaluation, and management and training practices.
    The fiscal year 2013 budget includes estimates by operating units 
that $1.68 billion will be attributed to support gender equality in 
foreign assistance:
  --$301 million in activities primarily targeted at gender equality 
        and/or women's empowerment;
  --$1.231 billion in activities in which gender equality or women's 
        empowerment is one component of a larger set of activities; and
  --$147 million to address gender-based violence, which includes 
        activities aimed at preventing and responding to gender-based 
        violence that results in physical, sexual, and psychological 
        harm to either women or men.
    Detailed budget information is available in the Selected Key 
Interest Areas--Gender of the fiscal year 2013 Foreign Operations 
Budget request (http://www.state.gov/documents/organization/185014.pdf 
on page 306).
                                 ______
                                 
              Questions Submitted by Senator Sherrod Brown
    Question. You are requesting $10.9 million for Sri Lanka in 
Development Assistance and $6.6 million in International Military 
Education and Training and $350 million in Foreign Military Financing 
(FMF). Has the Sri Lankan Government has proven it deserves this 
funding considering the lack of effort to include the innocent Tamil 
population in a multicultural society following the civil war. Can you 
provide more detail on these requests?
    Answer. The Department requested $10.9 million in Development 
Assistance, $626,000 in International Military Education and Training 
(IMET), and $450,000 in FMF for Sri Lanka in fiscal year 2013.
    Development Assistance.--Sri Lanka is still recovering from nearly 
three decades of conflict. U.S. Government assistance supports that 
transition through development and stabilization efforts. As Sri Lanka 
moves beyond the conflict, the United States Government is committed to 
helping communities return to normalcy as quickly as possible. Programs 
target ethnic minorities and religious groups in the Eastern and 
Northern Provinces. Foreign assistance includes support for:
  --counterterrorism activities and secure border trade;
  --advocacy for human rights;
  --strengthening of democratic institutions; and
  --stabilization and revitalization of the economies of the East and 
        North.
    Although economic growth in Sri Lanka has been strong, that growth 
is not equitably spread across the East and North, where the majority 
of Tamil and Muslim communities are settled. Reintegrating these 
communities into the economic fabric of Sri Lanka is a necessary 
component of reconciliation, and a key goal of United States Agency for 
International Development's (USAID) economic assistance to Sri Lanka. 
Likewise, good governance programs focus on the sub-national level to 
create responsive democratic structures in communities of formerly 
displaced residents in the East and North.
    Foreign Military Financing and International Military Education and 
Training.--The United States has focused its military engagement on 
activities that support our security interests, impart professionalism, 
and promote respect for human rights. Sri Lanka is a capable and 
willing partner in maritime security and peacekeeping. It is 
strategically located along the busiest shipping lanes in the Indian 
Ocean; actively combats violent extremism, trafficking, and piracy; and 
is one of the largest contributors to United Nations peacekeeping in 
the world. The United States' modest FMF program in Sri Lanka will 
support our shared security interests by increasing Sri Lanka's ability 
to patrol and monitor its waters. Through the IMET program, Sri Lankan 
officers will be able to participate in professional military education 
courses in the United States, where they will learn alongside American 
officers and be exposed to United States military norms and practices.
    The United States has engaged only cautiously with the Sri Lankan 
military since the end of the civil war in May 2009 because of our 
expectation that the Government of Sri Lanka must first hold 
accountable those individuals who violated international humanitarian 
law and international human rights law during the conflict. The 
administration has carefully calibrated the U.S. military engagement 
strategy to reflect security objectives as well as progress in 
advancing human rights, reconciliation and accountability. Before we 
deepen our engagement, the Government of Sri Lanka must make meaningful 
progress on promoting human rights, revitalizing democratic 
institutions and practices, respecting international humanitarian law, 
and ensuring accountability for past and ongoing abuses.
    Question. The budget request will allow the United States to meet 
its $4 billion pledge to the Global Fund for tuberculosis (TB). That is 
great. However round 11 funding will be limited to existing countries 
in the programs and no new until as late as 2014.
    Do we need a ``new pledge''?
    Answer. For continued progress on AIDS, TB, and malaria, the world 
needs a robust, functioning Global Fund. This year's request of $1.65 
billion will allow the administration to fulfill its historic pledge to 
seek $4 billion (fiscal years 2011-2013) for contribution to the Global 
Fund. The U.S. Government remains committed to this pledge and to the 
Fund. One important reason is because each $1 the U.S. invests in the 
fund leverages $2.50 from other donors. An increased U.S. investment at 
this time is crucial for increasing the commitment of others to meet 
our shared responsibility.
    Question. Do we need to revisit how we approach the Global Fund in 
light of these developments?
    Answer. The November 2011 changes in the Global Fund's financial 
situation prompted its board to focus available resources on the 
continuation of ongoing programs while the Fund transitions to a new, 
more flexible, and sustainable approach. In accordance with its new 5-
year strategy, the Global Fund will move away from project-based, 
rounds-based funding to a more predictable funding model. It will work 
with partner countries to identify and finance high-impact, evidence-
based interventions grounded in countries' national disease strategies.
    The Global Fund has the necessary resources and remains on track to 
support more than $8 billion in grant renewals and new grant 
commitments between now and the end of 2013. These commitments will 
allow countries to continue and, in many cases, continue to scale up, 
successful and ambitious programs to fight AIDS, TB, and malaria. The 
Global Fund will remain a major financing mechanism for the fight 
against the three diseases. Efficiencies that have been achieved in the 
past three funding rounds and in other areas will allow several 
countries to increase the number of patients receiving AIDS or 
tuberculosis treatment. Thus more people--not fewer--will receive 
access to these services in the coming 2 years. The board took several 
steps to make resources available to support grant renewals, 
outstanding round 10 grant commitments, and the continuation of 
essential prevention, treatment, and care services. The Global Fund has 
instituted eligibility and prioritization policies that better target 
resources to countries with the greatest need and least ability to pay. 
In addition, new counterpart financing requirements ensure that 
recipient countries contribution a significant and growing share of 
resources to their disease response. The Strategy 2012-2016 and 
Consolidated Transformation Plan, both strongly supported by the United 
States, will both facilitate this transition to greater country 
ownership and increase the impact of Global Fund grants.
    Question. Which investments will do the most over the long term to 
promote and achieve our global health objectives? Are we reaching the 
right balance?
    Answer. We believe the fiscal year 2013 budget request strikes the 
right balance between bilateral and multilateral investments--both have 
critical roles to play. To fight AIDS, the U.S. bilateral program 
cannot meet the challenge alone, and is most effective with a robust 
Global Fund. This year we have a unique opportunity to ensure the 
bilateral program continues to meet the President's goals while also 
strengthening our most critical donor partner in the global AIDS 
response--the Global Fund.
    President's Emergency Plan for AIDS Relief (PEPFAR) and the Global 
Fund have developed and expanded over the past several years, at the 
country level, they have become interdependent in terms of 
implementation and achieving success. If either the Fund or PEPFAR 
bilateral are under-resourced, there will be negative repercussions for 
both programs that will threaten our ability to achieve a sustainable 
response. The United States continues to work to increase collaboration 
between PEPFAR and Global Fund-financed programs on the ground to reach 
more people in more countries with higher-quality services and directly 
leverage the results of the Global Fund.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. What programs are being conducted by the State Department 
and the United States Agency for International Development (USAID) to 
encourage United States businesses to invest in Libya?
    Answer. Promotion of United States economic interest is a key 
priority for the State Department, and given that the Libyan Government 
has stated their country is ``open for business'', particularly for 
those countries that supported the revolution, the Department--in 
coordination with the interagency--has focused on identifying 
opportunities to encourage United States businesses to invest in Libya 
and aligning United States Government resources to support these 
potential investments.
    State Department Economic Bureau Assistant Secretary Fernandez and 
United States Ambassador to Libya Gene Cretz hold monthly conference 
calls with United States businesses to discuss opportunities and share 
advice for investment and trade in Libya. Each call discusses a 
different sector for potential United States investment. The last two 
calls were devoted to the security and healthcare sectors, 
respectively. Assistant Secretary Fernandez is also leading a United 
States trade delegation to Libya in late April, which is being 
organized by the U.S.-Libyan Business Association. In January, Libyan 
business leaders visited the United States. Reverse trade delegations 
from Libya to the United States are also being planned by both U.S. 
Trade and Development Agency (USTDA) and Embark, which will focus on 
sectors ranging from transportation to energy. The monthly conference 
calls with U.S. business and the trade missions have been met with 
great enthusiasm by both American business and the Libyans and will 
continue for the foreseeable future.
    Recognizing early on the immense potential for United States trade 
and investment in Libya, the Department prioritized posting a 
commercial officer to Tripoli. He is funded by the Department's Bureau 
of Conflict and Stabilization Operations but is an employee of the 
Department of Commerce. His responsibilities include:
  --meeting regularly with U.S. businesses;
  --facilitating meetings between United States business 
        representatives and the Libyan Government and private-sector 
        leaders; and
  --reporting on the general investment and trade climate in Libya.
    As part of the $25.6 million in fiscal year 2011 Middle East 
Response Fund (MERF) assistance to Libya, the Department has allocated 
approximately $3 million to USTDA for an economic growth and trade 
facilitation program. More specifically, USTDA will partner with Libyan 
leaders to identify vital reconstruction and human capacity building 
projects for Libya, which will provide strategic opportunities for the 
implementation of United States goods, services, and technologies. The 
program will fund various activities including feasibility studies, 
pilot projects of United States technology and technical assistance, 
reverse trade missions, and training symposia.
    Promoting joint United States-Libya public-private partnerships 
will be integral to United States Government assistance programs, 
particularly in public health and higher education. USAID is providing 
$2 million to assist the Libyans in building the capacity of their 
medical rehabilitation centers to better treat the war wounded. USAID 
will use this project to leverage much larger investments from the 
Government of Libya which should create opportunities for the 
Government of Libya private sector to sell medical equipment and 
technology to Libya. During his visit to Washington in early March, 
Libyan Prime Minister el-Keib specifically requested the Secretary's 
support in facilitating linkages between United States and Libyan 
higher education institutions. The Government of Libya is interested in 
funding scholarships for young Libyans to pursue university education 
and vocational training in the Government of Libya. Since the Prime 
Minister's visit, the Department in coordination with Embassy Tripoli 
has begun developing a joint Libyan-U.S. Higher Education Task Force 
that will identify opportunities for scholarship programs with United 
States institutions of higher education and promote partnerships with 
United States academia and job-training centers and Libyan 
institutions. The Department is also funding the Aspen Institute to 
bring a delegation of U.S. university and community college officials 
to Tripoli to discuss partnership opportunities. The commercial officer 
at Embassy Tripoli is facilitating a similar trip in April for two 
United States vocational training consortia, MUCIA and TEEX, to meet 
with Libyan officials on possible educational exchanges.
    The Libyan diaspora is a deeply committed, yet largely untapped, 
source of innovative, entrepreneurial solutions to poverty and economic 
development in Libya. USAID is working with the African Diaspora 
Marketplace, a public private partnership with Western Union, which 
seeks to boost economic opportunity in Africa by providing United 
States-based diaspora entrepreneurs seed capital ($50,000) and 
technical assistance through a business plan competition that will help 
start or expand businesses in all regions of Africa. These businesses 
will help create jobs, generate income, and provide needed services in 
the countries where they work.
    Question. What steps are the State Department and Department of 
Defense (DOD) taking to recover Libyan Man-Portable Air Defense Systems 
(MANPADS)? What is being done to ensure weapons don't find their way 
into Gaza or other conflict areas?
    Answer. The Department of State has allocated $40 million to date 
to assist Libya in securing and disabling weapons stockpiles, 
particularly MANPADS. To date this support has underwritten surveys of 
more than 1,500 bunkers at 134 Ammunition Storage Areas (ASAs) by 
Libyan-led inspection teams. Thus far these teams have helped to 
identify, recover, and secure approximately 5,000 MANPADS and 
components.
    The work to secure and recover Libya's weapons stockpiles is a 
long-term effort. Now that we have completed our initial rapid sweep 
across the country, we are entering what we call phase 2. This involves 
helping the new Libyan Government conduct a full inventory of all 
weapons stockpiles, as well as assisting them to improve border 
security to help detect and interdict illicit activity.
    The Department continues to engage with countries in the region to 
provide information on the potential proliferation dangers, offer 
assistance with border security, and advise on potential steps to 
improve aviation security. We are supporting Libya's neighbors to take 
steps to prevent illicit arms flows, particularly to interdict the 
transport of MANPADS across borders. The MANPADS Interagency Task 
Force--which includes representatives from the Departments of State, 
Defense, and Homeland Security, among others--has visited Algeria, 
Mali, Niger, Chad, Mauritania, Egypt, Morocco, Tunisia, Israel, and the 
headquarters of the African Union. These visits have facilitated the 
exchange of ideas and the coordination of action on the situation in 
Libya, and have assisted efforts to strengthen border and airport 
security and reduce proliferation across the region. Additionally, the 
Departments of Defense and State are working with many partner 
countries in the region to build capacity in critical areas such as 
counterterrorism and border security.
    The participation of key U.S. Government agencies on the 
Interagency MANPADS Task Force allows for close internal coordination 
in developing approaches, implementing assistance, and engaging 
governments through appropriate channels. This has resulted in both 
policy and programs that are synchronized and that ensure our resources 
have a targeted and efficient impact to confront the MANPADS threat.
    The U.S. Government is also working closely with a group of allies 
and partner countries that are committed to mitigating the MANPADS 
threat. We greatly appreciate the pledge from the United Kingdom for at 
least <brit-pound>1.33 million pounds sterling ($2.1 million USD) along 
with a team of technical experts to support and coordinate MANPADS-
specific activities. We also commend Canada for their pledge of $1.6 
million Canadian ($1.61 million USD); the Netherlands for their 
contribution of 900,000 Euros ($1.2 million USD); Germany for their 
contribution of 750,000 Euros ($980,000 USD); France and Italy for 
their significant contributions, and other allies and partners who have 
contributed to this effort.
    Question. What programs are being considered to support training of 
Libyan militias into regular military and police forces, and which 
countries will be involved in providing such training?
    Answer. In support of the transitional Government of Libya we are 
exploring targeted training programs to consolidate Libya's 
revolutionary fighters into regular military and police forces in 
coordination with the UN Support Mission in Libya (UNSMIL) and 
international partners. There were an estimated 200,000 revolutionary 
fighters during the revolution. The Government of Libya and UNSMIL 
report that Libya's Warrior Affairs Committee has registered 148,000 
fighters to date. Assisted by the international community, the 
Government of Libya has announced a 3-year plan to integrate 25,000 
revolutionaries into their regular military and 25,000 into their 
police forces. The remaining revolutionary forces will be reintegrated 
into civilian life through initiatives to develop small and medium 
enterprises, or through new educational and training opportunities.
    Police Forces.--The international community has taken significant 
strides in leading the training efforts for the new Libyan police 
forces. We anticipate Jordan will sign a memorandum of understanding 
(MOU) with the Ministry of Interior (MOI) to train 10,000 new police 
cadets in basic police curriculum. Turkey has signed an MOU to train 
for 750 Libyan officers. In addition to the 750, Turkey has agreed to 
provide courses in VIP protection, document verification, incident 
response, and hostage recovery. Italy has offered courses in crowd/riot 
control, investigation techniques, human rights training for police 
managers, and maritime security. Kuwait has delivered fire-fighting 
vehicles and ambulances to the MOI and Ministry of Health. The United 
Kingdom and Germany are working together on forensic training and the 
EU is conducting a border management assessment to redevelop Libya's 
border management capacity.
    Military Forces.--The Libyan Ministry of Defense (MOD) has launched 
an assistance coordination mechanism to keep track of assistance to the 
armed forces, avoid duplication, and identify gaps. The French have 
conducted joint maritime training with the Libyan Navy. Qatar has 
committed to MOD assistance, most recently by building a Joint Crisis 
Management Coordination Center for the Government of Libya and 
international community as a resource for police, the armed forces, or 
border security. The United Arab Emirates (UAE) military has presented 
several assistance proposals to the Government of Libya, including 
rebuilding training facilities in Libya, but has not received any real 
engagement or response to date.
    We are preparing to implement targeted training programs to augment 
the Government of Libya and international efforts. In chronological 
order, beginning in late March we will deploy a security sector 
transition coordinator to U.S. Embassy Tripoli who will coordinate our 
border security and MOI training efforts. In April, we will deploy a 
team from the Bureau of International Security and Nonproliferation, 
Office of Export Control Cooperation, to conduct a 1-week training of 
Libyan MOI, MOD, and customs officials who will be leading the efforts 
to develop and integrate Libya's border security forces. We are 
planning to offer the Defense Institution Reform Initiative (DIRI) 
program to Libyan Prime Minister el-Keib during his March 2012 visit. 
If accepted by the Government of Libya, DIRI will provide a team of 
experts, to advise the MOD on rightsizing their security forces and 
integrate rebel fighters into the Libyan armed forces. Over the summer 
we will send an assessment team from our Bureau of Counterterrorism to 
scope training programs on Anti-Terror Assistance.
    Question. Last year, the Congress directed the State Department to 
assist American victims of Libyan terrorism regarding the use of the 
frozen assets of former Libyan dictator Muammar Gaddafi for 
compensation. As you are aware, it is possible that the compensation 
fund for American victims of Libyan terrorism established pursuant to 
the Libyan Claims Resolution Act could have a shortfall. Please 
describe efforts the Department is undertaking to:
  --establish contingency plans in the event of a shortfall;
  --engage in state-to-state negotiations with the new Libyan 
        Government to ensure American victims of Libyan state-sponsored 
        terrorism receive full compensation in accordance with awards 
        set forth by the Foreign Claims Settlement Commission; and
  --use assets belonging to Muammar Gaddafi, the Gaddafi family and 
        advisors currently under U.S. control to compensate these 
        American victims of terrorism.
    Answer. The Department believes that it is premature to determine 
whether there will be a shortfall in settlement funds. The Foreign 
Claims Settlement Commission (FCSC) is still in the process of 
adjudicating and, in some cases, establishing the appropriate levels of 
compensation for many of the claims that were referred to it as part of 
the Libya claims program. The FCSC must be allowed to complete more of 
this work before a projection regarding the sufficiency of settlement 
funds can be made. In the event of a shortfall, the International 
Claims Settlement Act of 1949 establishes that each claimant who 
receives an award from the FCSC will receive a pro rata share of the 
available settlement funds up to the full amount of that award.
    Regarding possible state-to-state negotiations, the 2008 U.S.-Libya 
Claims Settlement Agreement provided for the ``full and final 
settlement'' of terrorism-related claims against Libya and its public 
officials in exchange for the $1.5 billion settlement amount. Given the 
terms of this agreement, there does not appear to be a legal basis for 
seeking additional compensation from the Government of Libya at this 
juncture. Doing so could well undermine our efforts to secure 
compensation for other U.S. nationals through similar claims 
settlements with other governments in the future.
    Furthermore, frozen Gaddafi family assets would not be an 
appropriate source of additional funds for these claims, which the 
United States has already settled through the 2008 U.S.-Libya Claims 
Settlement Agreement. This would similarly undermine the United States' 
ability to conclude similar claims settlements on behalf of U.S. 
nationals in the future. Moreover, those Gaddafi family assets that are 
in the United States have been frozen pursuant to legally binding U.N. 
Security Council Resolutions. Those resolutions indicate that any 
frozen assets shall be used for the benefit and in accordance with the 
needs and wishes of the Libyan people. If the United States were to 
unilaterally decide on an alternative disposition of these assets, it 
would undermine our ability to obtain similar U.N. action in the future 
and could expose the United States to claims under international law.
    In any event, we are not aware of any Gaddafi family member 
interest in the assets that comprise the amounts reported publicly by 
the Office of Foreign Assets Control (OFAC) as blocked pursuant to the 
Libya sanctions program. We understand that the only property reported 
to OFAC as blocked pursuant to Executive Order 13566 that might contain 
an interest of a Gaddafi family member is nonliquid property regarding 
which valuation would be difficult to ascertain and that may have no 
significant value.
    Question. How is the administration preparing for the potential 
influx of refugees from Syria to neighboring countries, and what 
funding is contained in the fiscal year 2013 budget request to address 
this potentially significant humanitarian crisis? Do you have an 
estimate of the number of Syrians that may seek refuge in Jordan, and 
what impact might these refugees have on Jordan's economic and 
political stability?
    Answer. The United States is providing more than $10 million in 
humanitarian assistance to support those affected by the violence in 
Syria, including those who have fled to neighboring countries. This 
assistance includes $3.5 million to the United Nations High 
Commissioner for Refugees (UNHCR); $3 million to the International 
Committee of the Red Cross (ICRC); $3 million to the World Food Program 
(WFP); and support for other international nongovernmental partners 
(NGOs).
    Assistance through UNHCR, ICRC, and NGOs is delivering critical 
medical services and supplies, food, water, blankets, hygiene kits, 
heaters, and winter clothing to displaced and conflict-affected 
Syrians. This funding will also provide support for host families who 
are sheltering displaced Syrians within Syria and in neighboring 
countries.
    United States efforts also include bolstering existing regional 
stockpiles of humanitarian supplies and equipment to be delivered to 
those Syrian communities in greatest need. These stockpiles of food and 
other emergency relief supplies are a result of the growing 
international effort to rush humanitarian aid into Syria to alleviate 
the suffering of vulnerable communities as access and conditions allow.
    U.S. Government humanitarian assistance has been provided from the 
Migration and Refugee Assistance and International Disaster Assistance 
accounts. In coordination with other donors, the Department of State 
and USAID will continue to ensure our partners have the support they 
need in fiscal year 2012 and fiscal year 2013 to maintain these 
critical humanitarian operations from these and other accounts, as 
needed.
    The Government of Jordan has stated that up to 80,000 Syrians have 
entered Jordan since the unrest in Syria began in March 2011, though 
the vast majority have not requested or required humanitarian 
assistance. The Government of Jordan, in partnership with a range of 
United Nations agencies, is providing protection and assistance to 
about 10,000 displaced Syrians (4,205 of whom are currently registered 
with UNHCR) in the form of food, shelter, healthcare, and education. 
While the State Department does not have an estimated number of Syrians 
that may seek refuge in Jordan, we expect that the numbers will 
continue to climb while the violence in Syria is ongoing.
    The Government of Jordan has engaged in contingency planning for 
increased outflows of Syrians, and is coordinating with the United 
Nations and other international humanitarian partners to prepare for 
increased needs. United States Government officials meet regularly with 
Jordanian Government officials, humanitarian partners, and 
beneficiaries to assess the effectiveness of the international 
community's humanitarian response, as well as to plan for a range of 
contingencies as the situation in Syria continues to evolve.
    Jordan has been a generous host to a number of refugee communities, 
including Palestinian and Iraqi refugees. That said, it is important to 
note that Jordan could face a serious domestic political challenge if 
large numbers of Palestinian refugees from Syria begin to cross the 
border. The international community will support Jordan's efforts to 
manage the influx of displaced persons from Syria by providing adequate 
protection and assistance to this vulnerable population in order to 
minimize the impact on Jordan's political and economic stability.
    Question. The fiscal year 2013 budget request includes $250 million 
in economic assistance and $1.3 billion in military aid for Egypt. 
Given the Minister of International Cooperation's complicity in the 
crackdown on civil society, will the State Department continue to 
coordinate U.S. assistance through that ministry? What other options 
exist for the delivery of United States economic assistance for Egypt 
that excludes the Ministry of International Cooperation?
    Answer. The Supreme Council of the Armed Forces has pledged to hand 
over power to an elected president by July 1, who will govern alongside 
the two houses of parliament elected earlier this year. We will discuss 
fiscal year 2012 and future Economic Support Funds with this new 
government in order to support Egypt's democratic transition. Our 
diplomacy, public messaging, and assistance are all designed to support 
the aspirations of the Egyptian people for a democratic future and 
promote respect for human rights.
    Question. Would you support enlarging the authority of the Special 
Inspector General for Iraq to examine how United States economic 
assistance for Egypt has been used over the past 5 years by the 
Ministry of International Cooperation?
    Answer. We believe that the USAID Inspector General is fully 
capable of evaluating past and future United States assistance to 
Egypt.
    Question. What are the administration's plans for future democracy 
and governance programs for Egypt?
    Answer. We continue to view a robust and pluralistic civil society, 
credible elections, broad-based participation in political life, 
protection of universal human rights, and the development of 
representative institutions as central to a successful democratic 
transition in Egypt. We believe our democracy and governance programs 
in these areas can make a positive difference for Egyptians.
                       tunisia's budget shortfall
    Question. Does the Government of Tunisia seek budget support from 
the United States, and for what purposes? What level of funding for 
such support is being contemplated?
    Answer. While the January 2011 revolution favorably reset Tunisia's 
political calculus, the abrupt change of power, followed by domestic 
and regional security and labor-related unrest, shook investor 
confidence, caused tourism revenues to plummet and truncated 
remittances from Libya, dealing the Tunisian economy a significant 
blow. The fiscal deficit has widened, particularly as tourism revenues 
have plummeted and tax revenues have been impaired by disruptions to 
production in Tunisia's interior due to strikes and civil disturbances. 
Tunisia's Government passed a 2012 budget on December 31, which 
reflected the priorities of the previous interim government. The 
current government will incorporate its own priorities by enacting a 
2012 budget supplement, which has been approved within cabinet and went 
to the Constituent Assembly in early April. As a result of this budget 
supplement, the Tunisian Government is now projecting a budget deficit 
of 6.6 percent of gross domestic product (GDP) (approximately $3.1 
billion). The government faces $1.6 billion in external debt service in 
2012 ($1.2 billion in principal and $0.4 billion in interest) or about 
3.4 percent of GDP.
    The Tunisian Government has officially requested a budget support 
loan from the African Development Bank (AfDB), but must negotiate 
conditions on the loan. AfDB staff do not envision any projects in the 
next several months. If it were to agree to provide a budget support 
loan and design a reform matrix (with the World Bank and European 
donors, as in 2011), the AfDB would not disburse any monies until late 
2012. In addition, Qatar, the World Bank, and Agence France Development 
(AFD) pledged to provide budgetary support to Tunisia in 2012.
    Tunisia's economic challenges are peaking at the same time that the 
Tunisian people are more empowered to demand more from their 
government. Tunisia has fewer resources with which to increase spending 
temporarily to stimulate economic growth and support the social 
programs upon which the Tunisian public relies. Without short-term 
intervention, Tunisia's economic recovery may be impaired by continued 
domestic instability and further loss of investor confidence. A strong 
U.S. commitment of immediate bilateral support--particularly if it 
unlocks additional financial support from other sources--will help 
Tunisia fill this void.
    Tunisia's successful democratic transition is critical for U.S. 
interests in the region, and will send a signal to others undergoing 
their own transitions. The Government of Tunisia has made clear to 
several senior United States officials, including congressional 
delegations, the need for immediate financial assistance to address 
Tunisia's critical budgetary shortfall and help them through their 
current difficult period of transition. Given the importance of 
demonstrating strong immediate United States support for Tunisia and 
the nature of the economic problems to be addressed in Tunisia, we 
propose to use the cash transfer to pay eligible external debt to 
international financial institutions. Our plan is to deliver this 
assistance by paying $100 million worth of the debt the Tunisians owe 
to the World Bank and the African Development Bank. This will free up 
funds in their own budget for other priority activities in support of 
their new democracy. This will also assure accountability and 
transparency.
    supporting tunisia's financial needs--update on loan guarantee 
                               agreement
    The United States plans to provide some relief for Tunisian 
budgetary pressures by using $30 million legislatively authorized for a 
sovereign loan guarantee. A bilateral guarantee could leverage a $400-
650 million borrowing instrument, assuming a 5-year maturity and 100-
percent guarantee of principal and interest, which may change based on 
Tunisian preferences. However, the Tunisians have indicated that they 
want a longer maturity, which would decrease the leveraging effect of 
our loan guarantee to between $250-$500 million. We are discussing with 
the Tunisians the possibility of combining with the World Bank for a 
hybrid guarantee that could increase the program to approximately $750 
million, assuming a 10-year maturity with 100-percent guarantee of 
principal and interest. Provided the Tunisian Government is ready to 
make the requisite decisions, we plan to sign an agreement by May, 
which is possible regardless of whether Tunisia prefers a bilateral or 
hybrid guarantee.
                   $100 million cash transfer option
    The United States Government could provide a $100 million cash 
transfer to the Government of Tunisia for short-term fiscal relief as 
the Tunisian Government manages the next phase of Tunisia's democratic 
transition and attempts to undertake foundational economic reforms. 
From a foreign policy perspective, a cash transfer for Tunisia would 
demonstrate the United States' support for Tunisia's democratic 
transition. Structured appropriately, a bilateral cash transfer 
agreement would permit us to align United States action squarely behind 
the stabilization of the Tunisia economy and provide a quick-impact 
cash infusion to the Government of Tunisia in the near term and allow 
the United States to take a leadership role and persuade other donors 
to provide similar assistance. Within Tunisia, a cash transfer would 
help the Tunisian Government weather the current fiscal storm. Tunisia 
aims to ameliorate postrevolution social demands through public 
spending until the economy recovers, despite flagging fiscal revenues. 
The Tunisian Government believes this approach is essential to 
consolidating political reforms as it battles a high rate of 
unemployment. We would provide the $100 million cash transfer grant in 
a single tranche, with disbursement before the end of the first half of 
U.S. fiscal year 2012.
    In general, cash transfers can be designed in different ways 
depending on the objectives of the program. We considered three 
different approaches:
  --paying debt owed to international financial institutions (IFIs), 
        such as the World Bank and African Development Bank;
  --paying for commodity goods; and
  --paying commercial debt.
    We chose the first option because of its speed, transparency, and 
accountability.
    Question. What steps can be taken to restore some semblance of 
stability and safety in the Sinai? What can be done to ensure that the 
Sinai doesn't become a haven for terrorists, including al Qaeda?
    Answer. Improving security in the Sinai is a complex issue that 
calls for engagement on many fronts. We are encouraged by the fact that 
the Egyptian Government has undertaken counterterrorism operations in 
the area and announced the formation of a Sinai Development Authority 
to address security challenges. However, more can be done to encourage 
and support development for residents of the Sinai, the absence of 
which is the root cause of crime and unrest. We will continue to engage 
with the Egyptian Government at the highest levels on this issue to 
convey the importance of restoring security to the Sinai, while also 
offering our support. In addition, we look forward to working with 
Egypt's next elected government on solutions to this important issue.
    Question. Do you believe the Multinational Force and Observer (MFO) 
should remain in the Sinai? Should it be expanded?
    Answer. The current context of unprecedented and fast-paced 
regional change has shown that the MFO's role is more important than 
ever to promoting continued confidence between the two Treaty of Peace 
parties, Egypt and Israel, and to offering the parties concrete 
mechanisms to manage jointly and effectively their response to the new 
security challenges. The MFO has played an important role for decades 
in promoting peace and stability in the region and continues to have 
the strong support of the United States, Egypt, and Israel. 
Unprecedented Egyptian military deployments into the Sinai, as agreed 
upon by the parties, have resulted in significant additional 
verification work for the MFO and its Civilian Observer Unit. Any 
changes to the MFO's mission must be formally requested by the Treaty 
parties. With respect to civilian and military personnel levels, the 
MFO has indicated to the Treaty parties and to the United States that 
it does not at present seek any increase in present staffing.
    Question. The fiscal year 2013 budget request includes $770 million 
for a new Middle East and North Africa Incentive Fund (MENA-IF) to 
address myriad challenges arising from political transitions in those 
regions.
    Why do we need this fund when account structures already exist to 
respond to crises--including fiscal year 2013 requests for the Complex 
Crises Fund ($50 million); International Disaster Assistance ($960 
million); Office of Transition Initiatives ($57.6 million); Global 
Contingency Fund ($25 million); and Conflict Stabilization Operations 
($56.5 million)?
    What countries do you expect to benefit from MENA-IF, and what 
types of programs will be supported?
    Do you support the use of these funds to address economic needs in 
the region, including in Israel, should military action be undertaken 
to address the Iran nuclear issue?
    Answer. The MENA-IF represents a new approach to the Middle East 
and North Africa through demonstrating a visible commitment to reform 
and to the region; tying assistance to reform agendas; and providing 
flexibility for contingencies in order to take advantage of new 
opportunities. To support this new approach, this Fund has broad 
authorities to allow the U.S. Government to better respond to political 
changes in the Middle East and North Africa and incentivize meaningful 
and sustainable political and economic reforms by tying these reforms 
to significant levels of U.S. assistance.
    While contingency/response funds are available for rapid responders 
to deploy and support new initiatives, these accounts are not 
structured to provide long-term funding or be used to incentivize 
reforms. Additionally, using global funds as a major source of response 
to the Arab Spring carries opportunity costs for these global programs, 
and risks reducing the U.S. Government's ability to respond to other 
needs around the globe. While these accounts have provided funding to 
Middle East contingencies this year, it was at a great opportunity cost 
to operations in other areas.
    For purposes of MENA-IF planning, the following countries are 
included:
  --Algeria;
  --Bahrain;
  --Egypt;
  --Iran;
  --Jordan;
  --Kuwait;
  --Lebanon;
  --Libya;
  --Morocco;
  --Oman;
  --Qatar;
  --Saudi Arabia;
  --Syria Tunisia;
  --UAE;
  --West Bank/Gaza; and
  --Yemen.
    Funding programs in Israel or Iraq is not contemplated except to 
the extent that regional initiatives may touch on these countries. 
Specific projects will depend on the countries involved; however, 
initiatives should address the following key priorities:
  --Political, economic, and judicial/rule of law reforms that protect 
        and promote human rights, political participation, democratic 
        institutions, independent civil society, and quality under the 
        law; that advance progress in meeting citizen demands for 
        political participation; and that create conditions for 
        economic growth, primarily through strengthened international 
        trade and investment and by fostering a more vibrant private 
        sector.
  --Security sector reforms that emphasize civil-military boundaries, 
        protection of human rights, and security that serves to protect 
        people--not authoritarian regimes; and
  --Regional integration and trade promotion reforms that would reduce 
        trade barriers and allow implementation of the President's 
        Trade and Investment Partnership Initiative for the Middle 
        East.
    Question. The Secretary of State's comments in the November 2011 
edition of Foreign Policy outlines the administration's strategic 
``pivot'' to the Asia-Pacific region: How is the ``pivot'' evidenced in 
the fiscal year 2013 budget request?
    Answer. Looking forward to the next decade, we recognize no region 
will be more important to the United States than the Asia Pacific. 
Overall fiscal constraints in the foreign affairs budget have placed 
limits on our ability to increase direct State Department and USAID 
resources to the region in fiscal year 2013. However, we are working 
smartly to elevate our commitment to the region through a strategy that 
is multifaceted, involving close coordination with the full spectrum of 
interagency partners to make sure our diplomatic, defense, and 
development efforts are targeted toward our highest priorities. Foreign 
assistance is but one aspect of our strategy to deepen our engagement 
with the region.
    The efforts of our diplomats are an essential part of our 
longstanding and ongoing engagement in the region. They are a critical 
component of how we pursue and achieve our strategic objectives, but 
they are not fully captured by statistics. For example, we successfully 
concluded our implementation review process for our free trade 
agreement with Korea, which entered into force on March 15 of this 
year, and are now working aggressively on the Trans Pacific 
Partnership. Our enhanced engagement with Burma and our strategy to 
match ``action-for-action'' to encourage the country's reform process 
has already shown signs of progress including a substantial release of 
political prisoners. This type of work does not have a price tag that 
accurately reflects its true value.
    These efforts have already produced real results, such as new 
strategic dialogues across the region with emerging partners, 
strengthened alliances, and enhanced engagement with the region's 
multilateral fora including the Association of Southeast Asian Nations 
(ASEAN) and the East Asia Summit, as well as deepening regional 
cooperation on a range of economic issues through APEC. In addition, we 
have established the Lower Mekong Initiative with four Southeast Asian 
countries sharing the Mekong, and launched the Indonesia Comprehensive 
Partnership and Partnership for Growth in the Philippines. The budget 
request reflects the administration's continued support for and 
commitment to these important and often new initiatives.
    We have also coordinated closely with our interagency partners to 
significantly increase assistance to the region. Substantial Millennium 
Challenge Corporation compacts that were recently signed will bring 
more than $1 billion of American assistance to Indonesia and the 
Philippines in the next 5 years.
    We are substantially increasing our consular resources in the Asia-
Pacific to address an unprecedented increase in demand for U.S. visas 
throughout that region. In China, we are expanding our consular 
presence at every single post, and visa issuances have more than 
doubled in the last 5 years.
    As part of the National Export Initiative and the new focus on 
economic statecraft, our diplomats are helping U.S. companies learn 
about the massive infrastructure development opportunities in the ASEAN 
region, particularly Indonesia. We believe that our companies are best-
placed to bring world-class capabilities and state-of-the-art 
technology toward this endeavor and in the process create jobs for 
Americans on the homeland.
    Question. What additional steps is the State Department considering 
to upgrade the United States presence in Burma in light of expanded 
engagement, and how will the appointment of a U.S. Ambassador impact 
the responsibilities of the Special Envoy?
    Answer. In response to recent signs of political and economic 
opening, our ``action-for-action'' strategy aims to support those who 
pursue reform and to encourage further reforms in Burma. Following a 
substantial release of political prisoners in January, the President 
announced that the United States would upgrade diplomatic ties by 
exchanging Ambassadors. This action will enable us to strengthen our 
ongoing high-level dialogue with senior government officials and pro-
democracy groups, deepen and establish long-term ties with the Burmese 
Government and people, and identify new possibilities to support the 
reform process.
    We expect our Ambassador, once nominated by the President and 
confirmed by the Senate, to work in close coordination with the Special 
Representative and Policy Coordinator for Burma. There are several 
instances where the United States has diplomatic representation in 
country at the Ambassadorial level and Ambassadorial rank 
representatives who work in Washington and play a key coordinating role 
with the international community.
    The upgrade in diplomatic ties will also advance our efforts to 
sustain reform, including supporting the efforts of international 
financial institutions to conduct assessment missions and provide 
limited technical assistance to assist Burma with prioritizing and 
sequencing its poverty alleviation and development needs. We have also 
taken steps to resume counternarcotics cooperation, to restart 
humanitarian cooperation with a World War II remains recovery program, 
and to invite Burma into the Lower Mekong Initiative. We also continue 
to seek ways to expand United States assistance for microfinance and 
health activities in Burma. In response to increased desire to develop 
civil society, we are renovating our American Center in Rangoon to 
increase its capacity for outreach and identifying ways to enhance our 
education and exchange programs to increase our people to people 
activities. We will consider further actions following the April 1 by 
elections, which serves as the next major benchmark for measuring 
progress on reform in Burma.
    Question. What are the anticipated costs of sustaining the Afghan 
army and police following the withdrawal of United States forces, and 
is this a cost that the State Department will be responsible for 
bearing?
    Answer. As the lead United States agency for security matters in 
Afghanistan, the Department of Defense is working with the Government 
of Afghanistan and the international community to analyze Afghanistan's 
post-2014 security needs, including the size and estimated cost of an 
effective Afghan National Security Force (ANSF). We understand that 
analysts are predicting some decline following the current build-up to 
a ``surge'' force of 352,000 army and police, but the precise size of 
Afghan forces will ultimately be conditions-based, responsive to the 
needs of the Afghan people, and sustainable. The United States 
Government has not yet decided whether to recommend changing the 
current model of the Department of Defense leading the training and 
funding of the ANSF. As transition progresses, we will continue to 
assess whether and at what point the Department of State would take on 
a role in funding the ANSF and will be sure to closely coordinate with 
the Congress on any request.
    Question. The Afghan Government has made a request that the United 
States turnover all detainees currently at Parwan prison by March 7. In 
your assessment, does the Afghan Government have the capability to 
process the 3,088 prisoners currently at Parwan prison?
    Answer. In partnership with President Karzai and the Afghan 
Government, the United States completed a crucial milestone in our 
transition to Afghan lead when General Allen co-signed a memorandum of 
understanding on detention operations with Afghan Defense Minister 
Wardak on March 9. This agreement will transfer detention facilities in 
Afghanistan to Afghan control over the next 6 months, under guidelines 
designed to ensure an orderly, secure, and humane hand over of 
responsibility. We refer you to the Department of Defense on specific 
questions related to the Detention Facility in Parwan.
    Question. What is the status of the funds allocated for the 
Afghanistan Rule of Law Coordinator? Has it made a difference in 
streamlining the process and, if so, how?
    Answer. The Interagency Rule of Law (IROL) team has been actively 
engaged in the programming of $25 million of fiscal year 2011 funding 
dedicated to the Embassy's Ambassador-level Coordinating Director for 
Rule of Law/Law Enforcement (CDROLLE) programs. Working with USAID and 
INL, they set objectives, and identified potential programs where these 
funds could further key policy goals. This approach capitalizes on the 
strengths and flexibility, and management oversight of teams in place. 
The Embassy's Ambassador-level CDROLLE is shaping programs to meet our 
U.S. Government rule of law objectives and the $25 million has proven 
to be a manageable sum to further our efforts.
    The CDROLLE at Embassy Kabul, currently Ambassador Stephen 
McFarland, has policy direction over all State rule of law funding and 
sets guidance for these programs. The CDROLLE signs off on all new 
rules of law programming efforts, and frequently conducts site visits 
to provide oversight. The legislation has helped make clear that all 
rule of law programming must be coordinated under Ambassador 
McFarland's authority.
    USAID reprogrammed $7 million to launch a grants solicitation for 
rule of law and anti-corruption proposals. In addition, $2 million was 
set aside--$1 million each from USAID and INL--for a new quick-impact 
``Access to Justice'' grants program. This new small grants program 
will provide CDROLLE with a flexible, quick-impact grants capability, 
responsive to immediate and longer-term needs in support of improving 
access to justice, building judicial capacity, addressing gender-
specific legal problems, and empowering civil society. INL is working 
with the IROL and the Provincial Reconstruction Team (PRT) rule of law 
advisors to identify rule of law needs at the sub-national level and 
will develop programs for its $16 million allocation.
    CDROLLE has managed to tap into the talent within the Embassy in 
open discussions, and to go out to the field where rule of law advisors 
from State, USAID, and the military can provide direct inputs on 
project ideas, priorities, and field needs. Even though the answers 
varied considerably from province to province, USAID and State's INL 
bureau working together with CDROLLE have been able to modify and to 
adjust their programming to take those inputs into consideration. 
Moreover, this process is strengthening the interagency, whole-of-
government approach and is providing the CDROLLE with greater insight 
and involvement into INL and USAID programs.
    Rule-of-law priorities under discussion include support for legal 
education (with priority to students--the next generation--over 
existing justice sector personnel); building civil society capacity in 
anti-corruption (shifting the focus of funding from prosecutions to 
oversight); pilot projects for alternatives to incarceration; 
improvements to access to justice, particularly for women; increasing 
legislative reform efforts to include a multitiered approach to 
addressing deficiencies in penal and commercial laws; broadening legal 
awareness; increased funding to the CDROLLE ``Access to Justice'' 
grants program; and ensuring adequate monitoring and evaluation of all 
efforts.
    Question. Additionally, what is the State Department's assessment 
of the IROL training that is currently being offered by the Rule of Law 
Collaborative at the University of South Carolina under contract with 
the Judge Advocate General office?
    Answer. The training offered by the Rule of Law Collaborative 
provides several advantages to the United States Government. First, it 
provides a forum for rule of law program officers to network with each 
other, share programming ideas, and reflect on lessons learned. Second, 
it provides basic legal familiarity courses particularly for program 
officers who may have a generalist background in foreign affairs, but 
not in rule of law programming. Third, it introduces ideas and people 
from the wider legal development community to government program 
officers, ensuring that they are familiar with current standards, 
ideas, and practices.
    Question. The DOD contract with the Rule of Law Collaborative runs 
out in August 2013.
    Given the scheduled draw-down of United States forces in Iraq and 
Afghanistan and regime changes occurring in the Middle East and North 
Africa, does the State Department appreciate the value and utility of 
continuing interagency rule of law training and programming currently 
being supported by DOD, and is the State Department capable of leading 
such effort in the future? What would be the most effective funding 
mechanism to support interagency rule of law coordination and training 
programs under the auspices of the State Department?
    Answer. The Department of State greatly appreciates the value of 
the Rule of Law Collaborative and the role it plays in fostering 
interagency cooperation and education. The Department looks forward to 
continuing current discussions with the subcommittee on the best 
mechanism for engagement with the Collaborative upon the completion of 
the DOD contract.
                              south africa
    Question. The fiscal year 2013 budget request includes $459 million 
for HIV/AIDS programs in South Africa.
    What is the plan for graduating South Africa from this assistance, 
and who will pick up the costs (the South African Government or 
multilateral institutions, such as the Global Fund)?
    What other countries receiving U.S. assistance to combat HIV/AIDS 
are expected to graduate within the next 5 years?
    What communications strategy exists to highlight the success of 
U.S. foreign assistance in these countries?
    Answer. Progress in South Africa exemplifies the second phase of 
President's Emergency Plan for AIDS Relief (PEPFAR), with its emphasis 
on sustainability and country ownership. The South African Government 
has provided significant support for the HIV response exemplified by 
the fact that they have always purchased the antiretroviral drugs for 
their HIV treatment programs. However, in recent years, the South 
African Government further ramped up its investment in its national 
HIV/AIDS response to $1.1 billion in 2011, with a commitment to 
increase its funding to $1.3 billion in 2012. Along with this increase 
in funding, the South African Government will also assume increased 
direct responsibility for implementation of the national HIV response. 
As South Africa steps up its financial and political commitment to the 
HIV/AIDS response, PEPFAR's role will shift from directly funding 
treatment of patients to primarily supporting health systems and 
providing technical assistance. Over the next 5 years, we anticipate a 
gradual step-down in United States funding as care and treatment 
programs are transitioned into the primary healthcare system and 
managed and funded by South Africa. Successful management of this 
transition will mean more comprehensive and efficient healthcare for 
all South Africans. The South African Government and United States 
Government will work together to communicate the benefits of these 
shifts, highlight the continued rapid scale-up of the national HIV and 
tuberculosis (TB) response, maintain a high-quality continuum of care, 
and ensure that all patients continue to receive care and treatment 
services without interruption. The two governments are now in 
negotiations around a Partnership Framework Implementation Plan (PFIP), 
which will define opportunities and timeframe to decrease PEPFAR 
investments in care and treatment programs where the South African 
Government is able to take on a greater financial burden, as well as 
specific capacity-building activities necessary to support this 
transition.
    Global Fund resources also contribute to the transition. PEPFAR 
provided a one-time $120 million investment for antiretroviral (ARV) 
commodity/procurement assistance over fiscal year 2009 and fiscal year 
2010 to help supplement the national supply in the face of drug 
shortages and planned scale-up. This bridge funding was structured to 
allow South Africa time to strengthen national procurement systems and 
the pharmaceutical supply chain. The South African Government's new 
tender to procure drugs resulted in more than a 50-percent reduction in 
the cost of ARV drugs. Contributions from the Global Fund will help to 
ensure that financial resources are available to capitalize on these 
cost savings and allow the South African Government to put more South 
Africans on treatment. Two-thirds of the $303 million Round 10 Global 
Fund grant is dedicated to the purchase of pharmaceuticals, and it will 
supply about 10 percent of the total expenditure for ARV drugs.
    Our transition plan in South Africa will be linked to the South 
African Government increasing management of the prevention and 
treatment of HIV/AIDS and will include close collaboration with other 
donors and institutions like the Global Fund to continue to reduce 
costs and increase the impact of financial commitments. While United 
States Government funding will gradually step-down, the overall funding 
for HIV in South Africa will be stable or increasing, primarily through 
South African Government resources. This will be an important success 
story in the development of country-led responses to the HIV pandemic.
                                botswana
    Botswana and Namibia are examples of other countries that are 
expected to take on a greater portion of their own HIV response in the 
coming years, allowing the United States Government to focus resources 
on a more limited technical support role while continuing to meet 
established goals. Since PEPFAR made initial investments in Botswana in 
2003, the Government of Botswana has consistently increased its 
political and financial commitment to addressing the HIV/AIDS epidemic. 
Since PEPFAR's inception, the Government of Botswana has taken over a 
growing share of previously PEPFAR-supported treatment activities, such 
as purchasing all antiretroviral drugs. The Government of Botswana is 
now taking on even more treatment costs with its move to treatment 
below a CD4 count of 350 in April 2012, while PEPFAR will provide 
technical assistance with provider training and lab capacity.
    The PEPFAR Botswana team, together with the Government of Botswana, 
is developing a transition plan that focuses on reducing the U.S. 
Government investment in direct service delivery for care and treatment 
and Prevention of Mother to Child Transmission (PMTCT) and increasing 
investment in providing technical assistance to the Government of 
Botswana. The capacity of Botswana to continue services for care and 
treatment and PMTCT is strong, and the overall funding available for 
the HIV response in country will likely remain stable due to the 
continued commitment of the government. As the United States Government 
and the Government of Botswana continue to dialogue about the 
transition of programs to national funding, the PEPFAR Botswana team 
will monitor the quality of services provided to ensure that Batswana 
infected and affected by HIV/AIDS continue to receive high-quality 
services.
                                namibia
    The Government of the Republic of Namibia currently contributes 50 
percent of financing for the national HIV/AIDS response, and has 
committed to increasing its financial contribution to 70 percent of the 
costed need by 2015/2016. As articulated in the Partnership Framework 
between the United States Government and Government of the Republic of 
Namibia, over the next few years the U.S. Government will move away 
from direct support of service delivery to increased provision of 
technical assistance. Of particular importance, the Government of the 
Republic of Namibia has agreed to absorb many U.S. Government-funded 
healthcare worker positions into the public health system. In addition, 
the Government of the Republic of Namibia will fully fund the purchase 
of commodities for HIV services. Discussions continue around the rate 
at which overall U.S. Government financial investments will decrease 
over the next 5 years. The decline in U.S. Government spending will be 
carefully monitored to ensure the quality of services remains high.
   president's emergency plan for aids relief communications strategy
    PEPFAR is a major asset to U.S. public diplomacy efforts worldwide 
and specifically in countries where PEPFAR invests. In the majority of 
PEPFAR countries, an interagency PEPFAR communications working group 
composed of implementing U.S. agencies convenes to strategically 
publicize and promote PEPFAR programs under one U.S. Government 
umbrella. PEPFAR communications strategies vary at the country level, 
but overall seek to highlight key programmatic messages to inform 
partner governments, the development community in that country, and 
foreign publics on HIV/AIDS services supported by the U.S. Government 
and their successes. As shifts in available PEPFAR funds are made, U.S. 
Government communicators will convey them. Yet most importantly, 
communicators will have an opportunity to showcase the strides made and 
the lives saved.
                             food security
    Question. The fiscal year 2013 budget request includes $1 billion 
for the Feed the Future Initiative, which seeks to improve agriculture 
productivity through research, innovation and development, and to 
improve farmer access to markets and nutrition.
    What portion of the budget request will support the use of 
genetically modified seed, and what impact would the use of such seed 
have on food productivity in Africa?
    Answer. The fiscal year 2013 budget request for agricultural 
research under Feed the Future (FTF) does not explicitly delineate 
planned activities based on the use of genetic engineering. However, 
historical (pre-FTF) obligations for agricultural research and 
development activities using genetic engineering are $13.8 million, 
$16.5 million, and $14.9 million in fiscal year 2011, fiscal year 2010, 
and fiscal year 2009, respectively. These amounts represent 16, 26, and 
24 percent of the total agriculture and development budget in fiscal 
year 2011, fiscal year 2010, and fiscal year 2009, respectively.
    Genetic engineering specifically, and more broadly biotechnologies, 
have significant roles in increasing agricultural productivity and 
resilience, particularly in light of climate change and the need to 
improve the nutritional value of staple foods. It is one tool among 
many that we must deploy to improve productivity in a time of declining 
resources. Consequently, U.S. agencies are working with countries to 
develop genetically engineered plant varieties that address 
agricultural challenges for which conventional approaches have been 
unsuccessful, partnering with both the public and private sector to 
ensure equitable access to technologies developed using biotechnology, 
and helping partner countries develop science-based biotechnology 
regulations to ensure product safety and efficacy.
    U.S. Government-funded research to unlock the potential of 
biotechnology, both through genetic engineering and other biotechnology 
techniques, is underway in several countries, including the development 
of:
  --Disease-resistant bananas in Uganda;
  --Virus-resistant cassava in Kenya and Uganda;
  --Insect-resistant cowpeas in Nigeria and Ghana; and
  --Nitrogen-efficient maize and rice, and salt-and drought-tolerant 
        rice in sub-Saharan Africa.
    On the regulatory side, USAID supports the Program for Biosafety 
Systems (PBS), which is managed by the International Food Policy 
Research Institute. PBS has contributed to the passage of biosafety 
laws in Kenya, Nigeria, and Ghana, along with the first-ever field 
evaluations of genetically engineered crops in Uganda and Nigeria, all 
of which pave the way for the adoption and commercialization of biotech 
crops in those countries.
    The Department of State and USAID will continue the support 
highlighted above through the fiscal year 2013 Feed the Future budget 
request of $142 million for agriculture research and development. Of 
the requested amount, USAID plans to provide more than $10 million to 
promote the role of biotechnology in increasing agriculture 
productivity.
    Question. What are the major obstacles to the use of genetically 
modified seed and what incentives can the U.S. develop for encouraging 
the use of such seed in Africa?
    Answer. Misinformation about biotechnology--the claim that it is 
inherently harmful--is a key obstacle. There continue to be 
misperceptions about the safety of products derived from modern 
biotechnology. This has led some policy makers in Africa to be hesitant 
in adopting the technology. Overcoming the reservations of policy 
makers about the potential risks of biotechnology, including concerns 
about the impact on trade, is perhaps our greatest challenge. 
Inadequate public awareness about the potential benefits of 
biotechnology in enhancing food security, improving livelihoods, and 
mitigating climate change is another barrier.
    Going forward, the absence of enabling environments, such as 
biotechnology laws and regulatory systems that would allow needed 
investments in the technology, will likely be the most significant 
barriers. With the enactment of biotechnology laws and establishment of 
regulatory systems, a significant amount of capacity building and 
resources would also be needed in Africa to conduct science-based risk 
assessments for biotech products and crops in the pipeline. Without 
such systems in place to either adopt the technology or to authorize 
the importation of biotech products in an expeditious fashion, trade 
disruptions occur and farmers and industry are not incentivized to 
produce biotech crops.
    Ultimately, individual African governments will have to make the 
decision to accept and adopt biotechnology for the good of their 
people; we are seeing some signs that biotechnology is slowly gaining 
acceptance in Africa. Prior to the 2008 food price crisis, many African 
countries were reluctant to consider biotech crops for fear of losing 
access to important international markets, particularly in Europe where 
opposition to biotechnology is strong. Increasingly, however, African 
countries are making decisions based on their own domestic needs. In 
addition, scientists are developing more staple crops, such as cassava 
and sorghum, which meet African needs but do not raise trade concerns.
    The United States Government aids African governments interested in 
developing biotechnology to develop science-based, transparent 
regulatory systems and to build research capacity, while conducting 
outreach programs to increase awareness about the use of biotechnology 
as a tool to achieving greater food security. In fiscal year 2012, the 
Department of State, in consultation with other agencies, has 
identified seven African countries--Ghana, Nigeria, Kenya, Tanzania, 
Malawi, Mozambique, and Uganda--to focus its biotech outreach efforts 
where we believe the necessary local policy conditions exist for the 
adoption of biotechnology. We will utilize the Department's Biotech 
Outreach Funds to advance this effort, in coordination with and in 
support of ongoing USAID and USDA biotech-related activities.
    Question. How is the Feed the Future Initiative coordinated with 
the work conducted by other organizations, specifically the Gates 
Foundation?
    Answer. Central to Feed the Future efforts is a partner country-
driven approach to addressing the root causes of hunger and poverty. 
Recognizing that agriculture depends on the strength of a range of 
institutions working and investing together, building new markets and 
supply chains, sustainably taking new initiatives to scale and 
improving global economic potential, we are leveraging the private 
sector, philanthropic and NGOs, and diaspora communities as we work 
with host-country partners in a comprehensive way to address global 
food security needs.
    Specifically, USAID works closely with the Gates foundation through 
both joint funding and complementary programs in agricultural research. 
Some examples include jointly supported efforts in developing cassava 
varieties resistant to devastating viruses in Africa through 
biotechnology, promoting and adapting conservation agriculture for 
climate resilience in South Asia under the Cereal Systems Initiative 
for South Asia, and training the next generation of female agricultural 
scientists under the Agricultural Women in Agricultural Research and 
Development program. In addition, USAID and the Gates foundation are 
two of the largest donors to the Consultative Group on International 
Agricultural Research centers and actively participate in the 
governance of the system. Our investments to support the African-led 
Partnership for Aflatoxin Control in Africa are also complemented by 
support for aflatoxin control in Africa through the Gates Foundation 
and the UK's Department for International Development. These 
investments fall in line with the Comprehensive Africa Agriculture 
Development Program's priority of making aflatoxin control central to 
improved food security in Africa.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question. In your view, should United States policy allow Iran to 
become a nuclear threshold state?
    Do you consider ``containment'' to be a viable United States policy 
with regard to the Iran and its nuclear program?
    How would you define failure in the administration's current Iran 
policy?
    In your view, can the United States allow Iran to acquire a nuclear 
weapons capability?
    Answer. The administration has been unequivocal about its policy 
toward Iran. A nuclear-armed Iran would be counter to the national 
security interests of the United States, and we are determined to 
prevent Iran from acquiring a nuclear weapon. This is a top national 
security priority for the Obama administration, and our dual track 
strategy of pressure and engagement is aimed at preventing such a 
destabilizing development. We must also counter Iran's destabilizing 
actions in the region and beyond, including Iran's sponsorship of 
terrorist organizations. We must also spare no effort to advance 
America's broader interests in democracy, human rights, peace, and 
economic development throughout the region. Containment would not allow 
us to achieve these broad goals.
    Question. On December 31, 2011, President Obama signed the fiscal 
year 2012 National Defense Authorization Act (NDAA) into law, including 
the Menendez-Kirk amendment (section 1245) imposing sanctions against 
the Central Bank of Iran (CBI). In its implementing rule, the 
administration gave you broad discretion to define a country's 
``significant reduction'' in crude oil purchases from Iran and to grant 
exceptions to sanctions related to petroleum transactions.
    Can you provide a detailed description of the State Department's 
efforts in working with our international partners--particularly China, 
India, and Turkey--to ensure their compliance with CBI sanctions? What 
has been their response thus far?
    Answer. This administration has applied unprecedented economic 
pressure on Iran through a whole-of-government effort, to force its 
government to return to the negotiating table, and prove the exclusive 
peaceful nature of its nuclear program.
    Since the enactment of the NDAA for fiscal year 2012, the State 
Department has engaged in an extensive diplomatic campaign, and 
numerous administration officials have travel led across the globe, to 
urge states to reduce their imports of oil from Iran and end their 
transactions with CBI, as well as to implement their own national 
measures against Iran.
    Our efforts have had significant success. In fact, we worked 
closely with the European Union and welcome their January 23 decision 
to ban all new contracts for, among other things, the import, purchase, 
or transport of Iranian crude oil by its member states, and to impose 
sanctions on Bank Tejarat and CBI. We have also engaged Japan in 
constructive discussions on the implementation of these sanctions, in a 
spirit of very strong cooperation. We have had productive discussions 
with many other countries, including Turkey and India, to explain the 
law, urge them to reduce their oil imports, and underscore the 
importance of diversifying their energy supplies.
    Furthermore, we have engaged China, at every opportunity, to 
discuss the implementation of the NDAA sanctions, urge its government 
to significantly reduce its imports of Iranian crude, and press its 
companies not to ``backfill'' the business of other firms that have 
taken the responsible course and departed Iran's energy sector.
    Question. Section 7041(a) of the fiscal year 2012 Consolidated 
Appropriations Act (Public Law 112-74) stipulated that no aid shall be 
provided to the Government of Egypt unless that government is committed 
to ``holding free and fair elections; implementing policies to protect 
freedom of expression, association, and religion, and due process of 
law.''
    In light of the recent actions by the Egyptian Government with 
regard to the trial of foreign nongovernmental organization (NGO) 
employees, including American citizens, do you believe that Egypt 
currently meets the requirements under Public Law 112-74?
    Do you believe the United States should provide assistance to an 
Egyptian Government that does not comply with the Camp David Peace 
Accords?
    What is the administration's policy toward the Muslim Brotherhood 
and the Salafists now positioned to control Egypt's parliament? What 
can we do to ensure the current round of elections will not be Egypt's 
last?
    Answer. Egypt has made important progress in its transition by 
holding credible parliamentary elections and preparing for presidential 
elections in advance of the commitment by the Supreme Council of the 
Armed Forces to hand over power to a civilian president by the end of 
June. We remain deeply concerned about ongoing human rights abuses and 
restrictions on civil society, and we continue to urge the Egyptian 
Government to drop its charges against Egyptian and international NGO 
staff and revise laws on association to meet international standards 
and to respect the right of all people to associate freely.
    With regard to freedom of expression, we are encouraged by the 
proliferation of Egyptian media outlets and the use of social media 
over the last year, but we remain concerned about the government's 
detentions of bloggers and journalists by military prosecutors. 
Although the military lifted the emergency law except in cases of 
``thuggery'', this exception is so broadly defined that the law has the 
potential to limit full freedom of association and expression.
    With respect to freedom of religion, we remain concerned about the 
continuing lack of accountability for many incidents of sectarian 
violence that have occurred before and after the revolution. Egypt has 
made some strides, notably through the passage of anti-discrimination 
amendments to the penal code, but more needs to be done to protect 
religious freedom.
    The Egyptian Government has reaffirmed its intent to uphold the 
1979 Egypt-Israel Peace Treaty, and both sides have a profound interest 
in maintaining it. In the event that circumstances change, we retain 
the flexibility to make adjustments to our assistance program at any 
time. We will continue to emphasize in our discussions with Egypt's new 
and emerging leaders that it is in Egypt's strategic interest to 
continue to abide by the treaty obligations.
    Egyptians have elected new representatives to both houses of 
parliament. We are committed to engaging with the full spectrum of 
Egypt's parliamentarians, whether they are Islamists or secularists, 
and building a partnership with Egypt's next government. In doing so, 
we will continue to stress our support for democratic principles, 
including the rights of women and religious minorities, and a 
commitment to nonviolence and regional peace and security.
    Our diplomatic outreach and assistance to Egypt during this 
critical period is designed to facilitate Egypt's successful transition 
to a civilian, democratic government that meets the aspirations of 
Egyptians. We will continue to engage with the Egyptian Government, 
members of civil society, the business community, and our international 
partners to support a truly democratic and lasting system of government 
in Egypt.
    Question. Japanese media reported that the United States Government 
administration would grant Japan an exception to petroleum-related 
sanctions based on an 11-percent reduction in Japanese crude oil 
purchases from Iran--is this correct? If not, what threshold will you 
define as qualifying for the ``significant reduction'' requirement?
    Answer. The Departments of Energy, State, and the Treasury have 
sent teams of senior-level officials all over the world for frank 
discussions on the sanctions provisions in the NDAA for fiscal year 
2012.
    While we cannot detail here our specific discussions for reasons of 
confidentiality and regard for proprietary information, we've had 
positive responses from a number of countries. Japan, despite hardships 
and the loss of energy capacity after Fukushima, reduced significantly 
its imports of crude oil from Iran in the second half of 2011. Japan's 
oil industry has aggressively sought out new suppliers as an 
alternative to Iran. In a different set of circumstances, the European 
Union took legally binding action to reduce its crude oil imports from 
Iran to zero. That helps illustrate why it is in our best interest to 
engage each country on actions it can take, and not present a level 
that could understate what is possible.
    Decisions on what constitutes having ``significantly reduced'' in 
terms Iranian crude oil purchases will require renewal every 180 days.
    Question. From a diplomatic perspective, how do you set one 
threshold of ``significant reduction'' for one country and set another 
threshold for a second country?
    Answer. We look at a number of sources of information in 
considering whether a country has ``significantly reduced'' its volume 
of crude oil purchases from Iran.
    For example, we may take into account for how much crude oil a 
country consumes in the aggregate and how much comes from sources other 
than Iran. By way of illustration, a country which consumes 100,000 
barrels per day of oil from Iran out of a total crude consumption of 1 
million barrels per day has more scope for quick reductions than a 
country for which Iran is a more significant--or even the sole--
supplier. Our goal is for countries to demonstrate significant and 
sustainable reductions in crude oil imports from Iran, recognizing that 
the means used to achieve this outcome may vary based on individual 
circumstances.
    Question. Section 7041(e) of Public Law 112-74 prohibits aid to the 
Lebanese Armed Forces (LAF) if the LAF ``is controlled by a foreign 
terrorist organization'' and stipulates that fiscal year 2012 funds 
only be available ``to professionalize the LAF and to strengthen border 
security and combat terrorism.''
    In your view, what influence does Hezballah have on the LAF?
    How would you assess the progress of the LAF's training and 
performance?
    Answer. While we continue to have concerns about Hezballah's 
influence within the body politic, we do not believe this government to 
be ``Hezballah-run'', nor do we assess that Hezballah wields any 
meaningful influence over the LAF. Currently, Hezballah holds 2 out of 
30 cabinet seats--the same number it held in the previous government of 
Saad Hariri. In fact, Prime Minister Najib Mikati and his centrist 
allies in the cabinet have been successful in maintaining the 
government's commitment to Lebanon's international obligations, despite 
pressure from Hezballah and other pro-Syrian factions within Lebanon to 
do the opposite.
    We carefully watch for any attempt by Hezballah, Syria, or Iran to 
establish influence over the LAF. To date, the LAF has resisted these 
efforts and prioritizes its relationship with the United States. The 
LAF's Commander, General Jean Khawagi, reports to the Lebanese Cabinet 
and to the Prime Minister and is independent of any specific political 
faction in Lebanon.
    United States security assistance in Lebanon is targeted at 
building the LAF's professionalism and capacity as it relates to three 
specific goals:
  --implementing UN Security Council Resolution 1701 to ensure 
        stability south of the Litani river;
  --maintaining internal security and preventing a violent spillover 
        from Syria; and
  --combating terrorism.
    With the support of United States assistance and training, the LAF 
maintains a presence in all areas of Lebanon, including Southern 
Lebanon and the area south of the Litani (as called for by UN Security 
Council Resolution 1701).
    Recent examples of successful LAF operations include effective 
counter-rocket patrols south of the Litani, which led to the arrest of 
rocket-firing perpetrators in December 2011; the dismantling of a large 
narco-terrorism ring in late February 2012; and a series of low-scale, 
pre-emptive counterterrorism operations since last year which have 
prevented al Qaeda from gaining a foothold in Lebanon. On February 12, 
2012, the LAF mounted a major operation to intervene and stop a 
sectarian clash in the Northern Lebanese city of Tripoli. LAF units 
were able to interpose themselves between combatants, stop the 
fighting, and made a number of arrests and seizures of weapons.
    Furthermore, the LAF continues to cooperate with United Nations 
Interim Force In Lebanon to maintain stability along the blue line 
between Lebanon and Israel. The LAF's commitment to maintain stability 
was on display when it prevented violence by Palestinian groups during 
the June 5, 2011 ``Naksa day'' protests.
    As we have briefed in the past, the LAF maintains an impeccable 
end-use record; there is no evidence that any U.S. assistance has been 
transferred to Hezballah or other unauthorized users. The Department of 
State will continue to implement end use monitoring, vetting, and other 
existing safeguards designed to minimize the risk that Hezballah or 
other terrorist organizations will benefit from U.S. assistance 
activities.
                               next steps
    Question. What are the next steps in United States policy toward 
Syria?
    Would you support providing direct United States assistance to 
Syrian opposition groups, including self-defense aid to the Free Syrian 
Army?
    Answer. The United States is taking concrete action along three 
lines:
  --providing emergency humanitarian relief to the Syrian people;
  --ratcheting up economic and diplomatic pressure on the regime; and
  --encouraging the opposition to unite around a platform of outreach 
        to Syria's minorities and peaceful, orderly political 
        transition.
    We are continuously consulting with the like-minded partners on 
ways to pressure the regime to end violence and enable a political 
process to move forward. Moreover, we have built an international 
coalition dedicated to the same goals and methods, one that has been on 
display in the United Nations (UN) General Assembly and the recent 
Friends of the Syrian People conference.
    On February 24, the United States along with 60-plus members of the 
Friends of the Syrian People made commitments to get humanitarian aid 
to the suffering Syrian people, to increase diplomatic pressure and 
tighten sanctions on Asad and his regime, to strengthen the transition 
planning of the opposition, and to support the efforts of United 
Nations envoy Kofi Annan and the Arab League (AL) to end the violence 
and begin a true dialogue that will lead to the change the Syrian 
people deserve. Since the inaugural meeting, the European Union 
announced its 12th round of sanctions against the Asad regime, which 
were expanded on February 27 to include Syria's central bank and trade 
in precious metals and diamonds. Joint UN/AL Special Envoy Kofi Annan 
announced plans to travel to Damascus to meet with the Asad regime and 
will present a proposal to end violence and unrest in Syria, increase 
access for humanitarian agencies, release detainees, and start an 
inclusive political dialogue. It is not clear that he will be able to 
make progress. Russian Foreign Minister Lavrov intends to meet with the 
AL's Syria Committee on March 10. We look forward to advancing these 
goals at the next Friends of the Syrian People meeting in Turkey.
    On the humanitarian front, the Friends of the Syria People meeting 
resulted in pledges of tens of millions of dollars in humanitarian 
assistance for the Syrian people. Although United Nations 
Undersecretary General for Humanitarian Affairs and Emergency Response 
Coordinator Valerie Amos was not granted authorization to travel to 
Syria in late February, we have urged Syrian authorities to grant 
immediate and unfettered access as soon as possible. As part of its 
ongoing emergency food operation targeting 100,000 conflict-affected 
individuals in Syria, since February 20, the World Food Program has 
delivered 16,850 family food rations--sufficient to feed approximately 
84,000 people for 1 month--to Syrian Arab Red Crescent (SARC) 
warehouses in 11 governorates. The SARC had distributed more than 7,000 
WFP food rations to beneficiaries in 11 designated governorates, 
although several of the worst-affected areas within the governorates 
remain inaccessible due to insecurity. The Organization of Islamic 
Cooperation also announced that Syrian authorities had granted the 
group permission to send humanitarian aid to Syria.
                           arming opposition
    We have not seen our role to date as one of injecting arms and 
munitions into Syria or encouraging others to do so. As I have said, 
``There is every possibility of a civil war. Outside intervention would 
not prevent that--it would probably expedite it. As you try to play out 
every possible scenario, there are a lot of bad ones that we are trying 
to assess.''
    We have been very resistant to the idea of pouring fuel onto the 
fire ignited by the Asad regime. Rather, we have defined our role 
largely in terms of encouraging a peaceful transition by working to 
isolate this outlaw regime diplomatically, crimping its cash flow, and 
encouraging the opposition to unite around a platform of outreach to 
Syria's minorities and peaceful, orderly political transition. 
Moreover, we have built an international coalition dedicated to the 
same goals and methods, one that has been on display in the UN General 
Assembly and the recent Friends of the Syrian People conference.
    For now, we assess that a negotiated political solution is still 
possible and is the best way to end the bloodshed and achieve a 
peaceful transition to democracy, but as the Secretary recently said in 
London, ``There will be increasingly capable opposition forces. They 
will, from somewhere, somehow, find the means to defend themselves as 
well as begin offensive measures.''
    Question. Do you find it inconsistent that as Russia continues to 
supply the Assad regime with weapons, the United States Government 
continues to do business with Russian state arms company 
Rosoboronexport?
    Answer. We have voiced our concerns about Russian weapons sales to 
Syria repeatedly, both publicly and through diplomatic channels with 
senior Russian officials. Last August, Secretary Clinton publicly urged 
Russia to cease arms sales to Syria. We will continue to press Russia 
on any activities that contribute to the Syrian regime's violent 
crackdown or threaten regional stability.
    The Mi-17 helicopter purchase effort, conducted directly through 
Rosoboronexport, is critical to building the capacity of the 
Afghanistan security forces. This in no way excuses Rosoboronexport for 
its activities with Syria, but our acquisition of these helicopters is 
part of our ongoing strategy to hand over the security of Afghanistan 
to its people. For additional specific questions regarding U.S. 
contracts with Rosoboronexport, I must refer you to the Department of 
Defense.
    Question. Given Russian support for Assad's brutal attacks against 
the Syrian people, would you now agree that the administration's push 
to provide Russia access to sensitive United States missile defense 
data and technology was misguided?
    Answer. The administration is extremely disappointed that the 
Russian Federation vetoed our attempts to pass a United Nations 
Security Council resolution condemning the situation in Syria. We have 
voiced our concerns about Russian weapons sales to Syria repeatedly, 
both publicly and through diplomatic channels with senior Russian 
officials. Nevertheless, cooperation between the United States of 
America and the Russian Federation is necessary for many security-
related issues.
    Like previous Republican and Democratic administrations, this 
administration is committed to missile defense cooperation with Russia. 
The United States continues to assess what information it would be in 
our interest to share with Russia and others regarding the capabilities 
of United States missile defense systems. This assessment will affect 
information shared directly, during tests, and in any future 
cooperation. It is administration policy that the United States will 
only provide information to Russia that will facilitate enhance the 
effectiveness of our missile defenses.
    We will not provide Russia with information about our missile 
defense systems and capabilities that would in any way compromise our 
national security. We will, however, continue to press Russia on any 
activities that contribute to the Syrian regime's violent crackdown or 
threaten regional stability.
    Question. The conference report to Public Law 112-74 mandates that 
the Government Accountability Office (GAO) produce a report to the 
Appropriations Committees of the House of Representatives and the 
Senate outlining the steps that would be required to transition 
services currently provided in the West Bank by the United Nations 
Works and Relief Agency (UNRWA) to the Palestinian Authority (PA).
    Answer. The State Department regularly cooperates with GAO in its 
efforts to respond to congressionally mandated reporting requirements, 
and we will offer our complete cooperation in response to the 
conference report request for the GAO to conduct an assessment of the 
ability of the PA to assume responsibility for any of the programs and 
activities conducted by UNRWA in the West Bank and the actions that 
would be required by the PA to assume such responsibility. The U.S. 
Government has extensive oversight of UNRWA and uses every mechanism 
possible to enhance due diligence on U.S. funds provided through the 
organization. United States Agency for International Development 
(USAID) is currently working with GAO on its audits concerning fiscal 
year 2010 and fiscal year 2011.
    UNRWA has the sole United Nations mandate to assist Palestinian 
refugees until there is a resolution to the Israeli-Palestinian 
conflict. UNRWA's mandate is governed by the UN General Assembly. UNRWA 
provides essential humanitarian and education support to refugees in 
the PA-controlled West Bank that is beyond the financial and 
organizational capacity of the PA at present. We look forward to the 
day that UNRWA is no longer needed, but this need will continue until 
there is a resolution to the Palestinian refugee question in the 
context of a negotiated peace.
    Question. Will you commit to providing the GAO complete cooperation 
and access to information needed to fulfill this mandate, including 
information related to the PA's accounting and payment systems?
    The State Department has posted copies of its 2010, 2011, and 2012 
Framework for Cooperation between UNRWA and the Government of the 
United States of America on the State Department's Web site. The 
Frameworks can be accessed at http://www.state.gov/j/prm/releases/
frameworknew/index.htm. Upon request, we would be happy to brief the 
Senator or interested staff in additional detail on other relevant 
agreements or documents between UNRWA and the Government of the United 
States of America.
    Question. Can you provide my office with copies of all frameworks, 
agreements, understandings, or contracts signed and/or agreed to 
between UNRWA and the Government of the United States of America for 
all years since 1950?
    Who was responsible for negotiating the Framework for Cooperation 
between UNRWA and the Government of the United States of America for 
2011, who will be responsible for negotiating the next framework for 
cooperation and when will the next framework be signed?
    Answer. The Bureau of Population, Refugees, and Migration (PRM) 
leads the annual framework negotiations with UNRWA for the Department 
of State, in consultation with State Department colleagues. The 2012 
Framework for Cooperation was signed on December 16, 2011, by PRM 
Acting Assistant Secretary David Robinson and UNRWA Commissioner 
General Filippo Grandi. A copy of this Framework is available on the 
State Department's Web site. The 2012 Framework is effective January 1, 
2012 through December 31, 2012. Negotiations for the 2013 Framework 
will begin in August 2012.
    Question. Pursuant to report language in Public Law 112-74, how 
does the State Department plan to prioritize the protection of 
vulnerable ethno-religious minorities in Iraq, specifically the Chaldo-
Assyrian communities in the Nineveh Plains?
    Would you support the establishment of an autonomous region in the 
Nineveh Plains consistent with Article 125 of the Iraqi constitution?
    Answer. Security for Iraq's minority communities is a high priority 
for the United States Government. We continue to work with the 
Government of Iraq and Iraq's religious and ethnic minority communities 
to address the challenges faced by these communities in Iraq.
    The Government of Iraq provides security for churches and has hired 
members from Iraq's minority communities to serve in the Government of 
Iraq's Facilities Protection Services (FPS), which is charged with 
protecting religious entities in Iraq. Hiring of minority FPS officers 
was a request of the minority communities and we have been pleased to 
see the Government of Iraq maintain its commitment to this issue as 
well as provide increased protection during Christian holidays. Through 
the Department's Iraq Police Development Program (PDP), United States 
trainers and advisors work with Iraq's Interior Ministry to improve 
internal security in a manner that is consistent with international 
policing and human rights and support efforts to build a police force 
that is inclusive of all Iraqis.
    Article 125 of the Iraqi Constitution ``guarantees the 
administrative, political, cultural, and educational rights of the 
various nationalities, such as Turkomen, Chaldeans, Assyrians, and all 
other constituents.'' Some minorities refer to ``administrative'' 
rights as the right to create an autonomous region, or province, for 
minorities in Iraq. The United States Government believes the creation 
of an autonomous region for minorities in Iraq is a sovereign issue for 
minority communities and the Government of Iraq to decide. The 
Department notes that the position within the communities on the 
creation of an autonomous region remains divided.
    To encourage Iraq's minorities to work together on issues of common 
interest, the Department has supported the U.S. Institute of Peace 
(USIP) in the creation of a ``Minorities Caucus'' within Iraq's Council 
of Representatives to provide legislative training and capacity 
development to enable Caucus members to speak with one voice to the 
highest levels of the Iraqi Government. The Caucus has been able to 
promote minority rights through legislation. USIP's Rule of Law program 
also established the Alliance of Iraqi Minorities, a network of 10 
minority NGOs and more than 30 leading activists equipped to provide 
input on minority concerns to local and national government officials.
    Moving forward, we will continue to support Iraqi-led initiatives 
to help create conditions for Iraq's minorities to remain in Iraq.
    Question. In response to my October 2011 letter regarding perimeter 
protection of United States facilities in Iraq, the State Department 
wrote that ``with the exception of two temporary facilities, all sites 
in Iraq under Chief of Mission Authority . . . meet or exceed 
requirements established by the Overseas Security Policy Board 
(OSPB).''
    How many temporary facilities that the State Department will 
operate have been (or are being) constructed in Iraq? Can you identify 
temporary facilities that do not meet the required OSPB standards? Have 
you investigated and identified why these facilities do not meet these 
standards and what alternatives exist to ensure that these requirements 
are met?
    Answer. How many temporary facilities that the State Department 
will operate have been (or are being) constructed in Iraq?
    The Department maintains seven temporary compounds in Iraq:
  --Baghdad Policy Academy Annex (BPAX, formerly Joint Security Station 
        Shield);
  --Embassy Annex Prosperity;
  --Baghdad Diplomatic Support Center (BDSC, formerly Sather Airbase);
  --Consulate General Basrah;
  --Consulate General Erbil (Ankawa);
  --Consulate General Kirkuk; and, Erbil Diplomatic Support Center 
        (EDSC).
    Can you identify temporary facilities that do not meet the required 
OSPB standards?
    At the time of the Department's response to Senator Kirk's October 
2011 letter, three \1\ Department of State temporary facilities--BPAX, 
Embassy Annex Prosperity, and BDSC--had pending waivers to OSPB and 
Secure Embassy Construction and Counterterrorism Act of 1999 (SECCA) 
standards. Subsequently, Embassy Annex Prosperity has been granted a 
waiver.
---------------------------------------------------------------------------
    \1\ The Department's previous response referred to two facilities. 
This was an oversight.
---------------------------------------------------------------------------
    In addition, we are in various stages of requesting waivers and/or 
exceptions for Consulates General in Erbil, Basrah, and Kirkuk, and 
EDSC.
    Question. Have you investigated and identified why these facilities 
do not meet these standards and what alternatives exist to ensure that 
these requirements are met?
    Answer. All Department facilities throughout Iraq are subject to 
OSPB (12 FAH-6 H-114.4) policies and SECCA requirements. The need to be 
mission-capable by a certain date, on a given site, and with due 
attention to the cost of these temporary sites meant that in some cases 
compliance with one or more standards was not possible. The Department, 
therefore, utilized exception and waiver procedures. Waivers and 
exception packages identify the deficiencies for each site and allow 
the Department to give careful consideration to operating in a facility 
that does not meet OSPB or SECCA standards. This is done by evaluating 
the risks, and deciding when security considerations permit the 
standards to be waived in a particular case.
    Where OSPB and SECCA standards could not be met, the following 
mitigation strategies were utilized as temporary measures for temporary 
facilities:
  --Overhead protective systems are in place at BPAX, BDSC, and 
        Consulate General Basrah. These systems result from a threat-
        driven initiative by Post, rather than a regulatory 
        requirement.
  --T-Walls backed by Jersey barriers to meet anti-climb and anti-ram 
        requirements are in place or being installed for perimeters at 
        EDSC, Prosperity, BPAX, BDSC, Consulate General Basrah, and 
        Consulate General Erbil.
  --T-Walls for side-blast mitigation around offices and living spaces 
        are used at EDSC, Prosperity, BPAX, BDSC, and Consulate General 
        Basrah. As stated in the Department's response to Senator 
        Kirk's October 2011 letter, T-Walls provide limited blast 
        mitigation. The Department worked to transfer the majority of 
        these barriers from the Department of Defense to stretch 
        limited financial resources and be good stewards of public 
        monies while meeting the need for expediency in a contingency 
        operating environment.
  --Robust perimeter guard towers are employed at all Department of 
        State sites, except Consulate General Erbil and EDSC. These 
        towers are a DS-supported initiative in response to the 
        evaluation of potential threat rather than to a regulatory 
        standard. The Department continually monitors the risk levels, 
        the mitigation strategies in place, and any change in the 
        expected length of occupancy of these temporary facilities. If 
        additional measures are required, including full compliance 
        with the applicable standards where possible, we will act.
    Question. As required by section 7046(c) of Public Law 112-74, are 
you prepared to certify that Pakistan is ``not supporting terrorist 
activities against United States or coalition forces in Afghanistan'' 
or ``cooperating with the United States in counterterrorism efforts 
against the Haqqani Network''?
    Answer. I do not want to presuppose or prejudice the findings of 
any certification review, but I assure you that we will diligently and 
thoroughly consider the certification requirements set forth in the 
statute and all the relevant facts when determining whether Pakistan is 
cooperating with the United States against the Haqqani Network.
    Question. What steps is the administration taking to press Turkey 
to end its blockade of Armenia and to normalize relations without 
preconditions?
    Answer. The Obama administration strongly supports the efforts of 
Turkey and Armenia to normalize their bilateral relations. The United 
States maintains an ongoing dialogue with Turkish and Armenian 
officials at all levels on these issues, and we will continue to 
support the courageous steps taken by individuals in Armenia and Turkey 
to foster a dialogue that acknowledges the history they share in 
common.
    The U.S. Government also supports a number of track II initiatives 
to enhance people-to-people connections, building a foundation for 
reconciliation on which our foreign policy goal of peace, stability and 
normalization can grow. Our Embassy in Ankara supported youth 
leadership seminars with Armenian, Turkish, and American participants; 
university exchanges have focused on tourism development; and English 
teacher training has examined the role of language to promote cross 
cultural ties. The USAID mission in Armenia funded a large Armenia-
Turkey project implemented by the Eurasia Partnership Foundation from 
2010 to 2012, and plans to continue supporting cross-border programs in 
the coming fiscal year. Our Embassy in Yerevan supported a multi-
national youth orchestra for cultural dialogue through music. Both 
Embassies provide small grants to local NGOs and alumni of U.S.-funded 
exchange programs to support cross-border reconciliation projects.
    Question. On December 13, 2011, the House of Representatives 
unanimously passed a resolution calling on Turkey to return Christian 
churches and properties (H. Res. 306).
    What efforts has the administration undertaken in this regard and 
what has been Turkey's response? Are you satisfied with the response?
    Answer. The return of the property of minority religious 
communities in Turkey is an important goal of this administration, and 
we have repeatedly raised this issue with Turkish officials at the most 
senior levels. Religious minority groups continue to face challenges in 
Turkey, but we are encouraged by the concrete and important steps the 
Government of Turkey has recently taken to address historical 
grievances and promote religious freedom.
    In August 2011, for example, Prime Minister Erdogan issued a decree 
allowing religious minorities to apply to reclaim churches, synagogues, 
and other properties confiscated 75 years ago. Several properties have 
already been returned to the 24 minority religious community 
foundations which have applied thus far. In November 2010, the 
Government of Turkey returned the Buyukada orphanage to the Ecumenical 
Patriarchate, in line with a ruling by the European Court of Human 
Rights. Separately, speaking to the press on the issue of the re-
opening of Halki Seminary, Deputy Prime Minister Bozdag said in 
February the government would ``support such a move.'' He went on to 
say, ``The main debate is on the status of the school; it is not about 
permission.'' We will continue to urge the Government of Turkey to 
follow through on this commitment.
    The redrafting of Turkey's constitution also represents a 
significant development for Turkey's minority religious communities. 
Parliament speaker Cemil Cicek has reached out to Orthodox, Jewish, 
Armenian, and Syriac leaders during this process. On February 20, the 
Ecumenical Patriarch was invited to address the Turkish Parliament for 
the first time in the history of the republic. In his address he 
acknowledged ongoing challenges when it comes to religious freedom in 
Turkey, but also noted the positive changes taking place when he 
remarked, ``Unfortunately, there have been injustices toward minorities 
until now. These are slowly being corrected and changed. A new Turkey 
is being born.''
    We welcome these positive steps but also recognize that more needs 
to be done. This administration will continue to monitor Turkey's 
progress closely, in consultation with the religious communities 
affected, urging the Government of Turkey to return all properties 
confiscated from minority religious communities to their rightful 
owners.
    Question. As you know, there have been increasing ceasefire 
violations in Nagorno Karabakh (NK), most recently resulting in the 
death of an Armenian soldier. Azerbaijani officials have continued to 
make aggressive statements that undermine stability in the region, 
including threats made in March and April 2011 to shoot down civilian 
aircraft over NK. Last month, President Aliyev said, ``It's not a 
frozen conflict, and it's not going to be one.'' In light of these 
developments, is it your view that the Government of Azerbaijan 
continues to meet all conditions for a waiver under section 907 of the 
FREEDOM Support Act, including that aid to Azerbaijan ``not undermine 
or hamper ongoing efforts to negotiate a peaceful settlement between 
Armenia and Azerbaijan''?
    Answer. Armenia and Azerbaijan have expressed support for the 
Organization for Security and Co-operation in Europe (OSCE) Minsk Group 
process to achieve a peaceful resolution of the Nagorno-Karabakh 
conflict. In a joint statement with Russian President Medvedev in Sochi 
in January 2012, Presidents Aliyev and Sargsian committed to accelerate 
reaching agreement on the Basic Principles, which provide a framework 
for a comprehensive peace settlement. As a co-chair of the OSCE Minsk 
Group, the United States remains committed to assisting the sides in 
the Nagorno-Karabakh conflict to reach a lasting and peaceful 
settlement. To this end, the United States calibrates its assistance to 
ensure that it is not usable in an offensive operation against Armenia 
or Azerbaijan, does not affect the military balance between Armenia and 
Azerbaijan, and does not undermine or hamper ongoing efforts to 
negotiate a peaceful settlement between Armenia and Azerbaijan. The 
United States most recently exercised its authority to waive section 
907 of the FREEDOM Support Act on February 10, 2012.
    Question. On January 26, 2012, you stated that the Armenian 
genocide is ``a matter of historical debate.'' Do you believe that the 
administration's current policy that fails to recognize the Armenian 
genocide serves to promote reconciliation in the region and speak 
clearly to America's moral principles and values?
    Do you stand by your 2008 statement that, ``[T]he horrible events 
perpetrated by the Ottoman Empire against Armenians constitute a clear 
case of genocide,'' and that ``[o]ur common morality and our nation's 
credibility as a voice for human rights challenge us to ensure that the 
Armenian genocide be recognized and remembered by the Congress and the 
President of the United States''?
    Answer. The United States recognizes the events of 1915 as one of 
the worst atrocities of the 20th century. Every April 24 the President 
honors the victims and expresses American solidarity with the Armenian 
people on Remembrance Day. We mourn this terrible chapter of history 
and recognize that it remains a source of great pain for the people of 
Armenia and of Armenian descent, and for all those who believe in the 
dignity and value of every human life.
    The President has said in his April 24 Remembrance Day statements 
that the achievement of a full, frank, and just acknowledgement of the 
facts of what occurred in 1915 is in all our interests. He also has 
said that the best way to advance that goal is for the Armenian and 
Turkish people to address the facts of the past as a part of their 
efforts to move forward. He strongly supports the efforts of Turkey and 
Armenia to normalize their bilateral relations. The President believes 
that together, Armenia and Turkey can forge a relationship that is 
peaceful, productive, and prosperous. We believe that full 
normalization of relations between these two neighbors is important for 
the future of both countries and for stability in the region.
    Question. Do you support any official restrictions on 
communication, contacts, travel, or other interactions between United 
States and Nagorno Karabakh Government officials?
    Answer. As a co-chair of the OSCE Minsk Group, the United States 
remains committed at the highest levels to assisting the sides of the 
Nagorno-Karabakh conflict to achieve a lasting and peaceful settlement. 
We continue to engage leaders in order to reach agreement on a 
framework for such a settlement, which then can lead to a comprehensive 
peace treaty. No country, including Armenia, recognizes the self-
declared independence of the so-called ``Nagorno-Karabakh Republic.'' 
However, the U.S. Co-Chair of the Minsk Group travels regularly to 
Nagorno-Karabakh to meet with the de facto authorities there, as part 
of the overall effort to engage all the populations that have been 
affected by the conflict.
                                 kosovo
    Question. According to USAID, ``Kosovo is the youngest country in 
Europe with more than 50 percent of Kosovars aged 25 or younger. The 
growing youth population that is unemployed (estimates range from 50 to 
75 percent), disengaged, and disconnected is emerging as an urgent 
issue for the newly independent state.'' In an effort to foster 
stability and economic development, would you support prioritizing 
United States assistance for Kosovo with a focus on education? Can you 
please provide an update on your efforts in regard?
    Answer. The U.S. Government supports a wide range of programs 
designed to create economic growth and long-term, sustainable 
opportunities, including in the fields of education and workforce 
capacity development. Both State and USAID recognize that professional 
and vocational education is key to stability and growth in Kosovo and 
throughout the region.
    USAID has supported the basic education sector in Kosovo by 
engaging in activities in learning assessment, curriculum and 
professional development, including the introduction of technology in 
math and science, and management capacity, consistent with the Kosovo 
Ministry of Education's reform strategy. As a result of a strong 
partnership USAID developed with the Government of Kosovo, United 
States Government funding for basic education in Kosovo was not 
allocated after fiscal year 2011, as the Government of Kosovois now 
contributing resources in order to meet program objectives in this 
sector.
    Higher education funds support results-oriented programs to address 
specific issues related to human resource development and higher 
learning. Our assistance is aimed at supporting the development of 
Kosovo's educational institutions, particularly those that will have a 
direct impact on Kosovo's economic growth and democratic stability.
    USAID and State are reviewing options to expand financial support 
for bilateral educational exchanges between Kosovo and United States 
universities and colleges. USAID is currently engaging in feasibility 
analysis to determine the needs of strategically selected Kosovo higher 
education institutions in priority developments areas. The assessment 
will also address institutional partnerships, faculty exchanges and 
student scholarships, as these contribute to building and strengthening 
Kosovo's development institutions and societal transformation.
    We anticipate that USAID will make specific recommendations to the 
State Department no later than summer 2012 on a plan for expanded 
support for higher education in Kosovo.
    Question. When do you expect the joint State-USAID Partner Vetting 
System (PVS) pilot to become fully operational?
    Answer. State and USAID will jointly deploy the five-country 
vetting pilot. Both organizations needed to undertake a series of 
regulatory actions and system modifications to begin to vet in the 
pilot countries, and in accordance with the fiscal year 2012 
Appropriations Act language, intend to deploy the pilot prior to 
September 30, 2012.
    Question. Would you support expanding PVS globally?
    Answer. The countries selected for the pilot represent a range of 
risks, and are located where both State and USAID have comparable 
programs. The pilot program is intended to generate information so that 
State and USAID can ``test'' certain assumptions related to the use of 
vetting and risk assessment tools as a means to prevent funding and 
support of terrorist organizations. State and USAID will collect and 
analyze information during the pilot to determine the costs and 
benefits of this type of vetting. This evaluation will include 
analyzing whether vetting is successful in preventing the funding and 
support of terrorist organizations; what the level of risk is for such 
funding without vetting; and what impact vetting has on the efficient 
and effective implementation of United States foreign assistance 
programs. At the conclusion of the pilot program, State and USAID will 
determine whether it is appropriate to implement a partner vetting 
system more broadly, and/or make changes to the risk-based model it 
employs.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                                 egypt
    Question. What impact would cutting all United States foreign aid 
to Egypt have on our relationship? Do we know if United States aid is a 
condition for Egypt's continued adherence to the Camp David Accords?
    Answer. Cutting all United States foreign aid to Egypt would 
severely hamper our ability to protect vital national security 
interests in the region and support a successful transition to 
democracy in Egypt. As we begin a new chapter in our relationship with 
an elected Egyptian Government, our assistance demonstrates continued 
commitment to the United States-Egypt strategic partnership that has 
been a linchpin of regional peace and security for more than 30 years. 
In this vein, our Foreign Military Financing (FMF) supports our 
critical partnership with Egypt on regional security, counterterrorism, 
and efforts to stop arms smuggling. FMF also allows Egypt's military to 
maintain its readiness and interoperability with United States forces, 
which is essential for effective cooperation on regional threats.
    Since 1975, our economic assistance has made a transformative 
impact on the lives of Egyptians by supporting advances in a wide range 
of fields, including education, healthcare, agriculture, 
entrepreneurship, and governance. Our Economic Support Funds also play 
an important role in promoting economic growth and fiscal stability in 
Egypt, which in turn helps ensure that Egypt can establish stable 
democratic institutions. Ending economic assistance to Egypt would cast 
doubt on our support for this transition and damage our relationship 
with the Egyptian people.
    Although much of our bilateral assistance has been provided since 
the Treaty of Peace between Egypt and Israel, the United States is not 
a party to the treaty and is not obligated to provide continued 
assistance to Egypt. Our security and economic assistance is designed 
to promote stability, democracy, and economic prosperity--interests the 
United States shares with Egypt.
    Question. Now that United States nongovernmental organizations 
(NGO) are no longer operating in Egypt, what kinds of channels does the 
United States have to positively impact Egypt's democratic transition?
    Answer. Despite the Egyptian Government's investigation into 
foreign funding of NGOs, NGOs continue to operate in Egypt in a variety 
of roles supported by donors from around the world, including the 
United States. Many Egyptian NGOs continue to perform work that 
promotes human rights and holds the Egyptian Government accountable; 
for example, throughout Egypt's parliamentary elections, dozens of 
Egyptian NGOs organized networks of election ``witnesses'' who were 
deployed to make sure the vote was fair and transparent.
    However, we remain deeply concerned that the Egyptian Government 
continues to pursue criminal charges against the staff of National 
Democratic Institute, International Republican Institute, Freedom 
House, the International Center for Journalists, and the Konrad 
Adenauer Foundation; Egypt's laws on associations and their 
implementation appear contrary to Egypt's international obligations and 
commitments regarding human rights and fundamental freedoms. We will 
continue to register these concerns and defend publicly and privately 
the critical role civil society plays in any successful democracy.
    We will also continue to employ all the tools at our disposal to 
support Egypt's democratic transition. Our diplomacy, public messaging, 
and assistance are all designed to support the aspirations of the 
Egyptian people for a democratic future and promote respect for human 
rights, and we will seek to support the voices of those Egyptians who 
are pressing for positive change. The Supreme Council of the Armed 
Forces has pledged to hand over power to an elected president by July 
1, and we expect a democratically elected civilian to take power on 
that date.
    In anticipation of this new government, we have also begun engaging 
extensively with Egypt's newly elected parliamentarians, presidential 
candidates, and other rising political leaders. In all of these 
conversations, we have emphasized the importance of respecting 
democratic institutions and the universal human rights of all Egyptian 
citizens, including freedoms of expression, association, and religion.
    Question. Given the increasingly chaotic situation on the Sinai 
Peninsula, it appears the Egyptian Government is incapable for the 
moment of guaranteeing the stability of that region. What kinds of 
things can the United States be doing to positively impact the Sinai 
area, and can that be accomplished with directed security assistance?
    Answer. Improving security in the Sinai is a complex issue that 
calls for engagement on many fronts. We are encouraged by the fact that 
the Egyptian Government has undertaken counterterrorism operations in 
the area and announced the formation of a Sinai Development Authority 
to address security challenges. However, more can be done to encourage 
and support development for residents of the Sinai, which is the root 
cause of crime and unrest. We will continue to engage with the Egyptian 
Government at the highest levels on this issue to convey the importance 
of restoring security to the Sinai. In addition, we look forward to 
working with Egypt's next elected government on solutions to this 
important issue.
                                  iran
    Question. Is containment of Iran's future nuclear threat a real 
option for U.S. national security? If not, is there any real option 
outside of prevention?
    Answer. The administration has been unequivocal about its policy 
toward Iran: A nuclear-armed Iran would be counter to the national 
security interests of the United States, and we are determined to 
prevent Iran from acquiring a nuclear weapon. This is a top national 
security priority for the Obama administration, and our dual-track 
strategy of pressure and engagement is aimed at preventing such a 
destabilizing development. As we have said, however, no options are off 
the table.
    Question. During this hearing last year, we discussed the option of 
using funds from the Middle East Partnership Initiative (MEPI) to 
assist groups looking to make Iran a more pluralistic society. Has the 
State Department begun using MEPI funds for this purpose?
    Answer. The State Department is not using MEPI funding to support 
Iran projects.
    However, since 2004, the State Department has used a different 
appropriation to help Iranian civil society make its voice heard in 
calling for greater freedoms, accountability, transparency, and rule of 
law from its government.
    Additional information about Iran programming is available to you 
and your staff in a classified briefing.
    Question. What kinds of diplomatic initiatives is the 
administration taking with regard to some of our more reluctant 
international partners on sanctions? Russia, China, India?
    Answer. The administration has held very candid conversations about 
implementing sanctions with a number of countries, including China, 
India, and Russia. As I have testified, countries in a number of cases, 
both in government and business, are taking actions that go further and 
deeper than their public statements might indicate.
    In the cases of China, India and Russia, all three share our goal 
of preventing Iran from acquiring a nuclear weapon and we have worked 
with each on this objective, both bilaterally and in multilateral fora.
                                pakistan
    Question. What overall direction is the United States relationship 
with Pakistan heading right now? How does ongoing United States foreign 
assistance contribute to that trend?
    Answer. Despite challenges in the bilateral relationship, the 
United States and Pakistan recognize that it is in both of our 
strategic interests to continue a meaningful engagement. At this time, 
Pakistan's Parliamentary Committee on National Security is conducting a 
review of the bilateral relationship. The completion of the 
Parliamentary Review will offer an important opportunity to refocus our 
engagement to ensure that it is enduring, strategic and defined more 
clearly. The United States respects Pakistan's sovereignty and desires 
to achieve a more balanced relationship, in part through this Review.
    Both Pakistan and the United States share an interest in ensuring a 
stable, tolerant, democratic and prosperous Pakistan. Our civilian 
assistance programs, focused primarily on five priority sectors of 
energy, economic growth (including agriculture), stabilization of the 
tribal border areas, education, and health, with a cross-cutting focus 
on helping Pakistan strengthen civilian governance, help support that 
objective. As such, civilian assistance has continued uninterrupted 
throughout recent challenges in the relationship. By working with the 
Pakistani Government and non-governmental institutions to strengthen 
the country's economy, governance, and capacity to deliver public 
services, we make Pakistan a stronger partner for bilateral 
cooperation. In the long-term, we seek to support Pakistan's economy 
with an emphasis on trade over aid.
    Counterterrorism and counterinsurgency remain primary United States 
national security interests in Pakistan. Our security assistance 
programs continue to focus on strengthening Pakistan's capabilities in 
counterterrorism and counterinsurgency, and on promoting closer 
security ties with the United States. Since May 2011, the 
administration has slowed some of our security and military assistance, 
reflecting the reality that some of these programs are tied to the 
level of cooperation in our overall relationship. We continue to 
calibrate and review the delivery of security assistance to ensure that 
it is in line with our shared objectives and based upon Pakistan's 
cooperation. We are looking at ways to adjust our programs to ensure 
they continue to meet our national security objectives.
                                 russia
    Question. The U.S. Congress may face a critical decision this year 
as it considers the idea of allowing Russia Permanent Normal Trade 
Relations to comply with commitments under the World Trade Organization 
(WTO). Because the United States already consented to Russia's joining 
the WTO before the Congress could act, this decision is now just about 
whether or not United States companies can take advantage of WTO rules 
in Russia. Why did the United States consent to allow Russia to join 
the WTO before the Congress could properly consider this important 
issue, especially during a time when so many of Russia's other actions 
are challenging to basic tenets of U.S. policy?
    Answer. Today, the United States has few effective tools to resolve 
issues with Russia when United States exporters of goods and services 
are adversely affected by actions of the Russian Government. When 
Russia is a member of the WTO, Russia will be subject to the same rules 
that other WTO members must comply with, as well as additional 
commitments that we negotiated over nearly two decades to address 
United States trade concerns. WTO members, including the United States 
if Permanent Normal Trade Relations are extended to Russia, will have 
recourse to WTO dispute settlement procedures to address any 
noncompliance on Russia's part. The United States made no new 
commitments or concessions to Russia to achieve this situation.
    During the negotiations, State, United States Trade Representative 
(USTR), and other agencies consulted closely with several congressional 
committees on the terms and timing for Russia's accession to the WTO. 
Before joining the consensus among WTO members to invite Russia to join 
the WTO, we discussed the terms for accession and the need to invoke 
the provisions of the WTO agreement that prevent application of the 
Agreement between the United States and Russia until we withdraw our 
invocation of that provision. One of the strengths of the WTO is that 
members have taken a pragmatic approach and avoided taking actions for 
nontrade reasons.
    We are sensitive to the need for the Congress to consider all 
aspects of our relationship with Russia and are willing to discuss 
these issues with you and your colleagues as we work together on steps 
that will allow us to reap the benefits of an improved trade 
relationship with Russia and find ways to persuade Russia to change 
other actions and policies.
    Question. After the largest default in history 11 years ago, 
Argentina effectively turned its back on more than $81 billion in 
international bonds. Many of these bonds were issued under U.S. law. 
More than 100 United States court judgments have ordered Argentina to 
fulfill its debt obligations to United States creditors, but Argentina 
has not complied. Is the State Department taking any steps to protect 
the interests of these U.S. creditors?
    Answer. On the margins of the Cannes G-20 Summit in November, 
President Obama discussed with President Fernandez de Kirchner the need 
for Argentina to normalize its relationship with the international 
financial and investment community, and he urged Argentina to take 
concrete actions with respect to repayment of outstanding arrears and 
complying with final and binding arbitral awards. Senior State 
Department officials and others in the administration have followed up 
with Argentine officials to reinforce the President's message.
    We believe it is in the mutual interest of Argentina and the United 
States, that Argentina resolves its longstanding obligations to 
creditors and arbitral award holders. Failing this, Argentina's access 
to United States financial markets remains sharply curtailed.
    By meeting its obligations to creditors and investors, Argentina 
would send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for the sustained economic growth. 
Argentina's arrears to United States Government agencies total about 
$550 million, and U.S. Government effort, including the Paris Club of 
official creditor nations, is appropriately focused on recovering full 
payment on these loans extended on behalf of American taxpayers. We 
also continue to use every opportunity to urge Argentina to resolve the 
claims of private American bondholders and investors
    In meeting its obligations to creditors and investors, Argentina 
will send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for the sustained economic growth.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. The Senate Appropriations Committee's report to accompany 
the fiscal year 2012 State, Foreign Operations, and Related Programs 
bill noted the historic flooding which occurred along the Souris River 
in 2011. The Committee recommended ``that the Department of State 
request that the International Joint Commission, through the 
International Souris River Board, review ``Annex A'' of the 1989 
bilateral agreement for Water Supply and Flood Control in the Souris 
River Basin and identify revisions to improve bilateral flood control 
efforts.'' Please provide an update about the State Department's 
efforts to start a process of revising ``Annex A.''
    Answer. At the International Joint Commission's (IJC) International 
Souris River Board's last meeting on February 22, 2012, the Board 
approved establishing a Task Team to lead the review of Annex A of the 
1989 agreement. The Board currently is developing a Terms of Reference 
for the Task Team. Once it is constituted, the Task Team will develop a 
proposal to the IJC's International Watersheds Initiative to support 
the review of the annex.
    Question. What is the administration's message to the pro-democracy 
movement in Iran as we apply sanctions to the regime?
    Answer. As we've moved to levy more extensive sanctions against 
Iran, we have made clear to the Iranian people that these steps emanate 
from our deepening frustration with the choices made by the Iranian 
regime. Our message to the Iranian people and the pro-democracy 
movement is that the regime should be held accountable for the 
suffering it has brought upon the country through the choice it has 
made at the expense of the Iranian people. The President has continued 
to reiterate that Iran faces a choice (most recently in the State of 
the Union Address):

    ``Let there be no doubt: America is determined to prevent Iran from 
getting a nuclear weapon, and I will take no options off the table to 
achieve that goal. But a peaceful resolution of this issue is still 
possible, and far better, and if Iran changes course and meets its 
obligations, it can rejoin the community of nations.''

    I have also expressed support for the Iranian people, noting our 
efforts to counter the Iranian regime's efforts to place an electronic 
curtain around the Iranian people. As a part of a promise to the 
Iranian people that we will counter the regime's electronic curtain, 
the Department of State continues to work with the Department of the 
Treasury to publicize clarifying guidance regarding the exportation to 
Iran of software and services that will empower ordinary Iranians to 
communicate with others outside Iran.
    We will also continue to speak out against Iranian human rights 
abuses and work through multilateral for a to ensure that Iranian 
voices are heard.
    As we continue to amplify this message, we hope that more and more 
Iranians will understand that the United States seeks deeper 
connections with the Iranian people that create new possibilities for 
mutual understanding.
    Question. What does the fiscal year 2013 budget request do to 
support the advancement of democracy, human rights, and the rule of law 
in Iran?
    Answer. Since 2004, the State Department and USAID have prioritized 
the advancement of democracy, human rights, and the rule of law in Iran 
by supporting projects to help Iranian civil society amplify its voice 
in calling for greater freedoms, accountability, transparency, and rule 
of law from its government.
    Our fiscal year 2013 budget request seeks to continue supporting 
similar initiatives that promote access to new media, encourage freedom 
of expression, strengthen civil society capacity and advocacy, and 
increase awareness of and respect for human rights, the rule of law, 
good governance and political competition.
    Additional information about Iran programming is available to you 
and your staff in a classified briefing.

                          SUBCOMMITTEE RECESS

    Senator Leahy. And we are just about on time.
    Thank you, Madam Secretary.
    Secretary Clinton. Thank you very much, Mr. Chairman.
    [Whereupon, at 12:02 p.m., Wednesday, February 28, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
